<html>
<title> - [H.A.S.C. No. 114-65] FUTURE OPTIONS FOR THE U.S. NUCLEAR DETERRENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-65]

                      FUTURE OPTIONS FOR THE U.S.

                        NUCLEAR DETERRENT--VIEWS

                           FROM PROJECT ATOM

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            NOVEMBER 3, 2015

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-499 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                     
  
  
  
  
  
  
  
  
  
  
  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Blechman, Dr. Barry, Co-Founder, Stimson Center..................     8
Colby, Elbridge, Robert M. Gates Senior Fellow, Center for a New 
  American Security..............................................     6
Mount, Dr. Adam, Independent Consultant..........................     9
Murdock, Dr. Clark A., Senior Advisor, International Security 
  Program, Center for Strategic and International Studies........     3
Payne, Dr. Keith, Professor and Department Head, Graduate 
  Department of Defense and Strategic Studies, Missouri State 
  University.....................................................     4

                                APPENDIX

Prepared Statements:

    Blechman, Dr. Barry..........................................    75
    Colby, Elbridge..............................................    61
    Cooper, Hon. Jim.............................................    39
    Mount, Dr. Adam..............................................    91
    Murdock, Dr. Clark A.........................................    40
    Payne, Dr. Keith.............................................    50
    Rogers, Hon. Mike............................................    37

Documents Submitted for the Record:

    Excerpts from ``Project Atom: A Competitive Strategies 
      Approach to Defining U.S. Nuclear Strategy and Posture for 
      2025-2050''................................................   103

Witness Responses to Questions Asked During the Hearing:

    Mr. Aguilar..................................................   135

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................   155
    Mr. Garamendi................................................   159
    Mr. Rogers...................................................   139
    
    
    
    
 FUTURE OPTIONS FOR THE U.S. NUCLEAR DETERRENT--VIEWS FROM PROJECT ATOM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                         Washington, DC, Tuesday, November 3, 2015.
    The subcommittee met, pursuant to call, at 3:29 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. This subcommittee will come to 
order.
    Welcome to our hearing on ``Future Options for the U.S. 
Nuclear Deterrent: Views from Project Atom.''
    For those who haven't read it yet, Project Atom is a unique 
and very timely study on the future of the U.S. nuclear 
deterrence. It is unique because it brings together 
perspectives from across the policy and political spectrum to 
examine this most important of national security issues.
    Four different think tanks participated and had what 
appears to be a spirited debate of the critical issues. And 
Project Atom is timely because it is so sorely needed. As some 
of the materials for the study say, it helps fill, quote--``the 
current deficit in the national security attention paid to the 
continued relevance and importance of the U.S. nuclear strategy 
and force posture,'' close quote.
    This committee has been striving to correct this deficit as 
well. And we welcome Project Atom and its contributing authors 
in support of that cause.
    Chairman Thornberry's nuclear deterrence week of hearings 
and classified briefings this summer was a step along that same 
path. This subcommittee will continue to work to inform 
Congress and the public on the requirements for a robust and 
credible nuclear deterrence long into the future.
    My hope is that Congress and the executive branch, 
particularly in the next administration, will take a hard look 
at Project Atom and what it is trying to tell us, because the 
bottom line is that the world is not standing still. We are not 
returning to the Cold War, but we are also not returning to the 
1990s when so many people believed international peace and love 
would reign indefinitely.
    We need a clear-eyed view of the world's other nuclear 
states and would-be nuclear states and what we must do to 
ensure nuclear deterrence holds and nonproliferation prevails.
    In the short term, we need to focus on building a nuclear 
strategy, posture, and enterprise that is flexible and 
responsive. Our witnesses have lots of suggestions on that 
front and this committee has advanced legislation toward that 
goal.
    In the long term, I believe we need to rethink the logic 
behind a policy that keeps the United States indefinitely 
maintaining a nuclear capability we had in the 1990s.
    As other nations, Russia, China, North Korea, Pakistan, 
continue to research and deploy new nuclear capabilities over 
the coming decades, the logical question that we must ask is, 
will the nuclear deterrence capabilities the United States had 
in the 1990s be credible in 2040?
    Unless you believe global zero is going to happen any day 
now, and if you do then I have a bridge to sell you, we are 
going to have to reexamine that policy. A choice will be made 
on this front, not right now, but sometime in the coming years. 
In the meantime, we can discuss all of this with our panel of 
witnesses.
    Thank you all for being here today and contributing to the 
study. We know it takes a lot of time to prepare for these 
hearings and we really appreciate your commitment.
    The witnesses are Dr. Clark Murdock, senior adviser, Center 
for Strategic and International Studies; Dr. Keith Payne, 
professor and department head, Missouri State University; Mr. 
Elbridge Colby, Robert M. Gates senior fellow, Center for a New 
American Security; Dr. Barry Blechman, co-founder of the 
Stimson Center; and Dr. Adam Mount, independent consultant.
    With that, I will turn to my friend and colleague, the 
ranking member from Tennessee, for any statement he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 37.]
    Mr. Cooper. Thank you, Mr. Chairman. Thank you for holding 
this important hearing. And I look forward to the testimony of 
the witnesses and ask that my statement be inserted for the 
record.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 39.]
    Mr. Rogers. We will now ask each of our witnesses to make 
an opening statement, summarizing their prepared testimony, and 
ask to keep that to 4 or 5 minutes.
    Your written testimony will be, without objection, entered 
into the record. Also without objection, I want to enter into 
the record the full Project Atom report.<dagger>
---------------------------------------------------------------------------
    <dagger> Excerpts from the Project Atom report can be found in the 
Appendix beginning on page 103. The full Project Atom report is 
available at http://docs.house.gov/meetings/AS/AS29/20151103/104109/
HHRG-114-AS29-20151103-SD001.pdf.
---------------------------------------------------------------------------
    Mr. Rogers. Without objection, so ordered.
    We have provided a copy of that report to each of the 
members and have a few available for others as well.
    Now, let us hear from the witnesses in this order. First, 
Dr. Murdock, you are recognized for 5 minutes.

      STATEMENT OF DR. CLARK A. MURDOCK, SENIOR ADVISOR, 
   INTERNATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Dr. Murdock. Thank you very much, Mr. Chairman. Thank you 
very much, Ranking Member Cooper. It is a great opportunity to 
come here and talk about the Project Atom study.
    It was designed as a sort of blue-sky look into the future 
without constraints, policy constraints or strategy 
constraints, as to what kind of nuclear needs, what kind of 
strategy the United States should follow in the 2025 to 2050 
timeframe.
    So as I said before, this was unconstrained either by 
current strategy, by which I mean reducing the role of nuclear 
weapons, as an example, or by current policy, which is no new 
nuclear capabilities, no new nuclear weapons.
    So we are out into the 2025 and beyond timeframe. The 
approach we took was a competitive strategies approach. This 
was funded by Smith Richardson [Foundation] in part because we 
took the competitive strategies approach to it. So I went out 
and recruited three independent think tank teams to participate 
in this.
    The first was headed by Keith Payne from the National 
Institute for Public Policy, Bridge Colby from the Center for a 
New American Security, and Barry Blechman from the Stimson 
Center. And each of them formed a small, analytic team that 
operated throughout and attended the working group, members, 
and then presented their views, defended their views.
    And then once that process was complete, then I stepped 
back and wrote what I thought was the right approach to take 
towards a nuclear strategy and its postured needs. And then I 
defended that in another working group meeting consisting of 
outside experts and the members of the various independent 
study think tank teams.
    So the approach was one of develop a common analytic 
framework, think through what are the requirements of that 
security environment, what kind of adversary strategies would 
be followed, what kind of technological possibilities would be 
open in the nuclear realm in the 2025 to 2050 timeframe, and 
then each of us took a separate look at what should be our 
strategy.
    My dynamic that I thought was most important were the 
dynamics that flowed essentially from U.S. conventional 
superiority. That is, in a world in which nations are seeking 
to deal and cope with a conventionally superior adversary, 
namely the United States in this case, would increase their 
reliance upon nuclear weapons as a way to deter us.
    And essentially, our conventional superiority, in a sense, 
lowers the nuclear threshold because it increases the 
incentives for other nations to resort to nuclear weapons as a 
way of trying to prevent our intervening in, say, regional 
adventurism that they might be following.
    So my belief is, is that in order to counter other nations' 
potential interest in using nuclear weapons early in a conflict 
is that we need to develop a set of robust, discriminate 
nuclear options in order to be able to respond both 
proportionally and in kind to any possible use of a nuclear 
weapon against the United States and its allies.
    I am concerned about the fact that we have a force 
structure largely and a posture largely determined by Cold War 
needs. The warheads are larger, many of them are less 
discriminate, many of them carry high collateral damage. And if 
confronted with the situation where an adversary used a 
special-effects, low-collateral weapon, nuclear weapon, against 
the United States or one of its allies, that we may be self-
deterred from responding because we do not have a discriminate 
or a proportional or an in-kind response that is suitable to 
that use of a nuclear weapon.
    So one stress is on what kind of nuclear response options 
we have. We need to be able to deny the attractiveness of 
nuclear escalation to our potential adversaries. So we need a 
new set of capabilities in that area.
    Another area that I think is particularly important is to 
look at the requirements for extended deterrence. During the 
Cold War, the United States coupled its security to the 
security of our allies, both in the European theater and the 
Pacific theater.
    We tend to forget that during the height of the Cold War 
the United States had forward deployed 7,000 nuclear weapons in 
Europe during that time, so that when the Soviets looked at 
what would happen if they engaged in major conventional 
aggression, because we perceived, correctly so, that our 
conventional forces were inferior to the Warsaw Pact forces, 
they knew that a conflict would go nuclear because there were 
7,000 nuclear weapons there.
    We also had a thousand nuclear weapons deployed on the 
Korean Peninsula because we wanted to protect the security of 
South Korea, and they wanted those nuclear weapons there 
because they knew that the presence of nuclear weapons on their 
territory would be credible in terms of potential adversaries.
    So I think another aspect of our force structure as we move 
forward, our nuclear force structure as we move forward, is the 
need to have rapidly deployable and rapidly deployed nuclear 
weapons that can be either deployed forward during peacetime or 
can be rapidly moved forward during a moment of crisis in order 
to provide the nuclear umbrella that we are talking about.
    So with those two comments, I will let the other think 
tanks speak for themselves and pass the floor to Dr. Payne.
    [The prepared statement of Dr. Murdock can be found in the 
Appendix on page 40.]
    Mr. Rogers. Dr. Payne, you are recognized for 5 minutes.

 STATEMENT OF DR. KEITH PAYNE, PROFESSOR AND DEPARTMENT HEAD, 
GRADUATE DEPARTMENT OF DEFENSE AND STRATEGIC STUDIES, MISSOURI 
                        STATE UNIVERSITY

    Dr. Payne. Thank you, Mr. Chairman and Ranking Member 
Cooper. It is an honor to be here.
    The assessment by my colleague Tom Scheber and myself is 
based on----
    Mr. Rogers. You need to turn your microphone on.
    Dr. Payne. Yes, sir.
    The assessment by my colleague Tom Scheber and myself is 
based on the proposition that the size and character of the 
U.S. nuclear force posture needs to be driven first and 
foremost by a realistic appraisal of international conditions 
and threats. That is a key presumption because today's 
international threat environment is extremely dynamic and 
challenging.
    The comforting assumption of a relatively benign new world 
order and a perpetual peace dividend has been overtaken by the 
reality of multiple, highly threatening developments, including 
new nuclear threats. And as Secretary of Defense Ash Carter 
recently noted, there is no apparent end in sight for these 
developments.
    Given this threatening and indeed surprising security 
environment, the United States must prepare its forces to deter 
foes and assure allies through many possible negative shifts in 
international relations, including the erosion of U.S. 
conventional superiority, at least in some key areas.
    We need to plan our deterrence and assurance strategies and 
capabilities according to these realities, not past unrealistic 
hopes and expectations.
    In this context, the proposition that the goal of nuclear 
disarmament should be the overarching driver of U.S. nuclear 
policies, I believe, is misguided and even dangerous. Why? 
Because nobody has offered even the vaguest credible outline of 
how to make nuclear disarmament a reality in an international 
system that is characterized by hostility, mistrust, and 
conflict. And no nuclear power has followed the U.S. lead in 
this regard.
    So what are the pertinent implications of these realities? 
The U.S. force posture must be sufficiently adaptable, 
flexible, and resilient to deter a variety of threats and foes 
in many possible contingencies now and in the future.
    As former STRATCOM [Strategic Command] Commander General 
Robert Kehler has observed rightly, and I quote--``Surprise is 
a problem in a constantly changing world. In my view, the 
future requires adaptive and flexible U.S. capabilities to 
respond to unanticipated threats.'' Precisely right.
    The U.S. must work to sustain or expand these force posture 
qualities: adaptability, flexibility, and resilience. That is 
the primary standard of adequacy we need to meet now and for 
the future.
    There are several steps that could be taken to increase the 
adaptability of U.S. forces, particularly including modernizing 
the U.S. nuclear triad and forward-based forces. Further deep 
reductions in U.S. nuclear forces, however, would likely 
instead undercut these very qualities that may be critical to 
being able to deter war and assure nervous allies.
    In addition, I should add that if you care about 
nonproliferation you must care about maintaining the capability 
and the credibility of the U.S. nuclear extended deterrent. The 
U.S. nuclear umbrella is the single most important 
nonproliferation tool that we have.
    In conclusion, U.S. forces must be able to adapt to an 
increasingly dangerous and unpredictable threat environment, 
not geared to past, set expectations of a benign new world 
order, enduring U.S. conventional force superiority, a never-
ending peace dividend, or an overarching goal of nuclear 
disarmament.
    The now-apparent dangers of the post Cold War threat 
environment have come to many as a big surprise. For two 
decades, Western defense thinking in general has been geared to 
a new world order in which nuclear weapons would play an ever-
smaller role on the path to nuclear zero.
    General Breedlove, NATO's [North Atlantic Treaty 
Organization's] Supreme Allied Commander, recently acknowledged 
that for two decades the U.S. has treated Russia as a potential 
ally. That belief has been the backdrop for decades of deep 
U.S. nuclear reductions and a general lack of attention to U.S. 
nuclear forces.
    Now, however, as General Breedlove said further, we must 
readjust. The realities of contemporary threats now argue 
strongly in favor of modernizing U.S. nuclear forces and 
emphasizing their adaptability, not further reductions and 
greater rigidity.
    That is the primary takeaway from the assessment that my 
colleague Tom Scheber and I provided. Thank you.
    [The prepared statement of Dr. Payne can be found in the 
Appendix on page 50.]
    Mr. Rogers. Thank you, Dr. Payne.
    Mr. Colby, you are recognized for 5 minutes.

  STATEMENT OF ELBRIDGE COLBY, ROBERT M. GATES SENIOR FELLOW, 
               CENTER FOR A NEW AMERICAN SECURITY

    Mr. Colby. Mr. Chairman, Ranking Member Cooper, and 
distinguished members of the committee, thank you very much for 
inviting me to testify on the future of America's nuclear 
deterrent.
    It is an honor to speak to you today on this matter of the 
greatest importance to our Nation's security.
    We are entering a period of significant and possibly 
dramatic change in both the geopolitical and the military 
technological spheres. In brief, the United States is likely to 
confront more significant challenges to its interests from 
countries like China in Asia and Russia in and around Europe.
    At the same time, U.S. conventional military advantages 
over its plausible opponents will likely narrow. This will have 
major implications for U.S. defense strategy writ large, but 
also for our nuclear deterrent. Accordingly, the United States 
needs to adapt its nuclear policy and posture.
    What in particular should change? If the United States 
continues to want to extend deterrence effectively, as I 
believe it should, U.S. nuclear weapons need to do more than 
threaten unhindered devastation. Thus, while the ultimate 
source of U.S. deterrence should, of course, remain the threat 
of overwhelming destruction, the United States should also 
prepare for and make clear that it would, as appropriate, use 
its nuclear forces in more limited fashion for more focused 
effect.
    In particular, the United States should adapt its nuclear 
forces to be able to fight a limited nuclear war more 
effectively than its plausible adversaries. Such superiority 
would give the United States important and possibly crucial 
leverage to defend its interests in both peace and war.
    The U.S. nuclear force of today is not, however, optimally 
designed for this demanding set of criteria. To optimize its 
nuclear force, the United States should do the following.
    Invest appropriately in an improved nuclear command and 
control system such that U.S. nuclear forces can perform their 
missions reliably under any plausible conditions and do so in 
sufficiently controlled and deliberate ways.
    Maintain the nuclear triad to ensure a resilient, 
redundant, and highly capable nuclear deterrent.
    In addition to fully funding the SSBN [ballistic missile 
submarine] replacement and replacing the Minuteman III, the 
United States should maintain and modernize its fleet of 
nuclear-armed bombers. This modernization effort is 
particularly important in light of the unique attack 
capabilities found in the bomber force, but also in the growing 
challenges to stealth and its ability to penetrate. This effort 
should include procuring the LRSB [Long-Range Strike Bomber] in 
sufficient numbers, maintaining the B-52H and B-2A, buying 
sufficient dual-capable F-35s for regional deterrence and 
assurance and acquiring the Long-Range Standoff [LRSO] option 
missile.
    The United States should also move in the direction of 
providing most or all of its nuclear forces with variable-yield 
warheads or weapons that can provide a variety of types of 
effects, such as electromagnetic pulse, different height of 
bursts, use at sea and so forth, so that the United States can 
more effectively tailor strikes from the full range of its 
available platforms.
    The United States should in particular focus on making the 
ballistic missile force more capable of discriminate strikes. 
The United States should accordingly render at least some 
portion of the Trident II D5 SLBM [submarine-launched ballistic 
missile] arsenal capable of lower-yield strikes, for instance 
by using primary-only warheads.
    The United States should also ensure that the LRSO is 
capable of discriminate employment by arming it with a 
variable-yield warhead.
    Given the proliferation of hardened and deeply buried 
targets, or HDBTs, earth penetration should be a special focus 
of long-term research and development and ultimately 
procurement. This is vital, I emphasize, both for deterrence 
and for stability.
    The size and composition of the nuclear force should be 
determined based on strategic considerations. Arms control 
should be pursued where and so it contributes to stability, but 
not for the sake of reductions.
    In closing, the world is changing in ways that dictate that 
U.S. nuclear policy and posture should also change. The United 
States should grasp the opportunity to make such changes while 
unfavorable trends are still nascent and susceptible to 
counteraction. I believe a modernization program along these 
lines would add to a favorable stability and ultimately to the 
kind of peace we and our allies justifiably seek.
    I look forward to any questions you might have. Thank you 
very much.
    [The prepared statement of Mr. Colby can be found in the 
Appendix on page 61.]
    Mr. Rogers. Thank you, Mr. Colby.
    Mr. Blechman, you are recognized for 5 minutes. Dr. 
Blechman, I apologize.

  STATEMENT OF DR. BARRY BLECHMAN, CO-FOUNDER, STIMSON CENTER

    Dr. Blechman. Thank you, Mr. Chairman, Mr. Cooper, members 
of the subcommittee. This is a good opportunity.
    I have a rather different view than my colleagues in this 
project and I will briefly summarize it.
    Now, in my view, U.S. security benefits by seeking to 
minimize the importance and roles of nuclear weapons in the 
perceptions and actions of foreign leaders. For the United 
States, nuclear weapons serve only to deter nuclear attacks on 
ourselves and on our allies.
    Maintaining U.S. conventional superiority is the key to 
U.S. security, and our nuclear weapon programs harm this by 
raising the prospect of false alternatives, such as being able 
to fight controlled nuclear wars, and by their direct effects 
on budgets and on the training of U.S. military personnel.
    So in summary, I believe the U.S. should work 
diplomatically to constrain nukes as circumstances permit, 
adopt policies and doctrines and work politically to strengthen 
the nuclear taboo and adjust force posture and modernization 
programs to reduce expenditures.
    Our security depends mainly on political leadership, on 
diplomacy, and on our economic instruments of power, private 
and public. And it also depends on our conventional 
superiority, which is due to the scale and longevity of our 
investments and advanced technologies and systems on the size 
of our forces and on the quality and training of our people.
    We can't do everything with military force, but we can 
defeat any conventional threat we face currently. China and 
Russia are making advances, but I believe the U.S. should be 
able to maintain superiority if our citizens remain willing to 
allocate sufficient resources. And I would be happy to debate 
this point during the questions.
    Maintaining our technological and quantitative conventional 
edge should be our highest priority. And this will be hampered 
increasingly by the bow wave of nuclear spending that we are 
facing in the next decade.
    In my view, the primary goal of our nuclear policy should 
be the elimination of nuclear weapons from all nations. I 
recognize this is not going to be achieved until many, many 
political conflicts are resolved and may never be achieved, but 
it is certainly a goal that I think should be a vision that 
should be underneath our policies.
    Until elimination becomes feasible, if it ever does, the 
U.S. should, one, stress a firm commitment to nuclear 
retaliation for any nuclear attack, be clear that any nuclear 
attack on the U.S. or our ally will result in retaliation no 
matter how small the yield of the attack, no matter what the 
target might be or whatever the range of the launcher which was 
used to fire the weapon, but we should also make clear that 
this deterrent role is the only purpose of U.S. weapons.
    Deterrence, in my mind, depends not on nuclear 
capabilities, but on boots on the ground. If we are concerned 
about the possibility of Russian incursion in the Baltic 
states, we should and I believe we should greatly improve 
NATO's presence on the ground in those countries so that the 
Russians never come to the misperception that they can perform 
a fait accompli before NATO can respond to that. And there are 
ideas around to put the equipment, pre-deploy equipment, for 
U.S. armored brigades in those countries, and I strongly 
support those ideas as well as related things.
    So the implications of this policy for U.S. nuclear forces 
are, one, as the current generation ages out I believe we can 
reduce the number of our forces unilaterally. I think we should 
maintain a triad, but that could be reduced to perhaps 8 to 10 
submarines, to 2 Minuteman wings with only modest investments 
can be maintained viable until the 2040s.
    I believe we should put a high emphasis, high priority on 
the new bomber, primarily for its conventional role, but also 
for a nuclear role. I think we should phase out tactical 
nuclear weapons as their service lives expire, because there is 
nothing those weapons can accomplish that could not be 
accomplished by a long-range strategic bomber armed with a 
variable-yield weapon.
    And finally, I think we should divert the resources we save 
by making those reductions to our conventional capabilities, 
particularly command and control survivability, which I agree 
with Bridge on that, on continued R&D [research and 
development] on defenses, missile defenses, and deploying such 
defenses as the technologies mature, and on cyber and EW 
[electronic warfare] capabilities and on advanced conventional 
technologies.
    Thank you very much.
    [The prepared statement of Dr. Blechman can be found in the 
Appendix on page 75.]
    Mr. Rogers. Thank you, Dr. Blechman.
    Dr. Mount, you are recognized for 5 minutes.

      STATEMENT OF DR. ADAM MOUNT, INDEPENDENT CONSULTANT

    Dr. Mount. Thank you, Chairman Rogers, Congressman Cooper, 
members of the subcommittee. Thank you for the opportunity to 
discuss this with you today.
    The world that we are entering is indeed a period of 
strategic competition. However, this does not mean we are in a 
new Cold War. Today's challenge is one of maintaining stability 
in regional contexts and defending the core interests of U.S. 
allies against limited, but persistent, encroachment.
    Both China and Russia are engaged in extensive programs to 
modernize their nuclear arsenals. But with a few important 
exceptions, both countries are replacing legacy systems that 
have reached the end of their service lives. Neither country 
plans to operate a submarine force capable of maintaining boats 
continually on station near our shores and neither plans to 
construct a low, observable bomber platform. For the 
foreseeable future, U.S. nuclear forces will remain markedly 
more capable.
    Recent calls to build new nuclear weapons and to deploy 
them closer to potential zones of conflict represent a dramatic 
departure from longstanding, bipartisan consensus nuclear 
policy. Since the 1980s, Presidents of both parties have worked 
to reduce the salience of nuclear weapons in our military 
planning, to gradually reduce our nuclear stockpile and to 
refrain from procuring new capabilities.
    New nuclear weapons are unlikely to be effective 
instruments for deterrence or defense in this new era of hybrid 
conflict. Both Russia and China are likely to continue to 
pursue their objectives with operations that remain well below 
the threshold of war. Nuclear weapons, no matter what kind and 
no matter where they are stationed, cannot deter this kind of 
threat. They cannot help to roll back Russian occupation of 
Crimea or put a halt to Chinese land reclamation in the South 
China Sea.
    At the same time, it is far from certain that low-yield and 
special-effects nuclear weapons are necessary for deterrence or 
escalation control. The United States cannot be certain that 
these weapons will deter better than the strategic arsenal or 
that they will restrain an adversary from conducting further 
nuclear strikes.
    The enormous strategic and diplomatic costs of employing a 
tactical weapon make it unlikely that they would be utilized, 
which in turn decreases their utility as instruments of 
deterrence. China and Russia are already threatened by American 
superiority. New nuclear programs would likely cause them to 
accelerate their modernization efforts, contributing to what 
former Secretary of Defense Bill Perry recently warned is a new 
round in the nuclear arms race.
    For these reasons, imbalances should be addressed through 
verifiable arms control agreements. For this reason, the United 
States should press Russia to engage in negotiations, not only 
to limit existing nuclear systems, but also the procurement 
programs that each country finds most threatening.
    Initiating new nuclear procurement programs in the United 
States would also have serious effects on the national defense 
budget. If history is any precedent, Congress is unlikely to 
obligate funds for a hundred new bombers and 12 new Ohio-
replacement submarines on top of numerous other outlays.
    Unexpected cuts to core systems of the triad will require 
changes in strategy and operations. At the same time, nuclear 
modernization plans also place significant pressure on other 
military priorities, especially in Navy shipbuilding and the F-
35 program.
    Congress and the White House should seek prudent cuts to 
the modernization plans in advance so that the services can 
plan for the future. Specifically, Congress should require the 
Department of Defense [DOD] to generate studies that explain 
the need for a new cruise missile, examine the effect of moving 
to a force of 8 to 10 ballistic missile submarines and to 
provide regular cost estimates of new spending on nuclear 
systems, especially the new Long-Range Strike Bomber.
    Lastly, the costs of seeking new nuclear capabilities are 
not only monetary. Reneging on the U.S. commitment not to build 
new nuclear capabilities could stress a beleaguered nuclear 
nonproliferation treaty regime to the breaking point, and 
thereby deprive the United States of important tools to prevent 
the spread of nuclear weapons.
    At the same time, new procurement efforts would encourage 
the other countries to seek these capabilities. It is far safer 
to maintain that nuclear weapons are not an effective means of 
controlling escalation.
    In conclusion, current and projected strategic conditions 
do not warrant major changes to longstanding nuclear force 
structure. It is critical to national security and the Nation's 
standing in the world that the United States maintain its 
commitment not to seek new nuclear capabilities and to continue 
gradual negotiated reductions of its nuclear arsenal.
    Thank you.
    [The prepared statement of Dr. Mount can be found in the 
Appendix on page 91.]
    Mr. Rogers. I thank you, Dr. Mount.
    And I thank all of the witnesses.
    And I would like to recognize myself now for the first 
round of questions.
    As you heard me say in my opening statement, I am worried 
that the current U.S. nuclear strategy and posture is not 
suited to the world we are finding ourselves in during the 21st 
century. It seems to be based on what you might call the 
hopeful aspirations of the mid to late 20th century.
    Dr. Murdock, you served in the Clinton administration's 
Department of Defense during those heady days. Your bio has 
pegged you as a long-range planner. So let me ask you, do you 
think the current nuclear strategy and posture keeps us secure 
for the long run? And if not, what do you suggest we change and 
what action should this committee take to get us back on the 
right track?
    Dr. Murdock. Thank you for the question. I have described 
myself as a long-range planner. It is one of the reasons why we 
put the horizon for Project Atom out to 2025 to 2050 because we 
have to think about systems that will take 10 to 15 years to 
develop, systems that will have lifetimes of 35 to 50 years. So 
you have to think in terms of a longer-range perspective.
    As I look into the deeper future, the longer-range future, 
I think that the risks of proliferation are higher. We are 
already dealing with potential near-term risks of nuclear 
proliferation in the Middle East, but there are similar 
pressures in other regions of the world. And in a more highly 
proliferated world, I think we have to develop the kind of 
capabilities that can deter the kinds of nuclear employments 
that our adversaries may make against us.
    It means, in my mind, that we have to develop discriminate, 
low-yield, variable-yield, special-effects weapons so that we 
can respond in kind and respond proportionally to any potential 
use of a nuclear weapon against the United States or its 
allies. I think that this emphasis upon being able to respond 
proportionally and in kind is critical for deterrence during 
this time.
    As I said before in my statement, I worry about the 
prospect that if we are confronted with a limited nuclear use 
against us, that because of the character of our weapons, that 
we may be self-deterred from responding in kind because we 
would have to go too high up the escalatory ladder, use too 
large a yield bomb or missile or warhead, and it is important 
that we develop the robust set of options so that a President 
can respond proportionally and in kind to any use of a nuclear 
weapon against us.
    This is not saying that we have to go out and seek 
superiority. Right now we are in a position of inferiority when 
it comes to nonstrategic nuclear forces, otherwise known as 
tactical nuclear weapons. The Russians have somewhere between 
2,000 and 4,000. I am sometimes not sure they even know how 
many they have. We have forward deployed approximately a couple 
of hundred, and very small inventories back here in the United 
States.
    So my feeling is that we do not have to address this 
quantitative superiority that the Russians have maintained in 
this class of systems, but I do believe we have to develop a 
range of options so that we can respond discriminately to any 
potential use of those tactical nuclear weapons by the 
Russians.
    Mr. Rogers. Thank you.
    Dr. Payne, you were a primary author of George W. Bush's 
administration in his Nuclear Posture Review. How has Russia as 
an actor on the world stage, in particular in nuclear affairs, 
changed since then?
    Dr. Payne. Well, we first saw evidence of a change in 
Russian behavior and Russian doctrine in 2008 where, according 
to senior Russian officials, Russia was ready to call a nuclear 
alert with their actions and operations against Georgia in 
2008.
    We have more recently seen Russia back up its operations 
against Crimea and the occupation of Crimea with what President 
Putin himself said was a nuclear escalation threat.
    So what we have learned since those days of writing the 
2001 Nuclear Posture Review is that Russia has moved in a 
direction in some ways much harsher, particularly in terms of 
its potential use of nuclear weapons, than we anticipated at 
the time.
    We have seen the evolution of Russian doctrine, we have 
seen the evolution of Russian strategy and the evolution of 
Russian forces to where at this point I think you can honestly 
and quite fairly say that Russia has a nuclear first-use 
policy, a limited nuclear first-use policy, that is meant to 
backstop its territorial grabs in Central Europe and Southern 
Europe.
    And given that, it seems to me that we need to move in the 
direction that Clark just outlined, if only to be able to 
deter. I mean, I am not interested in being able to respond, 
per se, to a nuclear war, but we want to be able to deter the 
nuclear war in the first place. So we want to be able to deter 
the Russian Federation from believing it can get anything 
useful out of a first-nuclear-use threat. And in my opinion, 
that requires exactly the type of capabilities that Dr. Murdock 
was just describing.
    Mr. Rogers. Great.
    And Mr. Colby, your testimony suggests that the U.S. should 
make its nuclear forces more flexible and create the ability to 
tailor nuclear strikes in a narrower fashion than available 
today. You mentioned low-yield warheads, tailored effects like 
EMP [electromagnetic pulse], earth penetration, et cetera.
    Compared to what our current strategic arsenals provide, 
how would these types of new capabilities provide increased 
deterrence toward adversaries, and why do we need them?
    Mr. Colby. Thanks, Mr. Chairman. I would like to build on a 
previous comment which I generally agreed with. I think the 
basic problem here is that we are extending deterrence far and 
wide as part of our Nation's grand strategy, and that includes 
countries like the Baltic States, like the Philippines, to some 
extent maybe Taiwan, countries very close to our potential 
adversaries and adversaries that have not only increasingly 
powerful conventional militaries, but also survivable nuclear 
forces. So whatever they do to us, to some extent they could 
hit us back very seriously.
    The problem is, as Clark and Keith described, is an 
adversary may think that he can escalate, especially if he 
creates favorable conditions on the ground, for instance 
through the use of little green men in the Baltics, and then 
use his conventional forces to create a favorable situation, 
such as a fait accompli, and then threaten to escalate to 
deescalate of some kind, basically say I dare you to come at me 
and go big, even just conventionally, but you are going to have 
to go big in such a way that it is going to look really 
escalatory and really dangerous.
    And if we do that, he may decide, you know, just to take 
one scenario, he may decide to use nuclear weapons in a very 
tailored, very limited way, specifically designed not only to 
hurt us militarily, but also to scare not only us, but all our 
allies in this endeavor.
    And the problem is that if we only have big response, you 
know, as Clark put it, we are very potentially going to be 
self-deterred, but also even if we executed it, the Russians, 
for instance, would have a way of responding in a very dramatic 
and catastrophic fashion.
    So far better for us and far better for deterrence if we 
have roughly proportionate, same order of magnitude ways of 
saying don't think it is going to make sense for you to 
escalate to the nuclear level, even in this sort of clever 
escalate-to-deescalate way. We have a way of defeating that 
strategy.
    I mean, to put it kind of bluntly, an adversary is less 
likely to raise on you if he knows you have good cards. And I 
think that these kinds of capabilities are basically good 
cards.
    Mr. Rogers. Great, thank you.
    The Chair now recognizes the ranking member for any 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    First, Dr. Murdock, I appreciate your leading a very 
provocative report. It is very helpful to get this discussion 
started.
    I was wondering first off when you picked three other think 
tanks, what points of view are left out? What think tanks or 
viewpoints could have or should have been included?
    Dr. Murdock. That is an interesting question, sir. What I 
was trying to do was to get what I refer to as think tanks that 
were representative across sort of the broad middle of the 
spectrum of opinion. There are many people in this town who are 
more conservative than Keith Payne. There are many people in 
this town who are more liberal than Barry Blechman.
    But I do know that first of all the two of them can be in 
the same room and talk to each other. That is not true of 
people that are further divided on the spectrum of opinion. And 
since I am holding a lot of working group meetings, I want to 
make sure that people can come in and talk to each other.
    So what I was looking to do was to bound the range of 
opinion to what I would say was the reasonable left and the 
reasonable right, although people may disagree in that kind of 
characterization, they may even themselves disagree on that 
characterization, and then find somebody who was a bit more 
centrist.
    I probably should have done a little bit more research on 
this because Bridge, who I did want to include because he is a 
member of the next generation of thinkers that are coming up 
and I do a lot of work on that level as well, that Bridge was 
probably a bit closer to where Keith was than he was to where 
Barry was. That is true.
    And it turned out that both of them were closer to--that I 
was closer to where both of them were than I was to Barry.
    But there are clearly--we bounded the middle of the 
spectrum of opinion with Keith Payne, that I did, with Keith 
Payne and Barry Blechman, that did not go further out onto the 
margins.
    Mr. Cooper. In the report, it seems that everybody agrees 
on keeping the triad. Everybody agrees on improving command and 
control. And most of you want basically every weapon in the 
arsenal that we don't have, you know, with varying the yield 
and other criteria.
    So on the yield, on page 20 of your report, you talk about 
how the massive ordnance penetrator, the MOPs, at 30,000 pounds 
is about 20 times smaller than our smallest nuke. So presumably 
you want to fill that gap with something that would be 
proportionate and discriminate.
    Are there key points within that? Do we need a mid-way 
weapon? Do we need--what exactly are you looking at sub-
kiloton?
    Dr. Murdock. I think it depends entirely, from my 
perspective, it depends a great deal on what we know about what 
the Russians are developing. We know that the Russians are 
doing experimentation in the very lower end of the nuclear 
yield.
    I personally believe that the deterrent impact of a nuclear 
weapon partially resides in its ability, you know, in terms of 
how much damage it can effect, the blast heat, the 
fragmentation that is associated with any weapon, but it is 
also a nuclear weapon. It has a radioactive signal. It 
indicates a willingness to break a threshold.
    Barry referred to the nuclear taboo that has essentially 
been in existence since Hiroshima and Nagasaki, so that there 
are those who believe that we can have a complete continuum 
from conventional to nuclear.
    I am happy to have a break between conventional weapons and 
nuclear weapons. Perhaps the Russians have developed a system 
that is somewhat larger than our largest conventional bomb and 
somewhat smaller than our smallest nuclear weapon. If that is 
the case and they feel that by using it under certain 
circumstances that they can go nuclear without threatening our 
spectrum of responses, that is something I want to be able to 
respond to in kind.
    So my belief is, is you design, you know--it is our 
adversaries, because of our conventional superiority, who are 
increasing their reliance upon nuclear weapons, who have been 
experimenting and developing nuclear capabilities that are more 
varied than ours. And I think that that is the principal driver 
of what kind of capabilities we need to have.
    Mr. Cooper. How do you define what is a new nuclear weapon 
as opposed to a refurb?
    Dr. Murdock. Well, it is a little bit like angels dancing 
on the head of a pin. When you are talking about a life 
extension program where you replace many, many elements, the 
conventional elements that are part of the warhead, at what 
point do you have a new weapon?
    Well, if it is still the physics package, the nuclear 
portion of it is still within the range of what existed there, 
you know, people say, well, it is not a new weapon.
    I mean, my belief is is that when we are going into an 
environment where there is an increased risk of our potential 
adversaries breaking the nuclear threshold, I want a new 
weapon. I could say, well, we can adapt this particular weapon 
we have so it comes pretty close to it.
    I want to be able to convince our adversary we have already 
thought about what you want to do, we are developing new 
weapons to counter that, we are going to ensure that those 
weapons work to our stockpile stewardship system, and we are 
going to train with them and exercise with them so that it will 
be credible and our adversaries believe that if they use a 
nuclear weapon we will use one in response.
    You don't do that by just saying it. I believe you have to 
do it by fielding the appropriate weapons, by practicing with 
them, by training with them so that our adversaries will 
understand if you go nuclear we are prepared to deal with that, 
too.
    Mr. Cooper. You used the analogy of angels dancing on the 
head of a pin. I assume you are not discounting the distinction 
between what is new and what is a refurbishment of an older 
weapon.
    Could we, using our existing stockpile, create enough sub-
kiloton weapons or other special effects to achieve this? Or 
are we forced to create new weapons?
    Dr. Murdock. I am not familiar enough with the classified 
details of how variable our variable yields are. There are a 
number of ideas that are out there. For example, when you talk 
about a primary-only weapon where they use just the fissionable 
aspect of it and not the thermonuclear one, they have suggested 
that that is a way of varying the yield of some of the largest 
warheads that we have on ballistic missile defenses during that 
time.
    My belief is, is that when deterrence, when you are talking 
about deterring adversaries who are thinking about using 
nuclear weapons to deter you, you want to think about, well, 
what are the kind of capabilities I need to deter that?
    And a new weapon indicates to the adversary that we are 
serious about this, that we are designing a weapon to counter 
his potential use of a nuclear weapon against us.
    I personally don't have an allergy against new nuclear 
weapons. So there is a reason why, as I look to the future of 
the kind of capabilities we need, I think of the prescription 
of no new weapons and no new nuclear capabilities as a self-
defeating one.
    And so from a perspective of developing a deterrent that 
works, I don't think we should be bound by those kind of rules.
    Mr. Cooper. Thank you, Mr. Chairman. I look forward to the 
next rounds of questions.
    Mr. Rogers. Thank the ranking member.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman, for having this 
hearing.
    And thank you all for being here and for your hard work.
    I would like to ask something to Dr. Clark Murdock, Dr. 
Keith Payne, and Mr. Elbridge Colby in particular.
    There was some talk that there was consideration of further 
unilateral cuts beyond what New START [Strategic Arms Reduction 
Treaty] called for. And I am not sure that that has died down 
or not, I hope it has. But should that kind of talk be 
resurrected, would you or any of the three of you advocate for 
further unilateral cuts on the part of the U.S. of our nuclear 
stockpile?
    Dr. Payne. I would not, sir.
    Mr. Colby. I would not, sir.
    Dr. Murdock. No.
    Mr. Lamborn. Okay. Given the open sources that have 
reported that there could be cheating by the Russians on the 
INF [Intermediate-Range Nuclear Forces] Treaty, does that call 
into question on the parts of you three gentlemen, again, our 
adherence to the New START Treaty? And my thought is that we 
are handicapping ourselves in some ways through New START.
    If it is reciprocated that is one thing, but if they are 
cheating in other areas, will it even be reciprocated? And 
should we continue handicapping ourselves? That is my question 
and I would like to get your perspective.
    Dr. Murdock. My belief is that each of the agreements that 
we have reached with the Russians are separate agreements and 
that we should abide by an agreement that we have reached with 
them on New START unless there is clear evidence that they are 
not abiding by that same agreement on New START.
    My belief is, is that I think there is pretty clear 
evidence that they have cheated on the INF Treaty, and I think 
that we have to think through how to respond to that in a way 
that is in the field of INF, and responds directly and 
proportionally, in some way, to the violation of that treaty.
    It is not something that we should ignore, nor that we 
should deny that it existed.
    I think we have to respond to it, but I would not respond 
to it by violating New START because, in part, that takes the 
onus off the Russians for violating arms control agreements 
that they have agreed to.
    Dr. Payne. Yes, sir, I don't recommend withdrawing from the 
New START Treaty. I agree with Clark, we ought to look at these 
things individually. I do think that there are some options 
that we can take with regard to Russian violations of the INF 
Treaty, as you described, but withdrawing from the New START 
Treaty, I don't believe is one of them we should exercise.
    But I will add that I think that it is possible that the 
Russians are not going to adhere to the New START Treaty. There 
have been a number of statements coming out of senior Russian 
officials setting, in a sense, the basis for not abiding by the 
New START Treaty limitations in 2018.
    This is what they did with the INF Treaty in earlier parts 
of 2007, for example, where recently the former Secretary of 
Defense mentioned that the Russians had talked to him and 
indicated they were interested in withdrawing from the INF 
Treaty.
    You do see Russian officials now sort of setting the same 
base for the New START Treaty. It doesn't mean they are going 
to withdraw from it. Doesn't mean that they are not going to 
abide by it. But I would at least keep in the back of my mind 
that they are now talking along those lines, and watch very 
carefully to see what they do.
    Mr. Colby. I pretty much agree with Dr. Payne, sir. I would 
say I think Russian violations of INF are extremely serious and 
require really concerted action. I am actually somewhat 
mystified why the administration is not more alarmed by this 
sense.
    You know, I see arms control as a strategic tool, as a way 
that we can or may advance our interests in the world. And so 
if a country violates that, we can go back to not having it. 
But if you are committed to a world without nuclear weapons, 
you need to make sure that the treaties are sacrosanct. And 
yet, there doesn't seem to be a lot of concern, which mystifies 
me.
    But it is very serious because of the military dimension. 
And there are, you know, when I spoke about these escalatory 
options, INF may give them potential there, so we really need 
to be putting pressure on them. I think at the very least we 
should be looking at R&D that is legal under the treaty, to see 
what our options are. Other kind of countervailing options 
should be looked at and talked about, at least in principle, 
openly.
    And ultimately, we should make sure that the Russians bear 
the costs and the diplomatic and political costs of their 
violations and misbehavior.
    At this time, I think, you know, we do benefit from New 
START in terms of predictability and some data exchange, that 
kind of thing. It is not, you know, it is not any kind of 
dramatic thing. And also it allows us to do the fundamental 
things that we need to do in terms of the modernization of our 
forces.
    But if, as Dr. Payne mentions, we do detect Russian 
noncompliance or circumvention, we should look at that very, 
very carefully. And the Russians should understand if they 
violate or circumvent treaties that we will be prepared to call 
them on that and respond.
    Mr. Lamborn. All right. Thank you all.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman, Mr. Aguilar, for 5 
minutes.
    Mr. Aguilar. Thank you, Mr. Chairman.
    Thank you for being here, gentlemen.
    This one is for the group.
    And as it was mentioned in the Wolfsthal and Lewis, the 
Trillion Dollar Triad report, Dr. Mount, you mentioned that in 
your testimony a few times, and the cost estimate of a trillion 
dollars to upgrade our nuclear triad over the next 30 years.
    Based on this mind-boggling figure, how can we, regardless 
of the strategic argument, realistically talk about developing 
and deploying lower-yield weapons when clearly now and in the 
future some of these serious investments that we need to make, 
some serious investments in our conventional capabilities, with 
finite dollars available to us, it is imperative that they be 
invested wisely.
    And I give you some credit because in your testimony you do 
talk about some of the financial implications as well. Can you 
expand on that?
    Dr. Mount. Yes, thank you for that, Congressman. I would be 
glad to. It is important to realize that there is a bound in 
these estimates, anywhere between $800 billion and $1.1 
trillion, depending on what you include and how you include 
potential figures for cost growth.
    That having been said, I think it is important to realize 
that these funds are not likely to be appropriated in their 
entirety. And it is important to sort of plan ahead and allow 
the services to plan ahead and make sure they know what is 
coming so that they are not caught unawares with abrupt changes 
to nuclear force structure that are mandated by Congress.
    I think it is important for the White House and the 
services to sort of together cultivate a plan to bring these 
modernization plans under control. And I outlined a couple of 
ways to do that.
    It is important to realize that I think there are some 
areas where the modernization plans can be pared back without 
deleteriously impacting our ability to deter our adversaries or 
to respond to a wide range of conflicts.
    So these include the new cruise missile I think we should 
take a serious look at, and also the large number of submarines 
that we are planning to build.
    Now, that is not to say that we ought to throw the plans 
out the window. We will buy a new bomber, and we should. We 
will buy new submarines, and we should. And it is important to 
prioritize and protect appropriations for those systems that 
are critical to national deterrence and deterrence operations, 
while looking for areas that bring these modernization plans 
sort of back into the fold of reality.
    Mr. Aguilar. Anyone else?
    Dr. Blechman. I would just note that I think we are already 
seeing the effects of the greater burden of nuclear 
modernization on the budget. I noticed that in the $5 billion 
reduction that was necessitated by the budget agreement, there 
were substantial cuts in Army readiness, which is not a choice 
that I would make.
    I think far more important than the full extent of the 
nuclear modernization program is to ensure that our ground 
forces and other conventional forces are as ready and as 
capable as they might be.
    Mr. Aguilar. I think the chairman would also convey that 
that reduction to readiness was a reduction of the increase to 
readiness, which a lot of other members advocated for as well.
    One additional point. Instead of--are any of you concerned 
about, you know, with the lower-yield weapon that we are 
discussing, you know, that this investment would give other 
countries more of a reason to invest in their own nuclear 
arsenals and maintaining this constant drumbeat of the arms 
race?
    And some of you allude to that in your testimony, but would 
anyone like to expand on their concerns with respect to that 
point?
    Mr. Colby and then Dr. Murdock.
    Mr. Colby. Sure. Thank you, Congressman, for your question. 
I think it is an important one. I mean, you know, in my 
statement I emphasize the need for change, but I also think 
that it is very important for the United States to appear and 
to act in a way that is responsible and kind of a good steward 
of its nuclear weapons.
    But I think, Congressman, the main, you know, the main 
challenge to U.S. interests and to stability really is not so 
much from a kind of mimicking of what we do, but of a potential 
opening of vulnerability.
    And I think the world is changing, our adversary, our 
potential adversaries, I should say, have been increasing their 
military budgets abundantly, both in the conventional and 
nuclear realm.
    And I think if we don't respond, it is actually 
vulnerability creates an instability of its own. And that is 
what concerns me.
    There are other universes. There is the world of the 1990s 
in which the problem was different. So I would not always say 
that this is the right course of action.
    Dr. Payne. If I might go back to the cost question, just 
because I would like to add a point to that, and that is, the 
best study I have seen on cost has been done by CSBA [Center 
for Strategic and Budgetary Assessments], came out a few months 
ago.
    What that study said is that the budget for nuclear 
modernization and recapitalization will range from 3 to 4.9 
percent of DOD's budget, reaching a top of 4.9 percent in 2029. 
It then concluded that unless we talk about eliminating an 
entire leg of the triad, trying to find money in that budget 
is, and I quote--``the hunt for small potatoes.''
    And every study that is represented in this assessment that 
Dr. Murdock led calls for maintaining the triad, not 
eliminating the triad.
    So I would suggest that, given the priority of nuclear 
deterrence and Secretary of Defense Ash Carter has said nuclear 
deterrence is DOD's first priority, that those types of cost 
structures obviously have to be managed well, but given that it 
is DOD's first priority to maintain a credible nuclear 
deterrent, it seems to me that the recapitalization is not 
going to be too expensive. It is a matter of will and it is a 
matter of priorities.
    On the action/reaction question, sir, that you asked, the 
general notion, as you put it forward and as put forward 
frequently, is, if the United States goes forward with the type 
of capabilities that Bridge talked about or Clark talked about, 
that this might encourage, say, the Russian Federation to 
respond more in that direction as well.
    Let me----
    Mr. Rogers. The gentleman's time has expired. I am going to 
have to--sorry. But I would ask you this. It is a very 
provocative question. Any of the witnesses that would be 
willing to provide us a response in writing, I would appreciate 
that for the record. That would be very helpful.
    [The information referred to can be found in the Appendix 
on page 135.]
    Mr. Rogers. Let me try to keep us on schedule and go to Mr. 
Fleming, of Louisiana.
    Mr. Aguilar. Apologies, Mr. Chairman.
    Mr. Rogers. I am sorry?
    Mr. Aguilar. Apologies.
    Mr. Rogers. No, you asked a good question. That is why I 
appreciate it. I would like everybody to respond to it.
    Mr. Fleming is recognized.
    Dr. Fleming. Thank you, Mr. Chairman.
    And I am glad to hear, it is very interesting to hear that 
really a debate that is going on right in front of our eyes, 
the panel, of where we go with our nuclear deterrence. And I do 
appreciate the fact that it seems there is a consensus that we 
maintain our nuclear triad, and I certainly agree with that. We 
want to make our potential adversaries the most complex problem 
possible. That is how deterrence works.
    Dr. Payne, I have a question for you. How do long-range 
bombers factor into your call for greater adaptability and 
flexibility in our future nuclear posture? And could you 
explain why we need the new Long-Range Strike Bomber that will 
eventually replace portions of our current bomber force?
    Dr. Payne. Yes, I am very much in favor of both the new 
bomber and also the new cruise missile specifically because 
they contribute to the adaptability that I think is so 
important for deterrence.
    To go back and set the stage, if we don't have a deterrent 
that can adapt to changing circumstances, we may have a 
deterrent that fails. And our most important priority is having 
a deterrent that does not fail to the extent that we can 
produce a deterrent that won't fail.
    And having a bomber and the LRSO, the new cruise missile 
that would be with that bomber, allows the United States to be 
able to adapt to many different circumstances. It allows 
different options for the President to respond or to threaten 
to respond. It is just a key part of having an adaptable force 
structure.
    Dr. Fleming. Okay, thank you.
    Mr. Colby and Dr. Murdock, can you give us a succinct and 
compelling case for why we need the Long-Range Strike Standoff 
weapon, the long-range bomber, which will replace our current 
air-launched cruise missile? Do you believe this is an 
important capability, and why or why not?
    Mr. Colby. I do, sir. And thank you for the question. I 
think at least two major factors. One is that stealth, which is 
the basis for the B-2 and low observability which will be the 
basis for the long-range penetrating bomber, are both, you 
know, it is a critical capability, but we don't know the future 
of it. We know our adversaries are making a lot of progress in 
detection and targeting of these weapons.
    And even if we can still partially operate, there may be 
constraints on what we can do. So we want to have a backup 
option, we want to be able to penetrate, especially given the 
plenitude, the panoply of targets we may be going after.
    The second and related point is a cost-imposition point. We 
want our adversary to have to prepare for a weapon with a 
totally different trajectory. And this is as true in the 
conventional realm as it is in the nuclear realm.
    So I think, given the amounts we are talking about with the 
Long-Range Standoff option, it makes abundant sense.
    And I also think, this is more of a rebuttal to some of the 
arguments that are out there, that this is not a destabilizing 
weapon. In fact, the United States traditional position was 
that cruise missiles were generally stabilizing. And we have 
been using conventional cruise missiles without incident, 
without somebody thinking it was the prelude to a nuclear 
attack, for 40 years.
    You know, obviously if we use them in certain ways that we 
would, probably wouldn't do, we would want to be really careful 
about it. It would raise those kinds of questions. But I think 
that it is a bit of a canard.
    Dr. Fleming. Yes, Mr. Colby, do you have a----
    Dr. Murdock. I think you asked the question of me. Mr. 
Colby spoke first.
    Dr. Fleming. Sorry, Dr. Murdock, yes.
    Dr. Murdock. That is all right. I fully agree----
    Dr. Fleming. I can't see your nameplate so I am not sure 
who is who up there. Thank you.
    [Laughter.]
    Dr. Murdock. I fully agree and support the statements that 
Mr. Colby made at that time. I think the particular aspect is 
that it is a hedge against the failure of stealth. The B-52 has 
been our most reliable bomber platform for decades. It 
requires, it depends upon standoff weapons to survive, both 
conventionally and in nuclear mode.
    And to me, to give up the flexibility, as Keith Payne would 
refer to, of having a standoff missile, a standoff penetrating 
missile, it is easier to penetrate with a missile than it is 
with an aircraft during that time, plus they are a lot cheaper 
when you are talking about the number of missiles you need 
versus the number of platforms you might need to penetrate 
with, that it is affordable.
    And as Keith also pointed out, the CSBA study makes it 
clear, 30-, 35-year projection of $1.1 trillion sounds like a 
lot. Well, military capability is expensive. It costs, you know 
a billion dollars a year just simply to operate a carrier and 
that is not even talking about buying it, just to operate a 
carrier. So these capabilities are very expensive.
    But the issue, as the CSBA report points out, is, what is 
the priority of this? Can we afford to spend 5 percent of the 
U.S. defense budget on anything? Of course, we can. The 
question is, is that 5 percent more important than other 
competing priorities? And I would argue, when you are talking 
about a foundational capability like our deterrent, which is 
the bedrock of national power, we can afford that.
    Dr. Fleming. And I would agree. I mean, it is not only 
saving money through dividends, but it is saving lives through 
wars not fought. So I thank you.
    And I yield back.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. Chairman Rogers, thank you so very, very 
much.
    This is an extraordinarily important policy issue. It is a 
policy that we will be dealing with, I think, in the next--this 
year and on into probably the next 5 years. But we will set in 
place, one way or another, an extraordinarily important 
process.
    We have heard from, what I would call, the advocates of a 
greater nuclear. I would like to have Dr. Blechman take about 
3\1/2\ of my 5 minutes and come back with your arguments as to 
what you have heard here.
    Dr. Blechman.
    If you can pull that microphone down in front of you. There 
you go.
    Dr. Blechman. Yes, thank you. Well, my arguments are 
several fold. One, the idea that we can fight controlled 
nuclear wars is based on theology. It has never happened, no 
one knows what would happen once a nuclear weapon is used. And 
the notion that we can only match a nuclear weapon with a like 
kind of nuclear weapon is, to me, it is not based on any 
empirical fact, it is ideas. And they have their ideas and I 
have a different idea.
    For example, if there were, say, a conventional conflict in 
Estonia, that NATO had built up its conventional forces there, 
the Russians intervened nonetheless, there was a big 
conventional war, the Russians facing conventional defeat used 
a nuclear weapon, the U.S. could respond with a nuclear weapon 
delivered by a B-1 bomber, which perhaps previously had been 
deployed to Europe, with a variable yield. And there is no 
reason to think, in my mind, that such a response would not be 
just as compelling as being able to respond with a tactical 
weapon delivered by a fighter jet.
    In fact, I would have doubts as to whether the current 
tactical fighters would be able to penetrate the Russian air 
defenses to deliver that weapon, and also that the European 
crews would be authorized by their governments to deliver those 
weapons.
    So I think we are much better off depending on our 
strategic forces. So that was a view shared by the former Air 
Force Chief of Staff General Schwartz, for example.
    Mr. Garamendi. I thank you for that. I must say this is 
extraordinarily disturbing to me personally. I don't know if 
any of us have actually seen a nuclear explosion. I suppose we 
have seen films of it. It seems to me that if we really want to 
deter a tactical nuclear option that Russia might deploy we 
simply say you use it and you are history; you use a nuclear 
weapon in any form, in any circumstance, and you are history, 
we could certainly do that. We have plenty of nuclear weapons 
and delivery systems to accomplish that goal.
    So if this is about deterrence, it seems to me a flat-out 
statement of our policy, use a nuclear weapon in a tactical 
mode or any other way and you are history, period, that is 
deterrence. I think that also happens to be the French view of 
it.
    So why do we need to build all these new nuclear weapons? 
Once you start that process, it seems to me that we head down a 
road that is not particularly safe in any way, shape, or form.
    Dr. Mount, would you like to take my remaining minute and 
10 seconds and respond to the arguments on the other side of 
the table, which would be the right-hand side of the table?
    Dr. Mount. I would be glad to. I don't want to put words in 
my colleague's mouth, but as I understand it the argument for 
new nuclear capabilities is that a threat to utilize a large 
nuclear weapon in sort of a limited war scenario would be 
incredible.
    And I would dispute that, seriously. It is not clear to me 
that we would ever use a tactical nuclear weapon under any 
plausible circumstance. As Barry mentioned, delivering a 
tactical nuclear weapon through a tactical fighter has serious 
trouble. I don't know that we would authorize it. We couldn't 
be sure that it would reach its target in the right way.
    And most importantly, as you mentioned, any use of a 
nuclear weapon would have enormous diplomatic costs and it 
would give any President very serious pause. And the fact that 
we would incur such massive diplomatic and strategic costs, 
while plausibly not sort of having any outcome on the military 
situation on the ground, in turn, decreases the credibility of 
a threat to use one of these weapons.
    So I would seriously question whether they are needed in 
specific circumstances.
    Mr. Garamendi. Mr. Chairman, I will take another 30 
seconds.
    It just seems to me that we really need to have a 
continuing and a full debate on this issue because we will be 
making decisions this year and on into the future, in fact we 
are doing so today with the Long-Range Strike Bomber and the 
cruise missile that goes presumably with it.
    That is all part of this process, and it will lead us down 
a path that we need to understand what the implications of that 
path are. And the gentlemen here are certainly important in 
elucidating that path.
    I thank you for the additional 40 seconds.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Arizona, Mr. 
Franks, for 15--for 5 minutes.
    Mr. Franks. For 15 minutes, that would be perfect.
    Mr. Rogers. You would like 15, though.
    Mr. Franks. That is perfect, Mr. Chairman.
    [Laughter.]
    Mr. Franks. Gentlemen, thank you for being here. This is a 
discussion of profound gravity. And I find myself with the 
persuasion of the gentlemen, the first three on my left, simply 
because I believe it is important to be able to meet a 
potential enemy with whatever options may be necessary. And 
they do get a vote in the equation.
    So Dr. Blechman, your recommended strategy makes a basic 
assumption that U.S. conventional military superiority will 
continue indefinitely. And I hope you are correct.
    On the other hand, Mr. Colby's recommended strategy is 
based on an assumption that U.S. conventional superiority may 
not continue and that it is eroding fast in places like 
maritime Asia. And I think that reports and intelligence that I 
see seems to be on his side of the ledger, to say the least.
    If it turns out Mr. Colby is correct, doesn't that make 
your recommended strategy and posture somewhat invalid?
    Dr. Blechman. Yes, sir, you are correct. If the U.S. does 
not maintain conventional superiority, then we would have to 
look at alternative strategies.
    However, for my sins, I have worked on defense issues in 
Washington for 51 years now, and I have seen threats inflated 
at least three times over that period. Yes, Russia is making 
some progress, much less than China. And yes, China is making 
substantial progress.
    But if you look at Chinese technological capabilities or 
the size of their forces, it doesn't compare to what the U.S. 
already has publicly and what we are building for the future.
    Mr. Franks. Well, perhaps it is a situation at this point 
where, you know, just the leadership posture is responsible for 
some of the issues in the Ukraine and Crimea. But it seems to 
me like they are handling themselves, at least strategically, 
pretty wisely.
    And it seems to me that you are recommending cuts in the 
U.S. nuclear force would be difficult if not impossible to 
reverse in the face of a growing peer threat.
    And if you are wrong, I think we are imposing a limited 
response in U.S. nuclear capability. I think it is a dangerous 
direction to go in.
    Mr. Murdock, part of your recommended strategy of 
structuring accordingly our deterrence and extended deterrence, 
you outlined both of these SDF [strategic deterrent force] and 
EDF [extended deterrent force]. And I wanted to draw your 
attention to your table on page 20 and the last category of 
massive ordnance penetrator being carried aboard a B-2A and a 
B-52H.
    I know that this--part of the penetration capabilities is 
simply the velocity and the inertia involved. And given that 
these two platforms have wildly different airspeeds, can you 
help me understand that?
    And I am hoping to get one more question in quickly here, 
if it is possible.
    Dr. Murdock. The purpose of the chart was to show the 
relative destructive power of nuclear and conventional warheads 
largely on the nuclear side. But I included the largest 
conventional weapon in there so that the reader would recognize 
that the range is very great among nuclear weapons, but there 
is also quite a significant gap between nuclear weapons and the 
largest of conventional weapons.
    Mr. Franks. Yes, it makes----
    Dr. Murdock. In my mind, they are not substitutable. 
Politically, they are really not substitutable, but just even 
in the conventional fragmentation they are not.
    Mr. Franks. I think that is extremely reasonable and 
couldn't agree with you more.
    Dr. Colby, you mentioned, if I heard it right, that some of 
the different ways or some of the mid-range where you can 
incrementally escalate could include things of an EMP nature. 
And can you help us understand that a little bit better?
    Mr. Colby. Sure. Thanks, sir. Well, I think if we are 
talking about the adversary, EMP can be used in a very 
destructive way to basically negate or really undermine the 
U.S. ability to project power through destruction of 
electronics, space assets, and et cetera. So an EMP scenario is 
one that we do need to think very seriously about.
    Mr. Franks. Do you have any suggestions?
    Mr. Colby. Well, sir, I think in this kind of context, you 
know, proportionality, you know, I don't think we should tie 
ourselves to being precisely proportionate, but having those 
kinds of responses to be able to demonstrate to a potential 
adversary that he can't make a move and leave us in a place 
where we don't have a sensible way to respond is a 
recommendation.
    Mr. Franks. Mr. Chairman, I think the man makes a very 
important point.
    I am sorry?
    He makes a very important point and I think it is important 
that we don't maintain the kind of grid that is so vulnerable 
that it invites that scenario. So thank you very much.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman, Mr. Bridenstine, 
for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Every day I am in Congress I am surprised, most recently by 
Mr. Garamendi, my good friend from California, who I have high 
regard for, who I think is a great thinker, although we might 
not always agree, if very often at all. I don't know.
    But you know, his declaratory policy of if you use a 
nuclear weapon you are history, it is very Reaganesque and I am 
impressed by that. And I would--I say that very complimentary.
    What I would like to discuss are some of the things that we 
have in common. The ranking member mentioned that the command 
and control element seemed to be an issue where there is a lot 
of commonality, which is very important for us because where 
there is commonality we can start looking at budgets, at 
policy, at programs that we can put together.
    And when you look at the command and control, it seems like 
everybody is in agreement that we need resiliency, that we need 
survivability.
    You know, we have, you know, a space-based architecture for 
command and control that would be survivable and resilient. 
There is an AOA [analysis of alternatives] that has been in the 
Pentagon now for a long time. We have been trying to get that 
from the Pentagon. It has been very difficult getting it.
    But I wanted to draw on a statement from Mr. Colby. You 
recommend that the United States develop, quote--``more 
resilient space assets, more terrestrial and air-breathing 
platforms for C4ISR [command, control, communications, 
computers, intelligence, surveillance, and reconnaissance] and 
more modular and disaggregated architecture.''
    I think I would agree with all of that assessment. Can you 
describe specific investments you would support? And do we need 
a layered architecture to back up the current system?
    Mr. Colby. Well, thank you, Congressman. You know, I think 
this is actually a really important focus. I think it is one 
that crosses the aisle because it is vital for the 
survivability issue and it is also increasingly in jeopardy 
because of not just intent on the part of our potential 
adversaries, but the nature of technological change in the 
space, counter-space, cyber domain, and so forth.
    I think disaggregating the architecture is one thing, 
making our space capabilities more survivable. But also 
potential things like air-breathing, unmanned aerial systems or 
airborne platforms that can do relay so that if your space 
assets are vulnerable, as they may inevitably be to some 
degree, to some earnest ASAT [antisatellite weapon] attack, 
then we have other options.
    Also, you know, we can look at a wide variety of different 
options. I don't have a particular set of A, B, C, D in terms 
of recommendations.
    But actually, it is funny you mentioned something I am 
thinking about right now, so it is good to hear because I will 
redouble in my efforts to think it through.
    Mr. Bridenstine. Well, thank you.
    Dr. Blechman, one of the things I am interested in that you 
recommended is that the United States develop low-cost space-
launch capabilities to help with reconstitution. Can you 
describe how this committee might be helpful in those low-cost, 
what are the investments that might be necessary to get low-
cost, space-launch capabilities?
    Dr. Blechman. Well, I think this is an area where our 
commercial, where our private sector can make the largest 
contribution. And we are seeing increasing competition for 
developing space-launch capabilities in the private sector. And 
this committee can encourage the Air Force and the Department 
of Defense to open competition for launching satellites.
    There has been some limitations placed on that in the past. 
And things are changing a little bit, but they can be 
encouraged to move more quickly so that these companies have 
the incentives to invest their own funds and to push their 
technologies as fast as they can.
    Mr. Bridenstine. So in my last minute, I have a provocative 
question that might make my colleague from California upset 
with me.
    Mr. Garamendi. Who will give me 15 seconds?
    Mr. Bridenstine. The Comprehensive [Nuclear] Test-Ban 
Treaty is something that Secretary Kerry has been pushing for 
the Senate to ratify historically. And I think there are very 
challenging implications if we were to go that direction.
    And I was wondering if I could hear from Mr. Colby, Dr. 
Murdock, and Dr. Payne. I have got 30 seconds remaining, so 
maybe I can take that for the record.
    But Dr. Murdock, would you be willing to take that 
question? The implications if we go forward with a 
Comprehensive Test-Ban Treaty, and instead of testing we rely 
on, I guess, computer models?
    Dr. Murdock. Well, the computer model that you refer to, a 
science-based stockpile stewardship program, it has actually 
greatly enhanced our understanding of how nuclear weapons 
actually function.
    And while there was a considerable amount of controversy at 
the outset of that program, there is very little controversy 
now that in the scientific community when it comes to our 
ability to certify whether nuclear weapons will work.
    There is a question in terms of my bias, my recommendation 
for developing new capabilities and new weapons with those that 
you will be departing from the experiential record of previous 
nuclear weapons and that will raise a question, again, the 
issue of, do you need to test a weapon in order to be sure that 
it works?
    Nuclear weapons have been employed twice; one of them had 
been tested before and one of them had not, and they both 
worked. Now we are in an age of considerably greater 
sophistication than the first two nuclear weapons and so I 
think as we go into the 2025 and beyond, the issue of 
developing and having confidence in the reliability of nuclear 
weapons that you develop to deal with new security challenges 
would make, in my mind, ratifying the Comprehensive Test-Ban 
Treaty now unwise.
    Mr. Rogers. The gentleman's time is expired.
    Thank you very much.
    Dr. Blechman, you suggest that we allow several hundred 
U.S. tactical nuclear weapons we have, our B61 nuclear bombs, 
to simply age out and go away, that we shouldn't modernize 
them.
    But it is openly discussed that Russia has many thousands 
of tactical and nuclear weapons, landmines and air defense 
missiles, artillery shells and many other types.
    We eliminated our other forms of tactical nuclear weapons 
in the 1990s, but Russia didn't follow suit. And now Russia is 
violating the INF Treaty with ground-launched cruise missiles.
    So isn't your proposal simply unilateral nuclear 
disarmament by the United States, something we tried in the 
1990s and have direct evidence that it didn't work?
    Dr. Blechman. Well, let me say first that I do think we 
need to respond strongly to the Russian violation of the INF 
Treaty, not by doing anything to violate the START agreement, 
but I think it is essential that they be held to account to 
treaties that they are parties do.
    On the question of eliminating the tactical weapons, I 
don't believe that the European allies are likely to authorize 
their crews to be the first ones to deliver a nuclear weapon in 
the event the Russians use a nuclear weapon in a conflict in 
Eastern Europe. I think we can get ourselves in a terrible 
political bind in such a situation.
    Now, I believe we should depend on our strategic forces, 
our long-range bomber, and I certainly support the new long-
range bomber as a very high priority, and we can deliver the 
B61 bomb which has a variable yield with the long-range bomber 
perhaps based forward in Europe, but not necessarily, and be 
much more confident that, one, it would penetrate the Russian 
air defenses and, two, that the political decision would be 
made in that situation.
    Mr. Rogers. Great. You also suggested eliminating one-third 
of our ICBMs [intercontinental ballistic missiles] and 
eliminating two SSBNs, which means we cannot sustain our 
continuous at-sea deterrence. With Russia totally uninterested 
in following such reductions, aren't those dangerous positions?
    Dr. Blechman. I don't believe so. I think that we have more 
than enough weapons to deter a Russian attack on the United 
States or on any of our allies. I think we can go down to, I 
don't know what the number is, 1,200, 1,000, weapons and still 
have more than enough destructive capability that the Russians 
would be crazy to attack us or our allies.
    I think deterrence depends lots more on demonstration of 
political will and leadership and on the conventional forces 
and the knowledge of the adversary that if they take a 
threatened action they will confront American military forces 
and allied military forces on the ground. That is what I think 
deterrence depends on.
    Mr. Rogers. All right.
    Dr. Payne, the final report of the Perry-Schlesinger 
commission on the strategic posture of the United States 
stated, quote--``Working with partners in the intelligence 
community, the laboratories should be in a position to advise 
national leadership on foreign nuclear weapons' activities 
bearing on the interests of the United States and its allies. 
In short, the commission recommends that the laboratories be 
allowed to design, simulate and experimentally assess foreign 
nuclear weapons designs for the purposes of defense analysis,'' 
close quote.
    Why, in your opinion, is this important?
    Dr. Payne. Sir, it is important because----
    Mr. Rogers. Your microphone.
    Dr. Payne. It is important because we need to know what 
types of capabilities other folks may be developing. And if our 
labs don't have the ability to try and replicate designs and 
look at those capabilities, we may not be very familiar with 
the type of capability that Russia is deploying or China is 
deploying. And ignorance at that level could be profoundly 
dangerous.
    So I think it is extremely important that our labs be able 
to have that capability to go look at foreign systems, see how 
they are designed, understand those foreign systems in every 
way possible so that we are smart about what our opponents have 
and not dumb.
    Mr. Rogers. Anybody else have any thoughts as to why that 
is important or not important?
    Let the record reflect, no.
    I now turn to the ranking member for any final questions he 
may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    It is a fascinating and terrifying debate and words like 
``discriminate'' and ``proportional'' sound so good and they 
are used in this debate to possibly have a whole new class of 
weapons that we thought we had discarded decades ago.
    And it certainly gives you an advantage over the others who 
could then be alleged to favor indiscriminate and 
disproportional responses.
    But I wonder, in a nuclear exchange, how good are we at 
knowing what in fact has happened? Like could an adversary 
think a low-yield weapon that we are so proud of because it was 
discriminate and proportional was in fact a dud? And how do you 
know? And I know there are seismic detectors and there are lots 
of ways to kind of tell. But in the panic of war, the fog of 
war, who really knows, and the world's fate could hang in the 
balance.
    So when Mr. Colby advocates switching out D5s for primary-
only missiles or, you know, dialing these things down to 
variable yield so presumably we get in Mr. Murdock's sweet spot 
of between MOPs and, you know .3 kiloton, like, that is--I 
don't know, how do people know this?
    Dr. Payne. I think, as you said, sir, the fog of war does 
not allow us to promise what you are going to know or not know. 
The question, though, in my mind is, does that mean that you 
don't prepare to have the type of options that Clark and Bridge 
have suggested? Because if you don't prepare to have those 
types of options, it is a self-fulfilling prophecy. All you are 
going to have are the type of large nuclear options that cause 
potentially much more damage than anybody would think 
reasonable under a circumstance.
    And again, I am not talking about the employment of nuclear 
weapons, I am talking about the importance of having those 
capabilities to deter the opponent.
    You know, Churchill said, no matter how mature you are in 
your sophistication, every now and then you should take the 
enemy into account. And let me just suggest, if you take the 
enemy into account in this very discussion, what we know from a 
number of open Russian sources, I am not saying anything here 
that isn't available in the Russian press, is that the Russian 
military has said they are going in the direction, they have 
gone in the direction that both Bridge and Clark have talked 
about, because they see that as a way of getting under the 
horizon of the U.S. nuclear deterrent.
    This isn't us just coming up with this stuff. The Russians 
have said that that is the kind of deterrent they want to have 
because it beats our deterrent strategy.
    And so what we are suggesting is we want the capabilities 
to fill in the blanks, not because we want to use them, but we 
want to make sure that the Russians know that use is not an 
option for them, so that deterrence works.
    That is the argument that you have heard from this left 
side of the table, from your perspective.
    Mr. Cooper. Preparation is a very seductive argument. And I 
as a Boy Scout, an Eagle Scout, am all for being prepared. But 
capability can translate into survival, it can also translate 
into temptation. You know, you build a series of perfect 
hammers, then you are going to use that hammer and every 
problem will start looking like a nail.
    And it is interesting how many times Russia has come up in 
the discussion, because in terms of population Pakistan is now 
larger and may be a less predictable nuclear power, but we like 
to demonize; Dr. Blechman pointed out three times in his 
career, we have exaggerated the capabilities of different enemy 
categories.
    It is really important we get this right.
    Mr. Colby. If I----
    Mr. Cooper. Yes.
    Mr. Colby. Could I comment, Congressman? Because I think it 
is a very important question. And honestly, I think it is a--I 
mean, look, these are horrible weapons that could kill untold 
numbers of people. I mean, they are the absolute catastrophic 
weapon and so they need to be treated with the utmost 
seriousness.
    And I certainly don't come here and recommend this lightly. 
But I think and I particularly say I don't think we should be 
thinking about escalation control or escalation dominance. We 
are thinking about an inherently risky and potentially 
catastrophic endeavor. But as Dr. Payne points out, we don't 
really have a choice.
    At a grand strategic level, we extend deterrence to 
countries around the world, over 30 countries, including ones 
where we are conventionally vulnerable to a nuclear-armed 
adversary with serious conventional forces that he can use very 
rapidly and who has evinced the willingness to use them.
    And so we have to have a way to fight wars and defend these 
countries in ways that are not suicidal. And with respect, 
Congressman, I think the problem with that strategy that your 
declaratory policy is, first of all, it is not credible, the 
guy is not going to believe it and it may even invite a 
challenge because he really won't believe that we will follow 
through on it and it will be a way to puncture our credibility.
    And I am struck by a famous example that was in Fred 
Kempe's book on ``Berlin 1961'' where there is actually a 
debate in the central committee of the communist party in 
Moscow about the percentage of probability of whether nuclear 
war would result if they pushed the ball forward in Berlin.
    And Mikoyan, the defense minister, was saying it is 10 
percent, we shouldn't do it. And Khrushchev says, no, it is 
something more like 5 percent so we can do it. So people gamble 
even under the nuclear shadow.
    And I think that if an adversary can say, hey, I can see a 
way where, yes, I am going to take risk on, but I am going to 
be willing to do it anyway, the Arabs, the Egyptians and the 
Syrians invaded Israel in 1973, which they knew was very 
dangerous potentially, but they did. And so I think what I say 
to you, Congressman Cooper, is absolutely, we need to be 
restrained, we need to be serious, we need to be sober about 
this.
    But I think that if, you know, the problem here is not that 
we are going to invent these and use them. I think the problem 
here is that we are potentially leaving open gaps that create 
vulnerabilities that can actually spur the ambition of people 
like Vladimir Putin.
    Dr. Mount. Congressman, if I might comment. I think it is 
exactly right to say that we ought to prepare for this new era 
of strategic competition. I think that it is vital to do so. 
But I think in shifting the bounds of this competition into the 
nuclear domain, you legitimize Vladimir Putin's reckless 
movement of nuclear capabilities and his sort of--and his very 
reckless risk-taking.
    I think it is vital that the United States and its allies 
prepare to counter these hybrid strategies in the domain where 
they started, so we prepare robust, layered, conventional 
responses so that we can combat these strategies with 
strategies of our own that actually have a plausible chance of 
stopping this kind of aggression on the ground where it starts.
    I think we have every interest in maintaining a resolute 
and unified response to Russian aggression at those levels and 
no interest at all in allowing Russia to shift the game to the 
strategic area where he is more capable, relatively more 
capable.
    Mr. Cooper. Well, we need to make sure we don't mistake 
nationalist bluster for serious intent, and when you are 
leading a nation that is declining in population, has a problem 
with alcoholism, you have to use extraordinary measures to try 
to be popular in a country like that.
    I am in no way defending Mr. Putin. But it is so important 
that we get this right. A copycat approach, a monkey-see, 
monkey-do approach could well be what they are most interested 
in when so often we have been on the short end of asymmetric 
warfare.
    It seems to me that the ideal response is not a 
proportional one, but a hugely worse one, but nonlethal. You 
know, it is amazing what the capabilities of the militaries are 
and the capabilities of warfighting, not just nuclear-nuclear.
    So I hope that we will be able to explore these issues. I 
appreciate Dr. Murdock leading this very interesting study and 
getting the debate going again because it has been too long 
since we have had one like this. And it is very important that 
the members of this committee and the Congress be more versed 
in these issues.
    And the final point would be, Dr. Blechman's, we have heard 
a lot of hawkish comments today. But as the National Journal 
reminds us today, we are about to pass a defense bill that uses 
pay-fors that are, quote--``almost universally regarded as 
gimmicky.'' That is a real sign of a national strength. That is 
a real sign of commitment.
    And everybody talks tough, but you have got to be able to 
pay the bills. And when we are borrowing so much of this money 
from China to do this, it has a certain ironic touch.
    So Dr. Murdock's entirely right. We can pay for this if we 
have the will to do it. It is a very small percentage of our 
defense budget. But we haven't been paying for our defense 
budget. And it goes without saying what our NATO allies have 
done to shirk their responsibilities. You know, they enjoy our 
umbrella, but they don't want to pay the bills either.
    So we have serious issues in the West of willpower and 
determination. And I hope that debates like this can not only 
focus on the technical, military aspects, but also the social 
aspects that are required to have a genuinely strong defense.
    Thank you, Mr. Chairman.
    Mr. Rogers. The Chair now recognizes the gentleman from 
California for a final set of questions.
    Mr. Garamendi. Thank you, Mr. Chairman.
    And once again, thank you for this extraordinarily 
important discussion and debate which will go on for a long 
time.
    My concern here is that the advocates of advancing our 
nuclear forces basically put us down a path where we would be 
developing multiple delivery systems and multiple weapons on 
those systems, all of which would enable us to engage in a 
limited nuclear war. And I think that is exactly where this 
would go, presumably for the purposes of deterrence.
    Now, if that is where we want to go to be able to wage a 
limited nuclear war, then we will make those investments.
    On the other hand, if our goal is deterrence, that is to 
not have anybody use a nuclear weapon, either in a tactical way 
or in a strategic way, which is a kind of a, in my mind, a 
foolish dichotomy, but nonetheless if that is our goal, then is 
there another way of achieving it? And I guess I laid out 
another way of achieving it. You use a weapon, then you are 
history. I mean, that is a deterrence.
    Are we willing to do it? Which Mr. Colby suggested perhaps 
we would not be. Well, time will tell. Hopefully, we will not 
have to pass time to find out if there is going to be a moment 
of truth.
    But it just seems to me extremely dangerous to accept the 
path that we will create new delivery and new weapons for the 
purposes of engaging in a limited nuclear war, which I think 
the three of you are suggesting we should be prepared to do.
    On the other hand, there is the--what seems to have almost 
been forgotten is that we have made extraordinary progress in 
limiting nuclear weapons. There is no doubt that we have gone 
from several tens of thousands to significantly less than that, 
probably less than 10,000.
    Yes, Russia does have a lot of tactical nuclear weapons. 
But is there a possibility that they would use them in Estonia? 
Now, if NATO decides to invade Russia, that is another matter. 
Would Russia use it in that case? Well, I am sure they would. 
But then why are we invading Russia? Well, why is NATO invading 
Russia? Or maybe it is China and Russia going at this, I don't 
know.
    But it just seems to me that we need to be very, very 
thoughtful here before we accept the policy that the United 
States is going to develop a series of tactical nuclear weapons 
for the purposes of engaging in a limited nuclear war.
    All right. Is that really what we want to do? And is there 
such a thing as a limited nuclear war? I think there isn't.
    Now, it may be that the first nuclear war is limited, but 
the next one and the next one and the next one?
    There has been a policy for some years now that nuclear 
weapons are off the table for war. They are on the table for 
deterrence for sure. And I think that is good and I think they 
ought to be there. Now, what does it take for us to maintain a 
reasonable deterrence?
    So I would like to see this in two--I see it in two 
different ways. One, advocacy for the ability of the United 
States to create the ability to engage in a limited nuclear war 
presumably for deterrence of a limited nuclear war. And the 
other is the traditional deterrence that we have had for more 
than 50 years.
    I am deeply concerned that this nation would lead us and 
the world down the path that we would develop the capability to 
engage in a limited nuclear war. I don't want us to go there. I 
think it is extremely dangerous.
    So with that, I yield back and----
    Mr. Rogers. I thank the gentleman.
    And I thank the witnesses for being here, for a very 
thought-provoking hearing. It has been very worthwhile.
    I would remind you that we are going to leave the record 
open for 10 days for members who couldn't be here, to get their 
questions submitted to you. And I would ask you to respond to 
those in writing in a timely fashion if you could.
    With that, we are adjourned.
    [Whereupon, at 5:09 p.m., the subcommittee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            November 3, 2015
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            November 3, 2015

=======================================================================

      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            November 3, 2015

=======================================================================

      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            November 3, 2015

=======================================================================

      

             RESPONSES TO QUESTION SUBMITTED BY MR. AGUILAR

    Dr. Payne. For decades, one of the common assumptions apparent in 
the U.S. public debate about nuclear weapons and policy has been that 
U.S. acquisition of a particular type of nuclear capability would serve 
only to inspire other states to do likewise. The typical claim based on 
this assumption is that the U.S. acquisition of a nuclear capability 
ultimately will lead nuclear-armed states to further expand their 
nuclear arsenals and inspire nuclear proliferation. In U.S. academic 
jargon, this thesis has come to be known as the ``action-reaction'' 
theory of the arms race, i.e., the U.S. acts, and others react 
similarly. It suggests that the U.S. ought not to move forward with new 
capabilities because doing so will harm U.S. security by initiating an 
``action-reaction'' cycle of nuclear weapons that would not otherwise 
take place. Corresponding is the frequent claim that if the United 
States does not acquire a nuclear capability, others will refrain from 
doing so as well. This thesis has become accepted wisdom in many 
quarters in the United States. It posits a seemingly logical and 
obvious connection between U.S. actions and others' reactions. The 
problem with this thesis, however, is that the actual facts of the 
history of the Cold War and subsequent history point in a different 
direction. The now-declassified (previously Top Secret) Cold War study, 
History of the Strategic Arms Competition: 1945-1972, Part 1, by the 
Office of the Secretary of Defense, Historical Office concludes as 
follows: ``No consistent pattern can be found. That is the first 
important generalization to emerge from the history. The facts will not 
support the proposition that either the Soviet Union or the United 
States developed strategic forces only in direct immediate reaction to 
each other. . . . No sweeping generalizations about action-reaction 
cycles or inexorable Soviet designs or the momentum of science and 
technology can survive detailed examination of the sequence of 
events.'' Despite this finding, the notion of an inexorable ``action-
reaction'' U.S.-led nuclear arms race cycle has continued to dominate 
U.S. public policy debate. More recent available evidence similarly 
does not support the contention that U.S. acquisition of nuclear 
capabilities inspires nuclear proliferation. In fact, to the extent 
that there are identifiable linkages, it appears that: 1) some 
proliferant states seek WMD capabilities in response to superior U.S. 
conventional military capabilities, not U.S. nuclear capabilities; and, 
2) that maintenance of a credible U.S. nuclear ``extended deterrent'' 
is a key to successful non-proliferation because it helps to assure 
some non-nuclear allies and friends of their security and thus reduces 
their incentives to seek their own independent nuclear capabilities. 
Maintaining a credible U.S. extended nuclear deterrent makes a 
tremendous contribution to nuclear nonproliferation. Finally, to 
suggest that a U.S. move toward the acquisition of ``low-yield'' 
weapons would inspire others to do so ignores the reported, decades-old 
Russian drive to acquire precisely such capabilities. In short, the 
United States cannot inspire Russia to move in that direction, because, 
according to available open information, Russia already has moved in 
that direction. And, in general, the Russian and Chinese nuclear 
modernization programs appear to precede by many years the Obama 
Administration's fledgling nuclear modernization efforts. At this 
point, the United States cannot credibly be charged with leading an 
arms race. In short, the ``action-reaction'' thesis does not survive 
historical analysis in general; nor does the corresponding current 
characterization of prospective U.S. nuclear programs as inspiring a 
new ``arms race.''   [See page 19.]
    Dr. Blechman. I believe that the Russians have set a strategic trap 
for us and we are blindly falling into it. The Russians' emphasis on 
nuclear weapons and nuclear war-fighting is the result of their 
conventional weakness. Despite their on-going modernization program 
(now being cut back due to their economic problems), they are well 
behind the U.S. and its allies in advanced conventional technologies--
from ISR to precision munitions to stealthy platforms to robotics, etc 
etc. They therefore emphasize nuclear weapons, to deter conventional 
warfare, just as NATO did in the 1950s and 1960s when it was in a 
similar position vis a vis the Soviet Union. But nuclear weapons are 
terrible weapons for fighting wars, regardless of their yield. Too many 
have to be used to defeat dispersed armored formations, and their use 
complicates communications, surveillance, guidance, etc--not only by 
the enemy, but by the side that uses them, as well. Instead of 
diverting resources to nuclear forces, the U.S. and its allies should 
be exploring even more advanced conventional technologies to ensure we 
maintain our current advantages, as well as maintaining the high 
readiness of our forces. To my mind, the line between conventional and 
nuclear warfare should be kept as bright as possible. The U.S. should 
be clear it would respond to any nuclear use against its forces or its 
allies, no matter the yield of the weapons used, no matter the launch 
platform (long-range or short-range), with a devastating retaliatory 
nuclear response--not necessarily on the battlefield (which would 
mainly kill civilians in allied nations) but against military targets 
in Russia itself.   [See page 19.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            November 3, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Please explain why you believe the United States needs 
an accurate, lower-yield nuclear option? Is there a ``gap'' in U.S. 
capability between our lowest-yield nuclear weapons and our largest 
conventional weapons? How might Russia or another nuclear adversary 
exploit this in a crisis? In your opinion, does the U.S. having these 
types of capabilities make the use of a nuclear weapon--by either side 
in a crisis--more likely or less likely? Why?
    Dr. Murdock. The principal role of U.S. nuclear weapons is to deter 
nuclear attacks against the United States and its allies. Deterring 
discriminate attacks at the lower end of the nuclear continuum depends 
critically on the United States having nuclear response options that 
are proportional to how an adversary might employ nuclear weapons 
against the United States and its allies. If the United States were 
only capable of disproportionate, high-collateral-damage retaliatory 
attacks, an adversary could believe that that the United States would 
be ``self-deterred'' and would not respond-in-kind to a nuclear attack. 
Having credible nuclear response options across the nuclear continuum 
raises the nuclear threshold because it reduces the likelihood that an 
adversary will resort to nuclear weapons in the first place. There is a 
capability ``gap'' between our lowest-yield nuclear weapons and our 
largest conventional weapons. While the smallest variant of the B61 
bomb is ``only'' 0.3 kt, that is still 20 times (21.5) more powerful 
than the largest-yield conventional weapon (the 30,000-pound Massive 
Ordnance Penetrator [MOP]). The B61-3/4 is slated to be replaced by the 
B61-12, which is also a variable-yield weapon with options that are not 
yet known. The ``life-extension'' program for the B61 bomb will likely 
result in a weapon that has at least two kiloton-or-smaller variations, 
but aside from greater accuracy, no additional ``special effects'' such 
as enhanced-radiation, earth-penetration, or low radiation, all of 
which appear to be in active development in Russia (and elsewhere). The 
United States is simply not preparing to counter how its potential 
adversaries are (or may be) preparing to counter its conventional 
superiority. Russia has explicitly adopted a first-use declaratory 
policy for its nuclear weapons as part of its ``escalate-to-de-
escalate'' strategy that envisions employing a nuclear weapon to 
extricate itself from a conventional conflict that it is losing. By 
having discriminate, proportionate nuclear response options, the United 
States denies its potential adversaries the attractiveness of ``going 
nuclear'' and, in effect, makes it less likely that the nuclear 
threshold will be breached.
    Mr. Rogers. Dr. Payne, Dr. Murdock, and Mr. Colby, you each come to 
this problem from somewhat different strategic perspectives and 
assessments of the future strategic and threat environment, yet you all 
basically agree on the broad future contours of the best U.S. nuclear 
force. Does this consensus reflect a broader developing consensus among 
experts in the field? If so, what does this tell us?
    Dr. Murdock. As several senior-level DOD officials have observed, 
U.S. nuclear weapons were our ``first offset'' as the U.S, and NATO 
coped with the conventional threat posed by the Warsaw Pact. Today, 
other nations (such as Russia) are increasing their reliance on nuclear 
weapons or seeking nuclear weapons (such as Iran) to ``offset'' or 
``counter'' U.S. conventional superiority. For those of us in the 
policy community who take this dynamic interaction seriously, I do 
believe there is a growing consensus that the United States needs to 
develop and deploy new nuclear capabilities to ensure the credibility 
and effectiveness of its nuclear deterrent in the 21st century. A 
nuclear posture designed for the Cold War threat of the 1980s is 
almost, by definition, not the right nuclear posture for 2025-2050. 
However, I would not characterize this view as representing ``a broader 
developing consensus among experts in the field.'' Nuclear issues have 
always been controversial and hotly debated in the American policy 
community, even during the height of the Cold War. There are those who 
believe, as President Obama stated in his 2013 Berlin speech, that the 
United States will never be ``truly secure'' as long as nuclear weapons 
exist. Since I believe nuclear weapons will always exist, unless 
mankind invents a more lethal and effective instrument of destruction 
that makes them obsolete, I prefer to focus on increasing the safety 
and security of Americans in the nuclear era rather than on the 
fruitless (in my opinion) pursuit of a world without nuclear weapons. 
In my judgment, which I believe is increasingly shared by those who 
believe (as I do) that the prospects of a highly proliferated world 
consisting of fifteen and more nuclear powers are increasing, the 
United States needs a nuclear strategy, policy and posture designed for 
these challenging times, not those in an increasingly distant past.
    Mr. Rogers. Are the strategy and reforms you propose responsible 
and prudent or would they too greatly lower the bar to nuclear use, and 
perhaps even incentivize use of nuclear weapons? Why isn't what you 
propose simply too dangerous?
    How do you specifically see these capabilities as giving the United 
States the ability to deter an opponent's attempt to use nuclear 
capabilities in a limited fashion?
    Dr. Murdock. The danger to be deterred is the employment of a 
nuclear weapon against the United States and its allies. Much as it did 
during the 1950s when it was opposed by the conventionally-superior 
Warsaw Pact, the United States and NATO deliberately did not adopt a 
no-first-use (NFU) policy with respect to nuclear weapons and, while 
remaining ambiguous about precisely what circumstances under which it 
would resort to the employment of nuclear weapons, relied upon its 
nuclear forces to deter major conventional aggression by the Soviet-led 
Warsaw Pact. At the height of the Cold War, the United States deployed 
about 7,000 nuclear weapons (often referred to as ``tactical nuclear 
weapons'' or TNWs) in NATO-Europe, which ensured that the Soviets knew 
that any major war in Europe would ``go nuclear.'' While this had the 
effect of lowering the nuclear threshold, it was ``responsible and 
prudent'' to do so, because it deterred major aggression in Europe and 
helped keep the Cold War cold. Today, our potential adversaries are 
exploring how nuclear weapons could help them cope with the challenge 
of U.S. conventional superiority. Russia's military doctrine has 
already embraced the first-use of nuclear weapons to prevent losing a 
conventional conflict with a conventionally-superior adversary (the so-
called ``escalate-to-de-escalate'' strategy). It would be imprudent and 
irresponsible for us not to consider how to counter this strategy. 
Developing and deploying discriminate nuclear capabilities raises the 
nuclear threshold because it reduces the attractiveness of nuclear 
escalation to our potential adversaries. The so-called ``correlation of 
forces'' has changed since the height of the Cold War, and our nuclear 
strategy, policy and posture must adapt to new strategic realities. Not 
doing so, in my view, is not only irresponsible, it raises nuclear 
risks and is potentially dangerous.
    Mr. Rogers. This subcommittee has spent a lot of time focused on 
the need for a responsive U.S. nuclear infrastructure. The 
administration seems to largely agree with us but has been glacially 
slow in implementing actions to fix it. Do you believe we need a 
nuclear infrastructure and enterprise that can quickly respond to 
geopolitical changes or technical failures in the stockpile? How should 
we define ``responsiveness'' of our nuclear enterprise going forward? 
What metrics should we use to measure responsiveness? Does a responsive 
infrastructure contribute to deterrence of potential adversaries?
    Dr. Murdock. The need for a ``responsive'' nuclear infrastructure 
has been highlighted ever since it was named as one of the ``legs'' of 
the ``New Triad'' depicted in the 2001-2 Nuclear Posture Review (NPR). 
Although the term ``New Triad'' did not survive the passage of time, 
recognition that a responsive infrastructure is a critical enabler of a 
safe, secure, reliable and effective nuclear deterrent has survived. As 
I have advocated elsewhere (e.g., in QFRs 1-3) [preceding answers], I 
believe that the United States must develop and deploy new nuclear 
capabilities that are bettered suited for the strategic realities of 
the 21st century. This will not be possible without a healthy 
infrastructure capable of developing and producing new nuclear weapons. 
While it is the capabilities themselves, plus, of course, the will to 
use them if circumstances require it, that deter our adversaries, 
maintaining the necessary infrastructure for developing, acquiring and 
sustaining nuclear capabilities is necessary enabler. While defining 
the technical requirements of a ``responsive'' nuclear infrastructure 
is beyond my expertise, the recommendations contained in Project Atom 
are predicated on the assumption that the U.S. does, in fact, sustain 
the nuclear complex which, in turn, designs, develops and produces U.S. 
nuclear capabilities that are the foundation of nuclear deterrence.
    Mr. Rogers. Project Atom had an overarching constraint that the 
force postures the teams recommended must be possible within 
``approximately $35 billion per year in constant 2013 dollars, 
comprising 4 to 5 percent of the defense budget.'' Do you believe your 
recommendations meet this constraint? Do you believe 4, 5, or 6 percent 
of the defense budget is an appropriate amount to be spending on 
nuclear deterrence, which DOD says is the nation's ``highest priority 
defense mission''?
    Dr. Murdock. In a report issued after Project Atom was released,\1\ 
Todd Harrison and Evan Braden Montgomery conclude that even with the 
``bow wave'' spending of $12-13 billion per year during the 2020s for 
nuclear maintenance and sustainment, nuclear spending will ``at most'' 
account for only 5 percent of total defense spending. At this level of 
spending, they conclude that the U.S. nuclear program is not 
``unaffordable'' and that ``In the end, what the United States can or 
cannot afford depends on the priorities set by policymakers,'' making 
the issue a ``matter of strategy rather than cost.'' I agree completely 
with this statement. Moreover, I do not believe that the ``appropriate 
amount to be spending on nuclear deterrence'' should be linked to a 
level of spending (such as 4, 5, or 6 percent) of the defense budget, 
but should be determined by the nature of the strategic environment and 
the role and value of U.S. nuclear weapons in that strategic context. I 
believe that the ``overarching constraint'' set by the Project Atom 
study the 2025-2050 nuclear posture should be possible within 
``approximately $35 billion per year in constant 2013 dollars, 
comprising 4 to 5 percent of the defense budget'' is both reasonable 
and achievable.
---------------------------------------------------------------------------
    \1\ Todd Harrison and Evan Braden Montgomery, The Cost of U.S. 
Nuclear Forces: From BCA to Bow Wave and Beyond (August 2015), 
Washington, DC: The Center for Strategic and Budgetary Assessments.
---------------------------------------------------------------------------
    Mr. Rogers. The Final Report of the Perry-Schlesinger commission on 
the Strategic Posture of the United States stated that, ``Working with 
partners in the intelligence community, the laboratories should be in a 
position to advise national leadership on foreign nuclear weapons 
activities bearing on the interests of the United States and its 
allies. In short, the commission recommends that the laboratories be 
allowed to design, simulate, and experimentally assess foreign nuclear 
weapon designs for the purposes of defensive analysis.'' A. Why, in 
your opinion, is this important? Do you support this effort? B. The 
Department of Energy is approximately 10 months late in submitting to 
Congress an annual report on how it will implement such a program. How 
important do you think it is that the Department promptly begin to 
implement this program?
    Dr. Murdock. While I believe that the tracking and assessment of 
foreign nuclear weapons activity is primarily the responsibility of the 
intelligence community, I think that the laboratories have an important 
role to play, both from an intelligence perspective and as part of 
defense planning. Having a clear and technically competent 
understanding of non-U.S. nuclear weapon activity is critical for 
effective policymaking, intelligence analysis and weapons development 
and procurement. While I do not follow this issue closely and do not 
consider myself a subject-matter expert (SME) in this area, I support 
the Perry-Schlesinger recommendation and believe it should be 
implemented.
    Mr. Rogers. Please explain why you believe the United States needs 
an accurate, lower-yield nuclear option? Is there a ``gap'' in U.S. 
capability between our lowest-yield nuclear weapons and our largest 
conventional weapons? How might Russia or another nuclear adversary 
exploit this in a crisis? In your opinion, does the U.S. having these 
types of capabilities make the use of a nuclear weapon--by either side 
in a crisis--more likely or less likely? Why?
    Dr. Payne. The current condition, in my opinion, is highly 
destabilizing--in part because of a ``gap'' in U.S. capabilities as 
perceived by Moscow. This gap is illustrated by the self-described 
Russian nuclear strategy of ``escalating to de-escalate.'' This 
strategy, as described by Moscow, in fact, is a nuclear first-use 
strategy, and would be used in situations in which Russia would 
threaten to employ, or employ a limited number of low-yield nuclear 
weapons. The apparent paucity of credible, low-yield U.S. nuclear 
options with which to deter such actions is a capability gap that, I 
believe, should be corrected. In short, Russia has a nuclear first-use 
strategy and a near monopoly in the associated relatively-limited 
tactical nuclear capabilities. Moving to correct that gap would be a 
stabilizing U.S. step. Flexible U.S. nuclear options, including an 
accurate, low-yield U.S. weapon could contribute to stability by 
helping to counter Russian nuclear strategy and deter Russian nuclear 
first use in a regional crisis. An accurate, low-yield U.S. weapon 
could be particularly helpful in this regard because Russian leaders 
appear now to expect that Russia would be able to employ accurate, low-
yield tactical nuclear weapons in a crisis without triggering a large-
scale U.S. nuclear response via central U.S. strategic systems. That 
Russian confidence appears to be based on the expectation that Russian 
employment of tactical nuclear weapons with relatively limited effects 
would not be sufficiently provocative and destructive to trigger a 
large-scale U.S. strategic nuclear response because U.S. leaders would 
be paralyzed by fear of subsequent Russian nuclear escalation. Russia 
appears to base this first-use strategy, at least in part, on the 
relative lack of available U.S. limited, tactical nuclear options. For 
deterrence purposes, whether this Russian expectation seems reasonable 
to U.S. leaders is far less relevant than is the apparent Russian 
confidence in that expectation. This situation reflects a potentially 
critical gap in U.S. deterrent capabilities as perceived by Russian 
leaders and codified in reported Russian strategy. U.S. tactical 
nuclear capabilities that are relatively limited and discriminate could 
help fill that gap and deter Russia's first-use nuclear strategy. 
Movement in this direction by the United States would not be a matter 
of thoughtlessly mimicking Russian tactical nuclear deployments; rather 
it would be a step to counter Russian nuclear strategy in terms that 
are pertinent to Russian strategy and Russian leaders. The continuation 
of the current gap in U.S. capabilities, as apparently perceived by 
Russia, will likely validate Russian confidence in its tactical nuclear 
first-use strategy. Russia has been adamant that it will not give up 
its tactical nuclear capabilities, presumably because they are 
essential to its nuclear first-use strategy. Consequently, closing this 
gap via a renewed U.S. focus on forward-based tactical systems and 
accurate, low-yield nuclear options on a U.S. missile may well be 
critical to counter this Russian strategy and for U.S. efforts to deter 
nuclear war in a future crisis with Russia.
    Mr. Rogers. Dr. Payne, Dr. Murdock, and Mr. Colby, you each come to 
this problem from somewhat different strategic perspectives and 
assessments of the future strategic and threat environment, yet you all 
basically agree on the broad future contours of the best U.S. nuclear 
force. Does this consensus reflect a broader developing consensus among 
experts in the field? If so, what does this tell us?
    Dr. Payne. Yes, it appears that a policy consensus is developing in 
support of modernizing the U.S. nuclear triad and U.S. forward-deployed 
nuclear capabilities. An increasingly broad spectrum of expert opinion 
recognizes that this modernization is now necessary because the 
realities of the contemporary threat environment are far from the 
optimistic post-Cold War expectations of a new and benign world order. 
A relatively broad and bipartisan consensus is developing that U.S. 
military capabilities, including nuclear, must adjust to the new 
realities of the post-Cold War era, including an aggressive, 
expansionist Russian grand strategy that is backed by coercive nuclear 
threats and an aggressive, expansionist Chinese grand strategy. Given 
the extraordinary costs of completely redesigning a new U.S. nuclear 
force for the twenty-first century, the modernization of the existing 
force posture seems to be the more affordable option for which a broad 
consensus of support is forming.
    Mr. Rogers. Are the strategy and reforms you propose responsible 
and prudent or would they too greatly lower the bar to nuclear use, and 
perhaps even incentivize use of nuclear weapons? Why isn't what you 
propose simply too dangerous?
    How do you specifically see these capabilities as giving the United 
States the ability to deter an opponent's attempt to use nuclear 
capabilities in a limited fashion?
    Dr. Payne. The strategy and reforms my colleagues and I propose are 
highly prudent. They would, I believe, be much more likely to raise 
``the bar to nuclear use'' than lower it. They would likely reduce the 
incentives for tactical nuclear first use, as perceived by Russia and 
others. The reason why I believe this to be the case is presented in my 
answer to Question 7, which is repeated below.
    The current condition, in my opinion, is highly destabilizing--in 
part because of a ``gap'' in U.S. capabilities as perceived by Moscow. 
This gap is illustrated by the self-described Russian nuclear strategy 
of ``escalating to de-escalate.'' This strategy, as described by 
Moscow, in fact, is a nuclear first-use strategy, and would be used in 
situations in which Russia would threaten to employ, or employ a 
limited number of low-yield nuclear weapons. The apparent paucity of 
credible, low-yield U.S. nuclear options with which to deter such 
actions is a capability gap that, I believe, should be corrected. In 
short, Russia has a nuclear first-use strategy and a near monopoly in 
the associated relatively-limited tactical nuclear capabilities. Moving 
to correct that gap would be a stabilizing U.S. step. Flexible U.S. 
nuclear options, including an accurate, low-yield U.S. weapon could 
contribute to stability by helping to counter Russian nuclear strategy 
and deter Russian nuclear first use in a regional crisis. An accurate, 
low-yield U.S. weapon could be particularly helpful in this regard 
because Russian leaders appear now to expect that Russia would be able 
to employ accurate, low-yield tactical nuclear weapons in a crisis 
without triggering a large-scale U.S. nuclear response via central U.S. 
strategic systems. That Russian confidence appears to be based on the 
expectation that Russian employment of tactical nuclear weapons with 
relatively limited effects would not be sufficiently provocative and 
destructive to trigger a large-scale U.S. strategic nuclear response 
because U.S. leaders would be paralyzed by fear of subsequent Russian 
nuclear escalation. Russia appears to base this first-use strategy, at 
least in part, on the relative lack of available U.S. limited, tactical 
nuclear options. For deterrence purposes, whether this Russian 
expectation seems reasonable to U.S. leaders is far less relevant than 
is the apparent Russian confidence in that expectation. This situation 
reflects a potentially critical gap in U.S. deterrent capabilities as 
perceived by Russian leaders and codified in reported Russian strategy. 
U.S. tactical nuclear capabilities that are relatively limited and 
discriminate could help fill that gap and deter Russia's first-use 
nuclear strategy. Movement in this direction by the United States would 
not be a matter of thoughtlessly mimicking Russian tactical nuclear 
deployments; rather it would be a step to counter Russian nuclear 
strategy in terms that are pertinent to Russian strategy and Russian 
leaders. The continuation of the current gap in U.S. capabilities, as 
apparently perceived by Russia, will likely validate Russian confidence 
in its tactical nuclear first-use strategy. Russia has been adamant 
that it will not give up its tactical nuclear capabilities, presumably 
because they are essential to its nuclear first-use strategy. 
Consequently, closing this gap via a renewed U.S. focus on forward-
based tactical systems and accurate, low-yield nuclear options on a 
U.S. missile may well be critical to counter this Russian strategy and 
for U.S. efforts to deter nuclear war in a future crisis with Russia.
    Mr. Rogers. Should we have a U.S. deterrence strategy based on a 
declaratory policy of ``You use a nuclear weapon against us or our 
allies, and you are history!?'' Would such a policy--and a force 
structure designed to carry it out--increase or decrease the deterrence 
provided by our nuclear capabilities? Would it lead to more security 
and stability or less?
    Dr. Payne. A U.S. nuclear threat that says to an opponent ``you are 
history'' may sound robust, but it essentially would recreate the long-
since rejected ``Massive Retaliation'' policy of the 1950s. ``Massive 
Retaliation'' should not be revived at this point as declaratory policy 
because it would, I believe, undermine U.S. deterrence goals, decrease 
stability and increase the potential for nuclear first use by a 
determined opponent. There are two fundamental reasons why such a U.S. 
deterrence policy has, for over four decades, been rejected by every 
Democratic and Republican administration.
    First, the indiscriminate nuclear destruction of an opponent's 
population would be a gross violation of the Just War Doctrine and 
international law. This may seem to some to be a tangential matter when 
the subject is nuclear deterrence; but it rightly is taken seriously by 
leaders and military planners. Republican and Democratic 
administrations have agreed for decades that the U.S. should not 
intentionally engage in or base its planning on such indiscriminate 
nuclear targeting policies. The Obama administration's most recent 
unclassified nuclear employment policy continues this long-standing 
rejection of such deterrence strategies.
    Second, an indiscriminate ``you are history'' declaratory policy 
would likely be insufficiently credible to deter effectively in many 
plausible circumstances. The United States can make nuclear threat 
declarations for deterrence purposes. But, the critical deterrence 
point is not whether the United States makes a nuclear threat that 
sounds robust to U.S. leaders, but whether U.S. threat declarations are 
judged by opponents to be credible enough to deter, i.e., do opponents 
actually believe the threat? If not, U.S. deterrence strategies cannot 
work by design.
    To claim that U.S. nuclear deterrence goals can now be supported 
adequately by an old ``Massive Retaliation''-type nuclear threat is to 
presume that opponents will believe that the U.S. would actually employ 
it as threatened. Yet, since the 1960s every U.S. administration has 
concluded, rightly in my opinion, that such a threat is unlikely to be 
credible to opponents in many plausible circumstances in which the U.S. 
nuclear deterrent must be effective--particularly including the 
extension of nuclear deterrence for allies, i.e., the U.S. ``nuclear 
umbrella.'' The fundamental concern is that nuclear-armed opponents 
simply will not believe that the U.S. would execute such a massive 
nuclear strike unless U.S. cities had first been attacked massively 
because to do so would likely result in a massive nuclear reply against 
U.S. cities--a move no U.S. president would make. Thus, such a threat 
has been deemed incredible for many U.S. deterrence objectives.
    In short, the credibility of a ``Massive Retaliation'' deterrence 
threat may be limited to a single type of nuclear threat to the United 
States. Yet a much broader spectrum of nuclear threats must be 
deterred, such as the use of tactical nuclear weapons against U.S. 
allies. To deter the many plausible nuclear threats that are short of a 
massive nuclear attack against U.S. cities, the U.S. has long judged 
that more limited and more flexible U.S. response options would be more 
credible, and thus more deterring. This is why U.S. force posture 
``flexibility'' has long been considered a key ingredient for U.S. 
deterrence strategies.
    Consequently, an alternative to ``Massive Retaliation,'' known as a 
policy of ``Flexible Response,'' was initiated by Secretary of Defense 
McNamara in the 1960's and codified in policy by Defense Secretary 
Schlesinger in 1974. It has had bipartisan support and rightly remains 
a fundamental element of reported U.S. policy. The basic point of 
Flexible Response is that the United States must have more diverse 
threat options than simply telling an opponent that ``you are history'' 
because such a threat may, in many important cases, lack the 
credibility necessary for effective deterrence. The goal of having 
diverse options below a ``Massive Retaliation'' threshold is to 
strengthen the credibility of the U.S. nuclear deterrent and reduce the 
prospects for war. This approach seems particularly critical in the 
context of Russian nuclear strategy which emphasizes limited nuclear 
threats against U.S. allies and the employment of nuclear weapons in 
regional war, as discussed in my answers to Questions 7 and 9.
    Mr. Rogers. This subcommittee has spent a lot of time focused on 
the need for a responsive U.S. nuclear infrastructure. The 
administration seems to largely agree with us but has been glacially 
slow in implementing actions to fix it. Do you believe we need a 
nuclear infrastructure and enterprise that can quickly respond to 
geopolitical changes or technical failures in the stockpile? How should 
we define ``responsiveness'' of our nuclear enterprise going forward? 
What metrics should we use to measure responsiveness? Does a responsive 
infrastructure contribute to deterrence of potential adversaries?
    Dr. Payne. A responsive infrastructure, if achieved, could make a 
critical contribution to U.S. deterrence goals. It is particularly 
important in the contemporary highly-dynamic threat environment. A 
responsive infrastructure would help the United States to adjust its 
force posture in a timely way to challenging political or technical 
developments. Such developments could, for example, include the rapid 
appearance of an unforeseen political or technical threat that would 
demand a corresponding adjustment in U.S. deterrence capabilities. The 
lack of a responsive infrastructure leaves the U.S. little able to 
respond in a timely way to such potential developments and, as a 
result, may contribute to the apparent attractiveness of an opponent's 
``breakout'' strategy. Such a strategy could appear particularly 
attractive to an opponent in certain situations, such as if a 
reliability problem in one or more legs of the U.S. triad occurs and 
cannot be corrected promptly. Deterrence is destabilized to the extent 
that an opponent sees a breakout strategy as a potentially viable 
option.
    The standard of useful responsiveness is not fixed; it is 
determined by several factors--the most important of which is the 
character of the threat environment, political and technical. In the 
past, the National Nuclear Security Administration (NNSA) has had 
metrics for its responsiveness to be able to address unexpected 
problems. For example, in the early 2000s, NNSA reportedly set the goal 
of being able to design and develop a new type of nuclear warhead 
within five years.\1\ Such metrics may provide useful measures against 
which to posture the nuclear infrastructure. It is not apparent if the 
NNSA has specific responsiveness metrics at this time.
---------------------------------------------------------------------------
    \1\ John Gordon, Under Secretary of Energy for Security and 
Administrator, National Nuclear Security Administration, Department of 
Energy, Prepared Statement for the Senate Armed Services, February 14, 
2002, pp. 2, 5.
---------------------------------------------------------------------------
    Given the highly-dynamic contemporary threat environment and the 
diverse spectrum of threats, a responsive infrastructure should be 
considered a key component of U.S. deterrence capabilities.
    Mr. Rogers. You describe ``adaptability'' as the fundamental 
characteristic of your recommended nuclear strategy and posture. You 
define adaptability as ``the combination of flexibility and 
resilience.'' Why is adaptability your #1 requirement in a force 
structure? What are some actions we could take that increase 
adaptability in our nuclear force? What actions would you say decrease 
adaptability? Should we avoid actions that are irreversible--or at 
least very, very difficult to reverse?
    Dr. Payne. Adaptability is the combination of the flexibility and 
resilience of the U.S. force posture (including infrastructure) and 
planning. Flexibility includes U.S. possession of a diversity of threat 
options; resilience includes the survivability or U.S. forces against 
the spectrum of threats and the ability to reconstitute U.S. forces in 
a timely manner. Some commentators recently have suggested that U.S. 
nuclear force posture flexibility should be avoided--labeling it a 
``Cold War'' and ``war-fighting'' concept. This position reflects a 
complete misunderstanding of the value of adaptability as a U.S. force 
posture attribute to meet deterrence requirements in the 21st century. 
Adaptability, including flexibility is, in my opinion, the single most 
important metric for measuring the adequacy of U.S. forces for the 
deterrence of foes and the assurance of allies. The value of U.S. force 
posture adaptability is particularly apparent in its potential 
contribution to the credible deterrence of an opponent's threats of 
nuclear escalation. The effectiveness of U.S. deterrence strategies to 
prevent war resides in their credibility, and nuclear deterrent threats 
that are rigid and narrow, vice flexible, are unlikely to be credible 
in many circumstances. Deterrent threats must be adaptable to the 
opponent and the contingency at hand and not structured rigidly as if 
for a single type of opponent and single type of crisis. In a highly-
dynamic threat environment such as exists today, the U.S. requirements 
to deter foes and assure allies are diverse and can shift rapidly, and 
the credibility of U.S. deterrent threats may correspondingly depend on 
U.S. capabilities and planning that are sufficiently adaptable to shift 
as necessary to deter. As noted in the answer to question 10 above, a 
return to the rigidity of the U.S. ``Massive Retaliation'' deterrent 
threat would be destabilizing in those plausible cases wherein such a 
deterrent threat would simply lack credibility.
    There are numerous steps that will strengthen adaptability, 
including for example, modernizing the triad with its diversity of 
platforms, adding U.S. advanced conventional force capabilities (e.g., 
CPGS), modernizing forward-based systems and increasing the 
responsiveness of the U.S. infrastructure. Adaptability is degraded by 
eliminating diverse U.S. options and capabilities in ways that are 
essentially irreversible. Unfortunately, U.S. strategic arms control 
policy often embraces the ``irreversibility'' of reductions as a 
measure of success. That is a realistic perspective only in the context 
of an essentially fixed and predictable threat environment in which it 
can be known that the capabilities eliminated will never again be of 
critical value. That is not the contemporary threat environment.
    I should add that adaptability has been stressed by DOD officials 
as increasingly important for military capabilities in general. This is 
because of the significant expense of developing a new military weapons 
system which is expected to remain in service for decades. This, 
coupled with a highly dynamic environment and diverse threats, makes 
adaptability a prudent and effective approach to maintaining needed 
U.S. deterrence capabilities and U.S. military capabilities in general.
    Mr. Rogers. Project Atom had an overarching constraint that the 
force postures the teams recommended must be possible within 
``approximately $35 billion per year in constant 2013 dollars, 
comprising 4 to 5 percent of the defense budget.'' Do you believe your 
recommendations meet this constraint? Do you believe 4, 5, or 6 percent 
of the defense budget is an appropriate amount to be spending on 
nuclear deterrence, which DOD says is the nation's ``highest priority 
defense mission''?
    Dr. Payne. My colleagues and my recommendations in the base case of 
Project Atom fit within the budget constraints designated in the study. 
The study also includes a case wherein we were asked to think outside 
those budget constraints. In general, the level of spending for the 
deterrence of foes and assurance of allies cannot reasonably be 
determined by identifying a fixed percentage of the DOD budget. A 
review of funding for U.S. strategic nuclear capabilities shows the 
cyclic nature of funding requirements. A large outlay was required in 
the early 1960s to create what became known as the nuclear triad. In 
the 1980s, another significant outlay was needed to modernize the aging 
triad. At present, we are facing a situation similar to that of the 
1980s--although with a much smaller U.S. force posture. The existing 
triad has been life-extended and modernization is again needed. As 
noted in my answer to question #12, employing adaptability as a metric 
can help control costs and develop a nuclear force for deterrence and 
assurance that is relevant for the dynamic threat environment of the 
twenty-first century.
    Identifying the most effective deterrence strategy cannot be done 
prudently on the basis of first defining the percentage of the DOD 
budget that will be devoted to this priority goal--budgets should 
follow strategy and strategic priorities, they should not be the 
driving factor. Rather, the character of the threat environment and the 
priority of various defense programs are the basic determinants of the 
appropriate budget share. This is a key point because ensuring 
effective nuclear deterrence has been identified as the highest defense 
priority by senior U.S. officials and the corresponding requirements 
for deterrence can shift dramatically depending on the threat 
environment. This prioritization is a reflection of severe emerging 
threats, including developments in Russia's foreign policy, nuclear 
doctrine and forces, and the basic fact that the deterrence of nuclear 
war must be considered an enduring priority goal. Indeed, if nuclear 
deterrence fails dramatically, many other U.S. goals and capabilities 
become irrelevant. Correspondingly, within broad margins, U.S. 
capabilities intended to deter severe threats warrant whatever budget 
commitment is needed to provide and sustain the capabilities judged 
critical to support that goal. Indeed, it is extremely fortunate that 
the goals of nuclear deterrence and assurance may be adequately 
supported at this point by a nuclear modernization program that demands 
such a modest percentage of the DOD budget--reportedly under 5 percent 
annually per current nuclear modernization plans through 2030. But, at 
the end of the day, that budget percentage should not be considered 
fixed because it must shift according to the threat environment and the 
continuing priority need for effective nuclear deterrence and 
assurance.
    Mr. Rogers. Why do we need a stand-off cruise missile like the LRSO 
if we will also have a penetrating bomber and a nuclear gravity bomb in 
the B61?
    Dr. Payne. In general, a multiplicity of platforms and threat 
options contributes to the adaptability of the U.S. deterrent, which 
may be extremely important for credible deterrence in a highly-dynamic 
threat environment as discussed in the answers to questions 10 and 12 
above. Correspondingly, the United States needs a stand-off cruise 
missile like the LRSO to preserve and strengthen the flexibility and 
resilience of the U.S. deterrent in plausible circumstances. Stand-off 
weapons, for example, may be critical, now and in the future, to 
support a credible deterrent threat if enemy air defenses would 
essentially preclude the potential of U.S. bombers to threaten 
penetration to critical targets for deterrence purposes. In such 
circumstances, and others, stand-off cruise missiles could help ensure 
the effectiveness of the U.S. deterrent threat. In their absence, the 
bomber leg of the U.S. triad could be effectively shut down as a 
credible deterrent instrument. Such a condition would, in my opinion, 
be destabilizing because the bombers offer unique and important options 
for deterrence purposes. Specifically, the LRSO would provide a U.S. 
stand-off capability that adds to the inherent flexibility of the 
bomber capabilities and are accurate, discriminate, and, for an 
opponent, unpredictable in its route of flight. Given the long expected 
operational lifetime of a new U.S. strategic bomber, it would be highly 
imprudent to assume that LRSO is redundant because the bomber itself 
will be able to penetrate with gravity bombs throughout that lifetime 
in all potentially important contingencies.
    Mr. Rogers. The Final Report of the Perry-Schlesinger commission on 
the Strategic Posture of the United States stated that, ``Working with 
partners in the intelligence community, the laboratories should be in a 
position to advise national leadership on foreign nuclear weapons 
activities bearing on the interests of the United States and its 
allies. In short, the commission recommends that the laboratories be 
allowed to design, simulate, and experimentally assess foreign nuclear 
weapon designs for the purposes of defensive analysis.'' A. Why, in 
your opinion, is this important? Do you support this effort? B. The 
Department of Energy is approximately 10 months late in submitting to 
Congress an annual report on how it will implement such a program. How 
important do you think it is that the Department promptly begin to 
implement this program?
    Dr. Payne. I strongly support this effort because a critical 
ingredient of any effective deterrence strategy is an understanding of 
opponents' goals, intentions, determination and capabilities. 
Ignorance, misperceptions and misunderstandings of opponents are the 
basic reasons why deterrence strategies fail and wars take place that 
otherwise might have been deterred. This U.S. understanding of 
opponents seems particularly important with regard to opponents' 
nuclear capabilities because we must make our nuclear deterrence 
strategies as effective as possible. The ability of the U.S. national 
laboratories to understand foreign nuclear weapon designs, and thus 
foreign nuclear capabilities, is critical to understanding opponents' 
capabilities and intentions, and thus to establishing the most 
effective deterrence strategies possible. In addition, according to 
open reports by subject matter experts, design and development skills 
at the national laboratories have been atrophying as the result of no 
new development efforts for nuclear warheads. Having the design teams 
at the national laboratories design, assess, and analyze foreign 
nuclear capabilities would help maintain a skilled nuclear development 
workforce for the United States. This could be of great value in the 
future.
    Mr. Rogers. Please explain why you believe the United States needs 
an accurate, lower-yield nuclear option? Is there a ``gap'' in U.S. 
capability between our lowest-yield nuclear weapons and our largest 
conventional weapons? How might Russia or another nuclear adversary 
exploit this in a crisis? In your opinion, does the U.S. having these 
types of capabilities make the use of a nuclear weapon--by either side 
in a crisis--more likely or less likely? Why?
    Mr. Colby. The United States greatly benefits from having nuclear 
weapons that can be used relatively discriminately and with some 
potential for the control or manipulation of escalation (although such 
control can never be assured).
    The ultimate deterrent threat of nuclear weapons lies in their 
capacity to wreak the most grievous, swift, and sure destruction upon 
an adversary, largely irrespective of the state or result of the sub-
nuclear contest. Yet the execution of such a threat would be an act of 
the most brutal violence, an act that could only be justified--and 
likely would (and should) only be seriously considered--under the most 
extreme circumstances. Perhaps more to the point, such strikes would 
very plausibly call forth the matching response of an adversary 
possessed of nuclear weapons himself. The direct threat of nuclear 
attack against an adversary's urban infrastructure is therefore of only 
partial credibility, and of little credibility in situations short of 
the catastrophic.
    This is a particular problem for the United States, which extends 
nuclear deterrence to several dozen allies. This extension of its 
``nuclear umbrella'' means that the United States pledges to use 
nuclear weapons in situations that are very grave for its ally but not 
necessarily for itself. Washington extends its nuclear deterrent in 
this fashion because it sees substantial stability, nonproliferation, 
and political benefits arising from bringing friendly states within its 
defensive envelope, and sees nuclear weapons as unique instruments of 
deterrence, particularly against the most serious forms of attack. Yet 
if large-scale nuclear strikes were the only options the United States 
possessed to respond to such attacks, this would mean that any nuclear 
use on behalf of an ally or for any important but still partial 
interest against the likes of Russia or China would immediately and 
directly raise the question of whether the United States should 
sacrifice New York for Tallinn, Los Angeles for Tokyo, or Washington 
for Warsaw.
    This problem is particularly and increasingly important because 
potential U.S. adversaries such as Russia and China have survivable 
nuclear weapons of their own as well as sophisticated conventional 
forces. At root, the problem proceeds from the reality that the United 
States cannot realistically hope to destroy or eliminate the nuclear 
forces of these major power adversaries without running too great a 
risk of incurring a massive nuclear attack. We therefore must find ways 
of prevailing over these formidable potential opponents (even in 
limited terms) while inducing them to avoid using or at least to 
restrain their use of their nuclear arsenals. This is especially hard 
because these states appear to be planning to be able to employ their 
militaries against the United States--or, more specifically, its 
exposed allies and partners--in order to create and exploit political 
and military circumstances in which Washington may be unwilling to run 
the risks and incur the costs necessary to respond effectively. In 
brief, they hope to shift the burden of escalation onto the United 
States through the use of nuclear weapons, conventional forces, or 
both, in the hopes that the United States will ultimately decide to end 
the conflict on terms favorable to them.\1\
---------------------------------------------------------------------------
    \1\ For the author's fuller description of his conception of this 
problem, see Elbridge Colby, ``Preparing for Limited War,'' The 
National Interest (November/December 2015), 11-22. NB: Given the 
relatively limited space available in these answers, references to the 
author's additional work in this and ensuing footnotes are provided in 
case the reader is interested in the author's further elaboration of 
the points raised.
---------------------------------------------------------------------------
    This is not merely a theoretical challenge. Russia appears to be 
developing or refining a nuclear strategy modeled around precisely this 
logic. In the event of conflict with the West, Moscow appears to plan 
to have the option to ``escalate to deescalate'' the war by using 
nuclear weapons in limited ways designed to spook the West into halting 
the fight in a manner tantamount to acceding to the Kremlin's demands.
    The United States therefore needs ways of making its nuclear 
weapons relevant and effective as deterrents in situations short of 
those touching on its own survival yet in which its adversaries can 
inflict the most terrible harm upon it. How can the United States 
square this circle? The answer--albeit an inherently imperfect one--
lies in a nuclear strategy that enables limited, graduated, and 
deliberate escalation. This strategy should be designed to demonstrate 
the determined U.S. will to respond to major attacks, including nuclear 
ones, against its allies and farther interests; impose targeted but 
increasingly severe harm on an opponent; and at the same time evidence 
the willingness to allow a tolerable de-escalation. Such a strategy of 
intelligent and focused escalation stands the best chance of 
demonstrating to an adversary that the United States has the ability 
and will to impose increasingly searing costs on him without launching 
a massive strike that could well amount to suicide.\2\
---------------------------------------------------------------------------
    \2\ For a fuller description of the author's logic for such a 
posture, see Elbridge Colby, ``Reconciling Stability and Deterrence'' 
in Strategic Stability: Contending Interpretations, ed. by Elbridge 
Colby and Michael Gerson (Carlisle Barracks, PA: U.S. Army War College 
Press, 2013), 47-83.
---------------------------------------------------------------------------
    To pursue such a strategy, the United States needs limited nuclear 
options--that is, options designed to allow the use of nuclear weapons 
in ways that exploit the fear of but do not necessarily lead to general 
nuclear war. Such limitation of nuclear strikes can come in many 
forms--including the target type selected, the location of the target, 
the destructiveness of the weapons, and the number of weapons used, to 
name a few. The United States should therefore develop strategies, 
capabilities, and plans for the use of nuclear weapons in limited 
fashion, including ones suited for the emerging military-technological 
era, which means updating and modernizing our nuclear posture and 
architecture.
    The role of such limited nuclear options, it is important to 
emphasize, is not to encourage nuclear use, let alone general nuclear 
war. Rather, it is to enable the United States to be able to gain the 
deterrent and stability benefits of nuclear weapons in such a way that 
their employment does not necessarily result in utter destruction. 
Possessing such an ability is vital because, if nuclear weapons cannot 
be used in any situations short of the cataclysmic, enterprising and 
risk-acceptant adversaries may well seek to gain advantage by raising 
the stakes against Washington and daring us to respond massively. For 
instance, Russia might seek to establish a fait accompli in Eastern 
Europe and then employ limited nuclear strikes to compel the West to 
back down. Or China might try something similar in the Western Pacific 
with respect to the territory of U.S. allies. Without comparable 
capabilities, the United States could be left without a rational and 
effective riposte to such a strategy.
    How, some will ask, would such a strategy not devolve into a 
nuclear tit-for-tat? Ideally, it would not because the United States 
would be better at limited nuclear war than its potential adversaries. 
Possessed of superior capacity for discrimination, control, and the 
infliction of harm in a nuclear war, the United States should have 
greater leverage over its potential adversaries, which will be the ones 
left forced to choose between de-escalation and a nuclear strike that 
will call forth a most devastating response. This is particularly 
relevant with respect to China, over which the United States still 
enjoys substantial advantages in these attributes.
    But what about Russia, over which the United States does not enjoy 
such advantages, or a more formidably nuclear-armed China? How would 
such a strategy end or at least deescalate a war with an opponent over 
which the United States does not have meaningful nuclear leverage?
    Much of the answer lies in the fielding of non-nuclear forces that 
can prevent the adversary from making gains, particularly easily and 
quickly, that can then be protected by nuclear escalation. If 
adversaries cannot take territory or valued things--or very much of 
them--from the United States and its allies, then a strategy of using 
limited nuclear attacks to force a war termination in place will yield 
them little or nothing.\3\
---------------------------------------------------------------------------
    \3\ For an elaboration of this logic in the NATO-Russia context, 
see Elbridge A. Colby and Jonathan F. Solomon, ``Facing Russia: 
Conventional Defence and Deterrence in Europe,'' Survival, (December 
2015/January 2016), 21-50.
---------------------------------------------------------------------------
    More broadly, however, we must bear in mind that no one knows how 
assuredly to control a limited nuclear war, and that it is widely 
understood that the attempt to control such a war could only ever be a 
highly uncertain and always combustible thing. Both sides in such a 
contest would have every incentive to find ways to avoid large-scale, 
let alone total, destruction. Accordingly everyone, even the most risk-
tolerant gamblers, should be exceedingly reluctant to embark on such a 
course, and be particularly loathe to press a limited nuclear war too 
far. The Russians and Chinese both know this, as do we.
    Thus, a nation should only embark on employment of such a perilous 
strategy that would risk its annihilation if it thinks it has dramatic 
advantages in the capability to conduct a limited nuclear war, if it 
perceives its adversary as basically bluffing over the issue at hand, 
or if the adversary has crossed a fundamental redline. The United 
States can prevent the Russians or Chinese from thinking any of these 
is the case if it has serious limited nuclear options, makes clear its 
resolve to defend its allies, and avoids crossing a redline that would 
prompt Moscow or Beijing to employ nuclear weapons to vindicate its 
most vital interests.
    It must be admitted that the posture advocated here sounds 
extremely dangerous--and that its actual execution surely would be. But 
if the United States is resolved to continue its traditional extended 
deterrence and forward engagement approach, this is the most 
appropriate strategy to effectively deter aggression against U.S. 
allies and thereby promote stability and a tolerable peace. If we 
recall that war is generally a product of one side's perception of 
vulnerability or opportunity, this posture would diminish the 
likelihood of conflict by demonstrating to potential U.S. adversaries 
that any attempt to exploit through arms perceived U.S. weaknesses or 
deficit of resolve would invariably result in failure or the most 
painful loss.
    Mr. Rogers. Dr. Payne, Dr. Murdock, and Mr. Colby, you each come to 
this problem from somewhat different strategic perspectives and 
assessments of the future strategic and threat environment, yet you all 
basically agree on the broad future contours of the best U.S. nuclear 
force. Does this consensus reflect a broader developing consensus among 
experts in the field? If so, what does this tell us?
    Mr. Colby. Defense experts are increasingly coalescing around the 
recognition of the emergence of a more adversarial international 
political environment, particularly exhibited by Russia, China, Iran, 
and North Korea, and of a more contested military-technological 
landscape. Among defense specialists who believe the United States 
should maintain its traditional international position, this is leading 
to a sense that the United States needs to redouble its efforts to 
maintain its military edge.
    In the nuclear realm, this appears to be leading to a growing 
consensus that disarmament is decreasingly credible and relevant.\4\ 
Substantial consensus appears to have formed supporting the 
modernization of the U.S. nuclear arsenal, albeit with debate about the 
advisability of how or whether to modernize certain elements. While 
affordability is an issue, the general view increasingly appears to 
view this as more of a challenge of how best to manage concentrated 
costs in the 2020s rather than as an issue of the basic ability to pay 
for the systems as such.
---------------------------------------------------------------------------
    \4\ For the author's critique of the feasibility and advisability 
of nuclear abolition, see Elbridge Colby, ``World Order Critique of 
Nuclear Abolition,'' in the forthcoming Global Nuclear Disarmament 
Strategic, Political, and Regional Perspectives, ed. by Nik Hynek and 
Michael Smetana (London, UK: Routledge, 2016).
---------------------------------------------------------------------------
    With respect to more discriminate nuclear capabilities, most 
nuclear specialists recognize that the United States maintains such 
capabilities today and believe that the country should retain some 
capability for discriminate use going forward. Debate tends to center 
around how much discrimination and tailoring are required and how much 
investment is needed to address military-technological challenges posed 
by potential adversaries.
    Mr. Rogers. Are the strategy and reforms you propose responsible 
and prudent or would they too greatly lower the bar to nuclear use, and 
perhaps even incentivize use of nuclear weapons? Why isn't what you 
propose simply too dangerous?
    How do you specifically see these capabilities as giving the United 
States the ability to deter an opponent's attempt to use nuclear 
capabilities in a limited fashion?
    Mr. Colby. There is a long-recognized inherent paradox in the 
reality that the most effective way to prevent war on acceptable terms 
is to be well-prepared to fight it. The Romans, for instance, captured 
this in their dictum that ``if you wish for peace, prepare for war.'' 
It is this simple but compelling logic that underpins the longstanding 
consensus in the United States that the nation should field a peerless 
military, one that can fight and prevail not only in wars touching on 
our own particular concerns but also in those impinging upon the vital 
interests of our many allies and partners.
    If U.S. and allied conventional forces could reasonably be expected 
to perform this daunting task at acceptable cost and risk over the 
long-term, then we would be bound to seriously consider relegating 
nuclear weapons to a relatively marginal role in our national security 
posture. This is not, however, a responsible expectation in light of 
the nature of the emerging international geopolitical and military-
technological environments.
    Politically, we continue to have fundamental disagreements with 
nations possessed of the most serious kinds of military capability--
disagreements that could worsen and even result in war.\5\ In light of 
this reality that war is possible, the United States needs a meaningful 
and effective defense policy and posture to deal with the formidable 
militaries these nations are developing.
---------------------------------------------------------------------------
    \5\ For a fuller argument for this point, see Elbridge Colby, ``Why 
Nuclear Deterrence is Still Relevant,'' in Thinking About Deterrence: 
Enduring Questions in a Time of Rising Powers, Rogue Regimes, and 
Terrorism, ed. by Adam Lowther (Maxwell AFB, Alabama: Air University 
Press, 2013), 51-74.
---------------------------------------------------------------------------
    This policy and posture must include a nuclear component because of 
the actual and latent military strength--both nuclear and 
conventional--of these potential adversaries. Russia, for instance, is 
thinking of ways to use nuclear weapons in discriminate and pointed 
ways to terminate a conflict with the United States and NATO on terms 
it prefers. China, meanwhile, may over the longer term gain 
conventional advantage in areas touching on the vital interests of U.S. 
allies, leading the United States to want to rely more on its nuclear 
forces for extended deterrence.\6\ Finally, North Korea is also 
developing a larger and more sophisticated nuclear force potentially 
capable of surviving U.S. attacks and being employed in a targeted and 
iterated fashion against U.S. and allied targets.
---------------------------------------------------------------------------
    \6\ See Elbridge Colby, ``Asia Goes Nuclear,'' The National 
Interest (January/February 2015), 28-37.
---------------------------------------------------------------------------
    These adversary strategies all raise the chances that, in the event 
of conflict, the United States would feel impelled to consider use of 
nuclear weapons--either in response to adversary employment or in order 
to ``escalate to deescalate'' a conventional conflict the United States 
and its allies were losing. If the United States only had totalistic 
options for employing nuclear weapons in such circumstances, or even if 
it lacked sufficient confidence in the precision with which it could 
deliver limited strikes, it might find itself without a sensible way of 
responding to very clever--but also very plausible--adversary 
strategies.
    For instance, Moscow might think that it could establish a 
conventional fait acccompli in NATO territory and then threaten to use 
or actually employ nuclear weapons in a limited way to try to frighten 
the West into backing down. Or China might seek to seize the territory 
of U.S. allies in the Western Pacific using conventional forces, block 
U.S. attempts to intervene, and then dare the United States to resort 
to nuclear weapons. In both cases, the adversary would seek to push the 
onus of escalation onto the United States. Left only with large-scale 
nuclear options, this burden would seem even heavier than it would 
already be--and perhaps too heavy.\7\ In such a case, the United States 
and its allies might determine that concession would be a more prudent 
course than deliberate escalation.
---------------------------------------------------------------------------
    \7\ For a fuller exploration of this logic, see Colby, ``Preparing 
for Limited War.''
---------------------------------------------------------------------------
    To avoid this disastrous outcome, the United States should arm 
itself with capabilities and strategies, including limited nuclear 
options, to respond appropriately to any such attempts on the part of 
its potential opponents. By demonstrating that the United States cannot 
realistically be left without effective recourse to adversary 
strategies, such strength should help deter potential adversaries from 
embarking upon such challenges in the first place.
    This is because, while it may be true that wars sometimes happen 
because of accident, it is far more common that they result because at 
least one side believes that it has a strategy that can work. Thus, the 
best way to dissuade an opponent from embarking on military action is 
to persuade him that such an endeavor will result in outright defeat 
or, at least, will result in costs and risks out of proportion to 
whatever gains he might win. This is precisely the logic of having 
tailorable nuclear options, which demonstrate to potential U.S. 
opponents that the United States cannot be forced to choose between 
capitulation and catastrophic escalation.
    Mr. Rogers. Why doesn't the existing U.S. nuclear force have 
sufficient capacity for discrimination? Why do we need to change from 
today's posture, platforms, and arsenal? How do you specifically see 
these capabilities as giving the United States the ability to deter an 
opponent's attempt to use nuclear capabilities in a limited fashion?
    Mr. Colby. The current U.S. nuclear force has substantial elements 
of discrimination, including variable yield weapons, and the ability to 
deliver such weapons in a relatively controlled fashion with relatively 
tailored effects. But these capabilities are relatively modest and in 
key respects are declining in effectiveness and relevance in light of 
the evolving military-technological environment and particularly the 
improving military power of potential adversaries. The U.S. posture for 
flexible nuclear use thus needs to be updated.
    Specifically, greater variability of effects (particularly yield) 
should be introduced into the U.S. weapons arsenal; U.S. nuclear forces 
should be equipped to penetrate increasingly sophisticated adversary 
air defense networks; and the aging U.S. nuclear-related command, 
control, communications, computers, intelligence, surveillance, and 
reconnaissance (C4ISR) system should be modernized to support limited 
nuclear operations.
    The ideal U.S. posture should allow the President to order nuclear 
strikes to conform to specific requirements with very high confidence 
that such strikes will penetrate and achieve the desired effect. That 
is, the President should be able to command that strikes hit a certain 
target or set of targets with a particular (especially lower) level of 
destructiveness, with particular types of effects, and should have very 
high confidence that the attacks will result in the kinds of results 
anticipated. Lacking confidence that such strikes will penetrate enemy 
defenses or that they will have the desired effect upon penetration, 
the United States may feel compelled to launch larger strikes in order 
to achieve even rather limited effects--potentially undermining or even 
negating the purpose of having capabilities for discriminate attack.
    Accordingly, and particularly in light of advances in potential 
adversary air defenses, the United States would benefit from having 
more capacity for discriminate strikes across the force, including the 
ballistic missile force. Thus the United States should equip some 
portion of the Trident II D5 SLBM force for lower-yield attack, and 
should ensure that the future airborne leg of the Triad can deliver 
lower-yield strikes as well as strikes of varying effect from multiple 
platforms, including via gravity bombs and the long-range standoff 
missile (LRSO). Such a multiplicity of attack options should give more 
optionality for attack typologies and also give higher confidence that 
such strikes would penetrate and take place as planned. This should 
give the United States greater leverage in ``manipulating risk'' or 
matching and blunting an adversary's ability to do so.
    At the same time, the United States should ensure that its aging 
C4ISR capabilities are modernized and optimized to enable support to 
limited nuclear operations through crucial functions such as ISR, 
battle damage assessment, command and control, and communications both 
with friendly forces and an adversary.
    Mr. Rogers. This subcommittee has spent a lot of time focused on 
the need for a responsive U.S. nuclear infrastructure. The 
administration seems to largely agree with us but has been glacially 
slow in implementing actions to fix it. Do you believe we need a 
nuclear infrastructure and enterprise that can quickly respond to 
geopolitical changes or technical failures in the stockpile? How should 
we define ``responsiveness'' of our nuclear enterprise going forward? 
What metrics should we use to measure responsiveness? Does a responsive 
infrastructure contribute to deterrence of potential adversaries?
    Mr. Colby. A responsive nuclear infrastructure and enterprise able 
to meet the country's national strategic requirements are vital for the 
nation's deterrent and thus for our national security. Responsiveness 
should be defined as the capability, capacity, and agility to turn over 
the stockpile roughly every ten years and to respond to emerging 
threats over the medium term.
    Mr. Rogers. Project Atom had an overarching constraint that the 
force postures the teams recommended must be possible within 
``approximately $35 billion per year in constant 2013 dollars, 
comprising 4 to 5 percent of the defense budget.'' Do you believe your 
recommendations meet this constraint? Do you believe 4, 5, or 6 percent 
of the defense budget is an appropriate amount to be spending on 
nuclear deterrence, which DOD says is the nation's ``highest priority 
defense mission''?
    Mr. Colby. I did not perform the budgetary analysis required to 
answer this question. In my report, I supported the replacement, 
modernization, or sustainment of the nuclear Triad, the associated 
warheads, and the nuclear command and control system and related 
components. This modernization effort has been budgeted to consume less 
than five percent of the defense budget over the next few decades, 
which I believe is a more than reasonable price to pay for the 
cornerstone of the nation and our allies' security.\8\ The additional 
expenditures stemming from my emphasis on discrimination, control, and 
flexibility in the nuclear force would, I assess, cost a relatively 
small additional amount compared to the total cost of nuclear forces. 
This is because such capacities are often largely resident in existing 
warheads, modern C4ISR systems, and contemporary delivery platforms. 
Fuller exploitation of these capabilities would be more a matter of 
developing latent capabilities rather than of initiating wholly new 
programs or pursuing revolutionary technologies, which are commonly 
culprits behind cost overruns.
---------------------------------------------------------------------------
    \8\ See, for instance, the study by leading experts from the Center 
for Strategic and Budgetary Assessments on costs of nuclear forces, 
Todd Harrison and Evan Branden Montgomery, ``The Cost of U.S. Nuclear 
Forces: From BCA to Bow Wave and Beyond?'' (Center for Strategic and 
Budgetary Assessments, 2015), 33.
---------------------------------------------------------------------------
    Mr. Rogers. Why do we need a stand-off cruise missile like the LRSO 
if we will also have a penetrating bomber and a nuclear gravity bomb in 
the B61?
    Mr. Colby. The nation would greatly benefit from having a standoff 
cruise missile replacement in the LRSO for two main reasons. First, we 
cannot be sure of the penetration capability of low-observable aircraft 
in light of advancing adversary air defenses. This means we would be 
ill-advised to place all our bomber leg eggs in the basket of the long-
range penetrating bomber, as important and promising as that program 
is. Instead, a standoff penetrating nuclear-armed munition will give us 
much greater assurance that the United States can attack targets 
throughout an adversary's territory, and can do so discriminately. It 
is therefore highly important that the LRSO be mounted with a warhead 
capable of variable yield settings.
    Second, investment in a standoff munition is likely to be an asset 
from a cost competition point of view. That is, adversaries will have 
their air defense challenge significantly complicated by the need to 
defend not only against low-observable bombers but also standoff 
munitions with different characteristics, concepts of operations, and 
signatures. Given the central importance of airpower to our nation's 
way of war, burdening adversaries' air defense problems as much as 
possible in a cost-competitive way is an important objective for the 
United States.
    More broadly, we must maintain considerable humility about the 
nature of technological change in the coming decades. Given the 
absolutely central importance to our nation's security and geopolitical 
posture of fielding a nuclear force able to respond reliably and also 
capable of conducting limited operations, we are well-served by erring 
on the side of redundancy. If the LRSO program threatened to break the 
back of the defense budget, we might come to a different judgment. But 
it will not. The weapon appears to build on an established concept--the 
standoff penetrating missile--and carries that forward, adapting it to 
a new technological era. Such a program can both benefit and draw from 
comparable conventional programs--and may sensibly include a 
conventional variant itself. It therefore seems well worth the 
investment required.
    Mr. Rogers. The Final Report of the Perry-Schlesinger commission on 
the Strategic Posture of the United States stated that, ``Working with 
partners in the intelligence community, the laboratories should be in a 
position to advise national leadership on foreign nuclear weapons 
activities bearing on the interests of the United States and its 
allies. In short, the commission recommends that the laboratories be 
allowed to design, simulate, and experimentally assess foreign nuclear 
weapon designs for the purposes of defensive analysis.'' A. Why, in 
your opinion, is this important? Do you support this effort? B. The 
Department of Energy is approximately 10 months late in submitting to 
Congress an annual report on how it will implement such a program. How 
important do you think it is that the Department promptly begin to 
implement this program?
    Mr. Colby. I firmly support this effort. While I have not made a 
special study of this problem, the United States requires a solid 
understanding of what adversaries may be doing with their nuclear 
forces, including the effects produced by their weapons. The United 
States should be prepared for the potential that an adversary may seek 
to use nuclear weapons not simply in well-understood but also in 
surprising or unconventional ways--for instance with very little 
kinetic effect--that could nonetheless have gravely negative 
implications for U.S. forces or interests. The United States is highly 
unlikely to be adequately prepared without allowing the national 
laboratories to conduct design efforts for the purpose of defensive 
analysis.
    It is therefore very important for the Department to begin promptly 
to implement this program.
    Mr. Rogers. During the hearing you indicated that you think that 
the United States could respond to a limited Russian nuclear strike 
with a comparable strike of its own using a strategic bomber--and that 
this response would be ``just as compelling as being able to respond 
with a tactical weapon delivered by a fighter jet.'' Does this indicate 
that you think a limited nuclear war is possible? If so, what 
implications does this have for U.S. nuclear force planning? If not, 
why do you think such a response would be prudent or advisable?
    Dr. Blechman. If Russia were to carry out a limited nuclear strike 
it would be essential for the U.S. and, if in Europe, NATO to respond 
in kind. If the U.S. did not respond it might encourage Russian leaders 
to believe they could regain territory once part of the Soviet Union 
through nuclear coercion and, when necessary, use. I believe that any 
use of nuclear weapons would carry with it a grave risk of continuing 
escalation--the normal fog of war would multiplied many times on a 
nuclear battlefield. Even so, I support the NATO policy of deterring, 
and, if necessary responding to, nuclear use with its own nuclear 
forces.
    The question is whether such a response should be made with 
tactical weapons pre-deployed in Europe. Maintaining such a capability 
will require significant expenditures at a time when security budgets 
face many competing needs. Moreover, it is hard for me to believe that 
the German, Belgian, or Dutch governments would permit their crews and 
aircraft to respond to a Russian nuclear use--presumably in Eastern 
Europe, with nuclear weapons now stored on their territory. Indeed, 
their fighters would have a hard time penetrating Russian air defenses. 
Far preferable in my view, would be to deploy U.S. nuclear-armed B-2 
bombers to bases in Europe during the crisis that led up to the 
conflict, both to signal to the Russians that we are prepared for a 
nuclear exchange and, if necessary, to conduct nuclear strikes in 
response to the Russian first use.
    Mr. Rogers. Please describe what response you would recommend if 
Russia carries out, in a regional confrontation with the U.S. in, say, 
the Baltics, their ``escalate-to-deescalate'' doctrine and used a 
single, low-yield nuclear weapon? If the U.S. responds with increased 
conventional forces, what response do you recommend if Russia continued 
to use discriminate, low-yield nuclear strikes on such U.S. forces as 
they deploy? Should we respond in a conventional-only fashion, a 
limited nuclear fashion, or with a large and comprehensive nuclear 
retaliation?
    Dr. Blechman. First, I believe it is essential to strengthen NATO's 
capabilities in the Baltic nations and adjoining countries so that 
Russian leaders do not misperceive an opportunity to carry out a quick 
and successful strike. This strengthening should include rapid 
implementation of the European Very High Readiness Taskforce and the 
stationing of advanced elements and equipment in Poland, the deployment 
of equipment for one U.S. armored brigade in each of the Baltic states 
and the rotational deployments of battalions from those brigades to 
exercise with local forces, the deployment of the divisional 
headquarters and support forces to fill out the division in Poland, the 
rotational deployment of U.S. fighter squadrons to the Baltic nations, 
Poland, and Romania, and the stationing of necessary Air Force support 
units for those squadrons in those countries.
    Second, if despite these pre-deployments, a conflict were to break 
out in the region and the Russians, facing conventional defeat utilized 
one or more nuclear weapons in conformance with their stated doctrine, 
I believe the U.S./NATO should respond with the same number of weapons 
against Russian military targets in the battle zone. As nuclear weapons 
are not particularly effective war-fighting weapons, hopefully, the two 
sides would come to their senses after only a few had been used and 
negotiate an end to the conflict. If the Russians continued to use 
nuclear weapons after the U.S./NATO had responded in kind, I would 
recommend that we consider striking military targets in Russia itself, 
recognizing this would raise the danger of a Russian strike against the 
U.S.
    Mr. Rogers. This subcommittee has spent a lot of time focused on 
the need for a responsive U.S. nuclear infrastructure. The 
administration seems to largely agree with us but has been glacially 
slow in implementing actions to fix it. Do you believe we need a 
nuclear infrastructure and enterprise that can quickly respond to 
geopolitical changes or technical failures in the stockpile? How should 
we define ``responsiveness'' of our nuclear enterprise going forward? 
What metrics should we use to measure responsiveness? Does a responsive 
infrastructure contribute to deterrence of potential adversaries?
    Dr. Blechman. I disagree with the premise of the question. The 
administration has been modernizing the nuclear infrastructure across 
the board, in line with the requirements agreed to by the secretaries 
of defense and energy at the end of the second George W. Bush 
administration. The apparently ``glacial'' pace has more to do with the 
underestimates of the time and money required to implement the plan 
made at the time it was put together than any reluctance on the part of 
the current administration to carry out the plan.
    Personally, I believe the plan is too far-reaching. Given the 
planned size of U.S. nuclear forces under the START agreement, and the 
possibility of further reductions in the future, I believe that several 
elements of the infrastructure modernization plan could be modified and 
reduced in cost.
    The responsiveness of the infrastructure depends on the resources 
allotted to it. If there were a change in the geo-political environment 
well beyond the changes we have seen already, it would be possible to 
modernize and expand the infrastructure rapidly by throwing resources 
at it--just as we did in the Manhattan Project. Personally, I don't see 
any need for such actions now or in the future, but it would be 
possible.
    I have never seen any evidence that adversaries pay any attention 
to the infrastructure in the context of deterrence. Leaders of all 
nations believe the U.S. is a very wealthy and resourceful country that 
will do whatever is necessary to ensure its security.
    Mr. Rogers. Project Atom had an overarching constraint that the 
force postures the teams recommended must be possible within 
``approximately $35 billion per year in constant 2013 dollars, 
comprising 4 to 5 percent of the defense budget.'' Do you believe your 
recommendations meet this constraint? Do you believe 4, 5, or 6 percent 
of the defense budget is an appropriate amount to be spending on 
nuclear deterrence, which DOD says is the nation's ``highest priority 
defense mission''?
    Dr. Blechman. The nuclear force posture I recommend could be 
implemented and maintained for less than $35 billion per year, freeing 
resource for more pressing needs, such as modernizing conventional 
forces and maintaining a high state of conventional readiness. That is 
not the case, I believe, for the force postures recommended by my 
colleagues in Project Atom nor for the nuclear modernization plans now 
being pursued by the Department of Defense which will like reach or 
exceed $50 billion per year in the 2020s if fully implemented on the 
schedules now contemplated.
    Nuclear deterrence is certainly a high priority defense mission, 
but there are many other needs to ensure our security. It is imperative 
to replace the aging fighter force at a rapid pace, to maintain a ship-
building budget adequate to stem further reductions in the size of the 
navy, and to avoid reductions in ground forces greater than those 
already planned, as well as to modernize the Army's helicopter fleet. 
In addition, we should be spending more, not less as now planned, on 
advanced research and development of new technologies so that we can 
maintain our conventional advantages over potential enemies. We also 
should be allocating greater resources to homeland security, the FBI, 
and to the State Department--all crucial in the fight against 
terrorism. These needs are far more important than the rapid, cross-
the-board modernization now planned for the nuclear forces.
    Mr. Rogers. During the hearing you stated, ``If the U.S. does not 
maintain conventional superiority, then we'd have to look at 
alternative strategies.'' Can you elaborate on what is meant by 
alternative strategies?
    A. Considering the widespread employment and increasingly effective 
nature of the anti-access/area-denial platforms fielded by potential 
adversaries, particularly China, aimed solely at degrading U.S. 
conventional superiority in local spheres of influence, such as the 
Taiwan Straits, how does this trend affect your proposed 
recommendations for U.S. nuclear force structure and posture given your 
assumption of U.S. conventional superiority through 2050? If U.S. 
conventional forces are unable to operate, thus unable to deter, in 
certain areas, do the policies you recommend in Project Atom change?
    Dr. Blechman. An alternative defense strategy would be to return to 
the Eisenhower Administration of massive retaliation, building larger 
strategic nuclear forces and threatening their use if our or our 
allies' vital national interests are threatened. This should be coupled 
with an all-out effort to develop boost-phase missile defenses, 
probably involving massive satellite constellations equipped with laser 
weapons. I'd hasten to add that this would be a very dangerous world--
remember the several Berlin confrontations in the 1950s, as well as 
confrontations with China over the Offshore Islands, etc.
    With regard to ``A'', I believe the anti-access/area-denial 
capabilities of our potential adversaries have been exaggerated in the 
public literature. They are certainly working on them, but Russia is 
nowhere near such technical capabilities and China has a long way to 
go. Locating, targeting, and hitting an aircraft carrier in a war-
fighting configuration (i.e., emissions limited) is not nearly as easy 
as some make out, and there are other many other systems that could be 
used to defend allies in regions close to China. Needless to say, 
China's capabilities will improve over time, even if far more slowly 
than many postulate. The way to respond, in my view, is NOT to allocate 
additional resources to nuclear forces but, rather, to invest in 
advanced capabilities--such as ISR, EW, cyber, lasers, and space 
defense--that can enable us to maintain our conventional superiority.
    Mr. Rogers. The Final Report of the Perry-Schlesinger commission on 
the Strategic Posture of the United States stated that, ``Working with 
partners in the intelligence community, the laboratories should be in a 
position to advise national leadership on foreign nuclear weapons 
activities bearing on the interests of the United States and its 
allies. In short, the commission recommends that the laboratories be 
allowed to design, simulate, and experimentally assess foreign nuclear 
weapon designs for the purposes of defensive analysis.'' A. Why, in 
your opinion, is this important? Do you support this effort? B. The 
Department of Energy is approximately 10 months late in submitting to 
Congress an annual report on how it will implement such a program. How 
important do you think it is that the Department promptly begin to 
implement this program?
    Dr. Blechman. I'm sorry, but I'm not sufficiently familiar with 
warhead designs or the capabilities of our laboratories to answer this 
question.
    Mr. Rogers. Please describe what response you would recommend if 
Russia carries out, in a regional confrontation with the U.S. in, say, 
the Baltics, their ``escalate-to-deescalate'' doctrine and used a 
single, low-yield nuclear weapon? If the U.S. responds with increased 
conventional forces, what response do you recommend if Russia continued 
to use discriminate, low-yield nuclear strikes on such U.S. forces as 
they deploy? Should we respond in a conventional-only fashion, a 
limited nuclear fashion, or with a large and comprehensive nuclear 
retaliation?
    Dr. Mount. Any decision to employ a nuclear weapon would depend 
substantially on the circumstances. A nonlethal demonstration blast is 
a very different circumstance than a large strike that produces mass 
casualties. Properly calibrating the U.S. response will depend on a 
great deal of information about the initial strike--including location, 
target, military casualties, civilian casualties, yield, delivery 
vehicle, and other factors. In any event, the United States has strong 
reasons to refrain from nuclear use. The need to favorably resolve the 
conflict at hand, the desire to preserve a reputation that will serve 
the United States in future crises, and the enduring U.S. interest in 
the stability of the international system may in some circumstances 
favor a solely conventional response. First, nuclear retaliation could 
harm the ability of U.S. policymakers to prevail in the conflict at 
hand by damaging alliance cohesion, diluting international opprobrium, 
and complicate the maneuver of U.S. forces. Because a nuclear strike 
would be an inefficient and ineffective means of defending allied 
territory, a conventional response may be a better means of prevailing 
in the conflict at hand. Secondly, the United States would not want to 
suggest to other states that they could force a nuclear response from 
Washington at will. Thirdly, the United States has a deep interest in a 
world where nuclear weapons remain confined to the margins of 
international interaction. Developing and using low-yield nuclear 
weapons would make it more likely that other countries followed suit. 
In many circumstances, these reasons in favor of restraint may be 
outweighed by reasons in favor of nuclear use. At each step in the 
escalation ladder, the U.S. president will attempt to prevent a wider 
nuclear exchange. It is not clear--and there may be no way of knowing--
whether retaliation or restraint is likelier to precipitate a nuclear 
war. The regrettable fact is that follow-on nuclear use will remain a 
possibility whether or not the United States retaliates with nuclear 
weapons. In short, there is no simple or automatic answer to the 
question of nuclear retaliation. The decision should weigh all U.S. 
interests at stake, including the long-term U.S. interest in a world 
where nuclear proliferation and use is rare and stigmatized. Given 
these interests in nuclear restraint, retaliation should certainly be 
authorized as a last resort, when the leadership is has a reasonable 
certainty that nuclear use is strictly necessary to secure vital 
national security interests.
    Mr. Rogers. During the hearing you warned against ``shifting the 
bounds of this competition into the nuclear domain,'' because ``you 
legitimize Vladimir Putin's reckless movement of nuclear capabilities 
and his sort of--and his very reckless risk-taking.'' You suggest we 
counter Russia's hybrid strategy with conventional strategies of our 
own. An old maxim occurs to me here: ``the enemy gets a vote.'' What 
happens if Mr. Putin votes and is not deterred by our conventional or 
hybrid counter-moves, and carries out his ``escalate-to-deescalate'' 
strategy? Where does that leave us?
    Dr. Mount. It is certainly true that Mr. Putin gets a vote in 
strategic competition. However, the United States also gets a vote 
about the domain in which that competition takes place--and we ought to 
cast in a way that advantages our interests. In recent years, Russia 
has repeatedly made destabilizing and irresponsible statements 
regarding its nuclear arsenal. At tense moments, it has threatened to 
alert its forces and to deploy them close to NATO territory. However, 
U.S. and NATO responses should continue to emphasize the strength of 
our conventional deterrent. Russian rhetorical strategy hopes to 
provoke a nuclear response from the United States in order to shift the 
competition from the conventional level (where Russia is weak) to the 
nuclear level (where Russian capabilities are relatively more 
developed). If the United States takes the bait and deploys new systems 
closer to Russian territory, it will only legitimate Putin's gamble and 
provoke further nuclear brinksmanship, including arms racing behavior. 
This would create a divide in the alliance between countries that favor 
a nuclear response and those that do not, distracting attention from 
the difficult task of formulating a robust package of steps to promote 
conventional deterrence. Furthermore, it would dilute international 
disapproval of Russia's nuclear brinksmanship, creating new problems 
for U.S. diplomats who are attempting to hold together an ailing 
nonproliferation regime. Russia's strategy is specifically designed to 
cover aggression at the subconventional level by generating friction at 
the nuclear level. U.S. nuclear forces cannot deter paramilitary 
operations, low-level cyber operations, or other hybrid actions 
designed to destabilize the countries that form NATO's eastern borders. 
The United States should continue its current policy for confronting 
Russian hostility--by prepositioning equipment, training allied 
militaries, and improving readiness to ensure that NATO can defend 
itself if challenged.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. What do you view as the greatest risks to strategic 
stability?
    Dr. Murdock. While there is little consensus on how to define 
``strategic stability,'' most would agree that strategic stability is 
desirable, particularly for status quo powers like the United States. 
In my most recent work (as yet unpublished), I've characterized the 
current and near-term security environment as ``Growing Great Power 
Competition in an Age of Rising Disorder.'' In my assessment, the three 
greatest near-term threats to international order and stability are 
Russia, China and Islamic Extremism, with the latter taking two forms: 
as a state-like actor threatening regional stability and as an 
ideological movement that conducts and inspires terrorism. Nuclear-
armed regional ``rogue'' states (such as North Korea today and perhaps 
Iran in the future) also pose significant challenges to stability, both 
global and regional. While nuclear terrorism has been elevated by some 
as the top ``nuclear danger,'' I believe that the risks to strategic 
stability from nuclear-armed states is rising and constitute the 
``greatest'' risk, in part because the effort involved in non-state 
actors' acquisition of a nuclear device is both harder than initially 
thought and getting harder because of improved nuclear material 
security.
    Mr. Cooper. What do you view as the greatest risks to strategic 
stability?
    Dr. Payne. The greatest risks to contemporary strategic stability 
are the expansionist goals, nuclear doctrines and growing nuclear 
capabilities of states hostile to the United States and allies, as 
discussed in Question 7 above. In particular, the nuclear doctrines of 
key states suggest the belief that their threats of nuclear employment 
or actual nuclear employment are viable options in support of 
expansionist foreign policies designed to enlarge their respective 
areas of geopolitical dominance. I believe that Russia and China seek 
to use nuclear coercive threats and their significantly growing nuclear 
arsenals to support expansionist foreign policies that are intended to 
destroy the geopolitical structures in place in Europe and Asia since 
the end of World War II. These Russian and Chinese goals and means 
place key U.S. allies and interests in increasingly vulnerable and 
risky positions, and create the prospects for regional crises that 
could escalate to nuclear war in the absence of a strong U.S. 
deterrent. In short, I believe the greatest threats to stability stem 
from the prospects that Russia and/or China will overreach in their 
respective expansionism and use of nuclear coercion in the belief that 
the United States and allies will concede to their threats and military 
activities. The greatest risks to stability follow from these Russian 
and Chinese goals and the apparent fact that both intend to support 
those goals with coercive nuclear threats. The large expenditures 
Russia and China have been devoting to developing and deploying new 
nuclear forces underscores the apparent high value they place on these 
capabilities.
    Mr. Cooper. What do you view as the greatest risks to strategic 
stability?
    Mr. Colby. I understand strategic stability to be a situation in 
which, between two states possessed of survivable large-scale nuclear 
forces, neither side has an incentive to use nuclear weapons except for 
vindication of its vital interests.\9\ That is, unlike some conceptions 
of strategic stability, I am as concerned about specifying the 
conditions under which nuclear use would be appropriate as those under 
which they would not. This is because, for strategic stability to be a 
constructive concept, it must capture the positive elements of the so-
called ``nuclear revolution''--those that promote peace and stability--
while seeking to minimize or eliminate the essentially ancillary or 
accidental reasons that states might employ nuclear weapons. Without 
serving both masters, carrying through on such a conception risks 
focusing too much on narrowing the legitimate uses of nuclear weapons 
to the extent that major sub-nuclear aggression could become 
increasingly ``thinkable''--which would itself be the most likely route 
to nuclear use.
---------------------------------------------------------------------------
    \9\ For a fuller description of my understanding of ``strategic 
stability,'' see Colby, ``Reconciling Stability and Deterrence.''
---------------------------------------------------------------------------
    In a ``strategically stable'' situation, the presence of nuclear 
weapons would effectively deter war, aggression, and coercion, but the 
weapons themselves would only be used for these purposes rather than 
for essentially peripheral or accidental reasons. We should want a 
situation in which both we and those nations with which we are in a 
relationship of strategic stability--essentially Russia and China--
would only use nuclear weapons because we really wanted to telegraph to 
the other side that it had crossed a most fundamental red line--and not 
for any other reason.
    I therefore see threats to strategic stability arising from two 
sides. On one side are the very real and increasingly serious risks 
that certain capabilities, postures, and actions of one or both sides 
might result in miscalculation, accident, misperception and emotion 
leading to nuclear escalation that nobody really seeks. These are the 
kinds of peripheral or accidental reasons to use nuclear weapons that 
we should want to eliminate or at least minimize as a potential cause 
of employment.
    Because of the rapidly evolving military-technological environment 
and the unfortunately growing possibility of conflict between the 
United States and China or Russia, I am increasingly worried about the 
potential for such factors to lead to unnecessary nuclear use. In 
particular, I fear that the evolution of military technology and 
national military postures pose a rising possibility of generating 
misperception, misunderstanding, or undue anxieties on the part of one 
or more of these states with respect to their core capabilities or 
valued assets to such a degree that such concerns could lead to the 
fearful side using nuclear weapons without the other side understanding 
that its actions would generate such a response.
    For instance, I am concerned that the introduction of new 
technologies and capabilities into domains such as cyberspace and 
space/counterspace could cause one or more of these states to worry 
about the effectiveness and reliability of its/their nuclear command 
and control systems, which might impel it/them to consider using 
nuclear weapons earlier in a conflict--even if the other side did not 
intend to undermine this vital capability. Likewise, I fear that the 
United States and these other states do not share common perceptions of 
what is and what is not escalatory--including which targets are 
considered of particular value and which are not--which could also lead 
to this kind of essentially unnecessary or accidental nuclear 
employment.
    Because of these concerns, I believe that governmental (especially) 
and non-governmental efforts to understand, develop, and shape U.S., 
Russian, and Chinese perceptions of these risks, and to minimize each 
state's reasons for nuclear use while protecting U.S.--and, to the 
degree obligatory--other states' interests is an increasingly valuable 
exercise. Ideally, each of these states should think of using its 
nuclear forces only to vindicate its truly vital interests--and not for 
``use or lose'' or other such solely military-operational reasons.
    I also worry, however, about the risks to the other side of the 
strategic stability balancing equation. For instance, I am worried that 
nuclear weapons will be so marginalized in national--particularly 
U.S.--policy that an adversary may unduly discount the probability of 
U.S. use in the event the United States is seriously challenged. As 
crucial as it is to minimize the chances that nuclear weapons will be 
used for less than fundamental reasons, it is equally critical to 
reinforce the perception that nuclear weapons could very well be used 
on behalf of precisely such fundamental reasons. If adversaries--
particularly U.S. adversaries--do not fully understand or believe this, 
then we run the risk that they are more likely to do things more 
inimical to U.S. interests, things that could well lead to war and 
indeed nuclear war. Thus if we do not adequately foreshadow our will to 
use nuclear weapons in the face of acts that gravely threaten our vital 
interests, we risk courting the very circumstances we seek to avoid by 
sidelining nuclear weapons in our national policies.
    For this reason, I believe that we should shift our discussion of 
and policies regarding nuclear weapons away from a focus on 
``reducing'' their role and on actively pursuing a world without 
nuclear weapons. These stances, coupled with much of the discourse 
about nuclear weapons in and around the U.S. government, telegraph--
sometimes quite strongly--to friend and foe that the United States 
might balk at using nuclear weapons, even in the ``extreme 
circumstances'' the 2010 Nuclear Posture Review Report rightly set as 
the only conditions under which the United States would contemplate 
such employment. Instead, the United States should concentrate on 
``minimizing'' its reliance on nuclear weapons and talk about the 
importance of promoting ``stability'' and responsible stewardship of 
such destructive weapons--objectives that are consistent with the 
equally important emphasis the United States should give to 
telegraphing its will and capability to use nuclear weapons if 
sufficiently provoked. Under this rubric, capabilities, such as those 
for discriminate use, that indicate the U.S. resolve and ability to use 
nuclear weapons can thus contribute to rather than detract from 
stability.
    Mr. Cooper. Former Vice-Chair of the Joint Chiefs of Staff Admiral 
Winnefeld noted in a June 2015 hearing before our subcommittee that ``I 
would say that it is very important that the Russians understand that 
far from being deescalatory, first use of nuclear weapons in a conflict 
like that, it risks uncontrolled escalation . . . it is almost 
impossible to completely predict what the outcome would be of such a 
use of nuclear weapons, however small.'' What are the odds that we 
could control escalation? And what are the risks of using a small 
nuclear weapon to ``de-escalate'' a conflict? And what are the risks of 
introducing more ``usable'' weapon into the nuclear deterrent?
    Dr. Blechman. Any use of any nuclear weapon, no matter how small, 
would raise grave risks of uncontrolled escalation. The ``fog of war,'' 
present in any conflict, would be multiplied many times if nuclear 
weapons were used because of their effects on sensors and 
communications. In addition, it's hard to understand how the two sides 
would bring the conflict to a close. If Russia initiated nuclear use, 
NATO would almost certainly feel compelled to respond in kind. Perhaps 
the two sides would come to their senses at that point, but it's just 
as compelling to assume that the Russians might try again, this time 
escalating against new types of targets. We recently simulated a 
conflict in Estonia in which the Russian side used two nuclear weapons 
against NATO military targets and NATO responded with two weapons of 
its own against Russian military targets, all on Estonian territory. We 
assumed that the war ended at that point. Even such a small conflict (4 
weapons total) resulted in roughly 100,000 fatalities, 70 percent of 
which were civilians, and the destruction of one-half of Estonia's GDP. 
Nuclear weapons are not particularly effective weapons against military 
targets; precision conventional munitions are. Nukes are good for one 
thing--destroying large areas and killing everything within the area. 
On the other hand, I do not believe that introducing lower yield or 
more accurate weapons (``more usable'') makes nuclear use any more 
likely. A decision to use a nuclear weapon would be such a historic and 
difficult one, because of the risks of escalation, that questions about 
yield etc pale in comparison.
    Mr. Cooper. What do you view as the greatest risks to strategic 
stability?
    Dr. Blechman. Currently, I believe the greatest risks to strategic 
stability come from the irresponsible statements and nuclear threats of 
Russian leaders, and from the provocative behavior of their nuclear-
capable aircraft, ships, and submarines. During the Cold War, military 
commanders on the two sides worked out arrangements to avoid 
inadvertent accidents or provocations by their forces. The Russians now 
seem to be deliberately violating those agreements and risking 
clashes--using this bravado to cover up their conventional inferiority. 
In response, some government officials and so-called ``experts'' in 
NATO countries are urging that the alliance reemphasize its tactical 
nuclear posture and even move tactical nuclear weapons farther to the 
East. Any such action only plays into the Russians' game. The more 
effective NATO action would be to strengthen its conventional 
capabilities to promptly defend the Baltic states and other member 
nations east of Germany, and to provide Ukraine with the means to 
defend itself from further Russian aggression.
    Mr. Cooper. Do you believe we need to forward-deploy additional 
nuclear weapons? Why/why not?
    Dr. Blechman. I do not think we need to deploy additional nuclear 
weapons overseas and, in fact, think we should permit the weapons we 
now deploy in Europe to live out their natural lifetimes (about ten 
more years) and then withdraw and dismantle them. When Soviet armored 
forces threatened NATO on the intra-German border, stationing U.S. 
nuclear warheads in Germany and other NATO members made some sense to 
add credibility to the Alliance's then-first use policy. Now, however, 
that any Russian aggression would take place far to the East of 
Germany, it is unrealistic to believe that the countries in which these 
U.S. warheads are stationed would permit their aircraft and crews to 
deliver nuclear strikes in a war with Russia. Moreover, the aircraft 
planned to deliver them would have a difficult time penetrating Russian 
air defenses. Deterrence of Russian nuclear use and, if necessary, 
response to any such use can be carried out by U.S. strategic forces 
far more effectively than by the handful of U.S. tactical weapons now 
in Europe. If a crisis were to break out threatening a war involving 
Russia and a member of NATO, U.S. B-2 bombers armed with nuclear 
weapons could be stationed in Europe as a signal to Russia not to 
consider initiating a nuclear conflict and, if necessary, to be used in 
response to a Russian attack. Forward-deploying nuclear weapons in the 
Pacific would be particularly counter-productive as it would be viewed 
as extremely provocative by China and make diplomatic solutions to the 
conflicts in that region virtually impossible.
    Mr. Cooper. What are the benefits for the United States of 
ratifying the Comprehensive Nuclear Test Ban Treaty?
    Dr. Blechman. China has stated repeatedly that it would ratify the 
CTBT if the U.S. does it first. As China has had only a fraction of the 
nuclear tests than the U.S., and has never tested the warhead now being 
deployed on its new ICBMs, it would be a real advantage to the U.S. to 
place an obstacle in the way of further nuclear tests by China. 
Further, if the U.S. and China were to ratify the Treaty, it would put 
additional pressure on the six additional states necessary for the 
treaty to enter into force--placing a permanent ban on further nuclear 
developments. This would reinforce the taboo on nuclear use and make 
the world a far safer place.
    Mr. Cooper. Former Vice-Chair of the Joint Chiefs of Staff Admiral 
Winnefeld noted in a June 2015 hearing before our subcommittee that ``I 
would say that it is very important that the Russians understand that 
far from being deescalatory, first use of nuclear weapons in a conflict 
like that, it risks uncontrolled escalation . . . it is almost 
impossible to completely predict what the outcome would be of such a 
use of nuclear weapons, however small.'' What are the odds that we 
could control escalation? And what are the risks of using a small 
nuclear weapon to ``de-escalate'' a conflict? And what are the risks of 
introducing more ``usable'' weapon into the nuclear deterrent?
    Dr. Mount. In June, Deputy Secretary of Defense Bob Work warned 
Russia that, ``anyone who thinks they can control escalation through 
the use of nuclear weapons is literally playing with fire.'' This 
applies to the U.S. defense planners as well, who have long understood 
that nuclear escalation is unpredictable and hazardous and should be 
employed only as a last resort. Russia developed this policy of 
escalate-to-deescalate as a means of compensating for conventional 
inferiority (like we did with President Eisenhower's New Look policy in 
the 1950s)--the United States has a far stronger hand at the 
conventional level and as a result has less need to resort to highly 
risky nuclear gambits. The introduction of new ``usable'' weapons holds 
tremendous risks. They would demonstrate to the rest of the world that 
even with our enormous advantage in conventional forces, we feel that 
it is necessary to procure usable nuclear forces. Nonnuclear countries 
would feel emboldened to seek nuclear weapons, while nuclear countries 
would race to make their forces more usable. Work continued by saying, 
``escalation is escalation, and nuclear use would be the ultimate 
escalation.'' There is scant evidence that either we or the Russians 
would understand a ``tactical'' nuclear strike any differently from one 
delivered by other means. For this reason, it is not clear that any 
nuclear weapon is more or less usable than another: any use of a 
nuclear weapon would hold enormous risks and would provide no assurance 
that it would have a positive or calculable effect on a crisis.
    Mr. Cooper. What do you view as the greatest risks to strategic 
stability?
    Dr. Mount. Almost by definition, the greatest risk to strategic 
stability is the belief that nuclear deterrence can be denied, 
circumvented, or overcome. There are many examples of this today. The 
urge to conduct a nuclear or nonnuclear preventive strike against an 
enemy's arsenal, the development of nonnuclear weapons that threaten 
nuclear systems (including cyber and hypersonics), refusals to accept 
mutual vulnerability, development of new nuclear capabilities, and the 
belief that nuclear escalation can be controlled--each of these trends 
to a greater or lesser extent undermines nuclear deterrence to the 
detriment of strategic stability. Strategic stability between nuclear 
powers depends on a willingness to accept vulnerability; refusal to do 
so does not increase a country's security but only increases the risk 
that a nuclear weapon will be used.
    Mr. Cooper. Do you believe we need to forward-deploy additional 
nuclear weapons? Why/why not?
    Dr. Mount. Absolutely not. The United States currently possesses an 
ability to strike any point on earth at short notice with a variety of 
warhead yields. Forward deployment of nuclear weapons, whether in Asia 
or in Europe, would not enhance this capability. The political signal 
it would send to our allies in either region would be that conventional 
deterrence and defense is impossible and it would alienate allies like 
in both regions who are skeptical of the utility of nuclear weapons. 
Instead, new deployments to either region would almost certainly 
provoke reciprocal steps from adversaries, which would in turn be seen 
as threats to the United States. The United States should not send the 
signal that it believes its strategic capabilities are incredible as 
threats and require enhancement: instead, we should maintain that 
nuclear weapons are not useful tools for the resolution of political 
disputes and resolutely demonstrate our ability to defend against any 
attack with conventional means. ?
    Mr. Cooper. What are the benefits for the United States of 
ratifying the Comprehensive Nuclear Test Ban Treaty?
    Dr. Mount. Ratification of the Comprehensive Test Ban Treaty is 
critical to national security over the long term. The United States has 
a very strong interest in minimizing the influence of nuclear weapons 
and to prevent the spread of nuclear technology around the world. 
Ratifying the CTBT would decrease the likelihood that U.S. adversaries 
would develop new capabilities and make it almost certain that the 
international community would detect and punish any clandestine nuclear 
test. The International Monitoring System requires that the CTBT enter 
into force in order to proceed to complete, test, and validate its 
extensive network of monitoring stations and laboratories, 282 of which 
are currently in place--84% of the total system. With 337 facilities 
planned in 89 countries, the IMS is truly a wonder of the modern world 
and an indispensable tool in the effort to prevent the world's most 
dangerous weapons from being used against the U.S. homeland or the U.S. 
Armed Forces. Moreover, ratification of the CTBT would strengthen the 
U.S. commitment to the global nuclear nonproliferation regime at a time 
when it is highly vulnerable. Every year, the NNSA's Stockpile 
Stewardship program yields new knowledge about the physics of nuclear 
explosions, a program which is unmatched anywhere in the world. In this 
way, ratifying the CTBT would help to lock in the American advantage in 
nuclear technology, preventing other countries from developing 
efficient and miniaturized warheads. By any measure, the CTBT is in the 
American interest.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Your plans all assume constant funding of 4-5% of 
the defense budget over the next 30 years. Uncertain fiscal times beg 
the question: what would you do with less? How would your plans change 
with 10%, 30%, or 50% less funding? Asked another way, what is the 
least important part of your nuclear posture?
    Dr. Murdock. As I have indicated in QFR #5, I believe that 4-5% of 
the defense budget to sustain and modernize a safe, secure, reliable 
and effective nuclear deterrence is certainly affordable, and as, in 
the words of former Secretary of Defense Hagel, the nation's ``highest 
priority defense mission'' should be adequately sourced. In my opinion, 
the defense budget would have to be cut well below the Budget Control 
Act caps before I would consider reducing the U.S. nuclear budget 
significantly below the $35 billion per year in 2013 dollars level 
assumed in the Project Atom study effort. That having been said and in 
the spirit of being responsive, not all elements of the current nuclear 
posture (SLBMs, ICBMs, dual-capable bombers and tactical aircraft) are 
of equal value in my opinion. Since the United States must retain an 
assured retaliation capability, the survivability of U.S. nuclear 
forces is a key requirement. Currently, the U.S. relies on SLBMs to 
meet this need, but there are alternatives such as mobile ICBMs, an 
option that I believe should be explored, in part because replacing the 
SLBM ``leg'' consumes over 60 percent of the nuclear modernization 
budget. ICBMs provide both stability (by raising the bar for any pre-
emptive attack) and a hedge against possible SLBM vulnerability, plus 
the near-term cost of sustaining ICBMs is low. The U.S. Air Force is 
already committed to a new fleet of penetrating bombers for 
conventional attack missions, and making it nuclear-capable is 
relatively inexpensive, in part because the B61 bomb life extension is 
well under way. I think it is critical that the Air Force plans for 
making F-35A nuclear capable be implemented, since I believe that the 
risks of a highly-proliferated world are increasing, which will 
increase the need for forward-deployed U.S. nuclear weapons. While cost 
considerations should be a factor in determining what the future U.S. 
nuclear posture should be, I repeat what I said before--the U.S. needs 
a safe, secure, reliable and effective nuclear force and can afford to 
pay the price for it at levels of defense spending anywhere near the 
current budget.
    Mr. Garamendi. What role do conventional strike capabilities play 
in U.S. deterrence and extended deterrence? What are our allies' 
expectations about the weapons with which we will respond in the event 
that mutual defense is necessary?
    Dr. Murdock. U.S. conventional precision strike capabilities are 
critical to how this nation conducts military operations and are a key 
contributor to the margin of military superiority that the United 
States currently possesses. However, when it comes to the deterrence of 
nuclear attacks against the United States and its allies, I do not 
believe that U.S. conventional strike capabilities play much of a role, 
if any. It is the threat of nuclear retaliation that deters nuclear 
attacks. In the event that an ally under the ``U.S. nuclear umbrella'' 
was attacked with a nuclear weapon by a regional adversary, that ally 
would be disappointed if the United States responded with a 
conventional-only attack. The principal, but not sole, purpose of U.S. 
nuclear weapons is to deter nuclear attacks against the U.S. and its 
allies. U.S. conventional strikes, in my view, do not figure in this 
equation, although they may increase the need for U.S. nuclear 
deterrence--to counter U.S. conventional superiority (particularly in 
precision strike), potential adversaries will increase their reliance 
on nuclear weapons to ``offset'' the U.S. conventional advantage, 
which, in turn, makes it necessary for the United States to increase 
the credibility and effectiveness of its nuclear deterrent.
    Mr. Garamendi. Current policy states that the United States will 
respond in exceptional circumstances to non-nuclear attacks with 
nuclear weapons. Should the United States adopt a ``no first use'' 
policy, which would deemphasize the role that nuclear weapons play in 
our overall strategic posture? Would it help or hurt our interactions 
with other nuclear weapons states?
    Dr. Murdock. The United States has always maintained a policy of 
``strategic ambiguity'' with respect to the precise circumstances under 
which the President would authorize the employment of a U.S. nuclear 
weapon. This made sense during the Cold War, when our deterrent posture 
in NATO clearly implied that we would use a nuclear weapon in response 
to major Soviet conventional aggression; and it makes sense today, even 
though U.S. conventional superiority makes it unlikely that the United 
States would be the first to employ a nuclear weapon in a non-nuclear 
conflict. No one can predict with great confidence what future 
contingencies might be so stressful, urgent and existential in nature 
that a President might contemplate employing a nuclear weapon. 
Moreover, those circumstances are so exceptional that what we say 
during peacetime about what our policy would be under those 
circumstances has little foundation in past history. In a fundamental 
sense, we really don't know what a future President would or should do 
in that unprecedented situation. Conflicts between nuclear-armed states 
will always have a ``nuclear shadow'' over them, which, as far as I am 
concerned, makes ``strategic ambiguity'' both prescriptive (as a policy 
recommendation) and descriptive (as a description of the circumstances 
in which a nuclear weapon might be employed).
    Mr. Garamendi. What importance do our NATO allies place in the 
presence of forward-deployed nuclear weapons in Europe? Would they be 
satisfied with the nuclear force structure we currently offer our Asian 
allies?
    Dr. Murdock. I believe that the importance of forward-deployed U.S. 
nuclear weapons has been undervalued both today and during the Cold 
War. At the height of the Cold War, the United States had about 7,000 
nuclear weapons deployed in NATO-Europe and 3,000 nuclear weapons 
deployed in the Pacific theater, including almost 1,000 weapons on the 
Korean peninsula. The physical presence of these nuclear weapons 
ensured that a major war would ``go nuclear'' and possibly involve 
nuclear attacks on the homelands of the Communist aggressors without 
directly involving the American homeland. The ``coupling'' of the U.S. 
nuclear deterrent and the security of our allies worked. Russia's 
aggressive behavior toward Ukraine (including the illegal seizure of 
Crimea) and North Korea's ascension to the world's ``nuclear club'' has 
raised nuclear anxieties both in Europe, particularly in the 
``frontline states'' on Russia's border, and in Asia. I quote from my 
Project Atom report: When security anxieties are acute, ``reassurance'' 
or ``assurance'' is most reliably provided by credible extended 
deterrence--if the adversaries of American allies are deterred, the 
allies will be assured. Deterring regional adversaries from ``going 
nuclear'' requires credible nuclear responses to their nuclear attack 
options. Forward deploying a robust set of discriminate nuclear 
response options conveys the message that the United States will 
``respond in kind'' and proportionately to nuclear attacks on its 
allies. The credibility of that message is reinforced because the U.S. 
homeland would not be engaged in the U.S. response to a nuclear attack 
on a regional ally, which leaves the burden on the regional aggressor 
to escalate to the level of ``homeland exchanges.'' The price, however, 
for this more credible U.S. ``nuclear umbrella,'' is likely to the 
ally's willingness to host U.S. nuclear weapons. This is what will 
constitute ``nuclear burden sharing'' in 2025-2050. An Asan Institute 
public opinion poll taken at the same time that a U.S. B-2 overflew 
Seoul indicated that over half of the Japanese public wanted U.S. 
nuclear weapons re-deployed to South Korea and, failing that, would 
want their own nuclear weapon. If security circumstances should worsen 
as the competition between the great powers intensifies, I expect that 
none of our allies ``will be satisfied with the nuclear force structure 
we currently offer our Asian allies.''
    Mr. Garamendi. How would you recommend the United States structure 
our forces to respond to Russia's nuclear deescalation policy? How 
could the United States respond without developing new tactical nuclear 
capabilities?
    Dr. Murdock. In my Project Atom report, I made the following 
argument: In ``the second nuclear age,'' potential U.S. adversaries are 
thinking through how they might actually employ a nuclear weapon, both 
early in a conflict and in a discriminate manner, to get the United 
States to ``back off'' in a conflict. U.S. nuclear forces were designed 
for a global conflict involving the exchange of thousands of high-yield 
weapons, not limited exchanges of low-yield weapons. Since most U.S. 
nuclear response options are large, ``dirty,'' and inflict significant 
collateral damage, the United States might be ``self-deterred'' and not 
respond ``in kind'' to discriminate nuclear attacks. U.S. conventional 
superiority establishes escalation control for the United States at the 
conventional level and causes its adversaries to think about breaking 
the nuclear threshold. The United States needs discriminate nuclear 
options at all rungs of the escalation ladder to make that option 
unattractive as well. Russia's ``nuclear deescalation policy'' 
envisions that Russia will employ a nuclear weapons (that is, nuclear 
escalation) in order to de-escalate a conflict with a conventionally-
superior adversary. I believe that a credible and effective deterrent 
to this policy is a robust set of discriminate options so that the 
United States can ``respond in kind'' and proportionately to any 
Russian employment of a nuclear weapons. I believe this means 
developing new nuclear capabilities because the Russian are known to be 
developing and procuring nuclear weapons that are not in the current 
U.S. nuclear inventory. While I have never liked the term ``tactical 
nuclear weapon'' because any use of a nuclear weapon will have 
strategic consequences, I believe that an effective and credible 
response to Russia's ``nuclear deescalation policy'' will require that 
the United States develop ``new tactical nuclear capabilities.'' Doing 
so will communicate to the Russians that we are preparing for this 
contingency and are ready to respond with a proportionate nuclear 
response to any Russian nuclear attack. This will strengthen the U.S. 
nuclear deterrent; failing to do so will weaken it.
    Mr. Garamendi. Your plans all assume constant funding of 4-5% of 
the defense budget over the next 30 years. Uncertain fiscal times beg 
the question: what would you do with less? How would your plans change 
with 10%, 30%, or 50% less funding? Asked another way, what is the 
least important part of your nuclear posture?
    Dr. Payne. Part of my response to Question 13 also is pertinent in 
response to this question and thus is repeated here. Identifying the 
most effective deterrence strategy cannot be done prudently on the 
basis of first defining the percentage of the DOD budget that will be 
devoted to this priority goal--budgets should follow strategy and 
strategic priorities, they should not be the driving factor. Rather, 
the character of the threat environment and the priority of various 
defense programs are the basic determinants of the appropriate budget 
share. This is a key point because ensuring effective nuclear 
deterrence has been identified as the highest defense priority by 
senior U.S. officials and the corresponding requirements for deterrence 
can shift dramatically depending on the threat environment. This 
prioritization is a reflection of severe emerging threats, including 
developments in Russia's foreign policy, nuclear doctrine and forces, 
and the basic fact that the deterrence of nuclear war must be 
considered an enduring priority goal. Indeed, if nuclear deterrence 
fails dramatically, many other U.S. goals and capabilities become 
irrelevant. Correspondingly, within broad margins, U.S. capabilities 
intended to deter severe threats warrant whatever budget commitment is 
needed to provide and sustain the capabilities judged critical to 
support that goal. Indeed, it is extremely fortunate that the goals of 
nuclear deterrence and assurance may be adequately supported at this 
point by a nuclear modernization program that demands such a modest 
percentage of the DOD budget--reportedly under 5 percent annually per 
current nuclear modernization plans through 2030. But, at the end of 
the day, that budget percentage should not be considered fixed because 
it must shift according to the threat environment and the continuing 
priority need for effective nuclear deterrence and assurance.
    My recommendation for dealing with any unavoidable budget cuts 
follows from my basic conclusion that the most important metric for the 
adequacy of the U.S. nuclear posture is its flexibility and resilience. 
Consequently, if cost reductions must be taken from the already small 
fraction of the DOD budget devoted to U.S. nuclear capabilities, 
reductions should be done so as to preserve as much as possible the 
flexibility and resilience of the U.S. nuclear posture. Thus, for 
example, in my view, sustaining the nuclear triad, forward-based DCA 
and a diversity of threat options would be priorities in any necessary 
budget reductions because those capabilities contribute significantly 
to U.S. adaptability.
    Mr. Garamendi. What role do conventional strike capabilities play 
in U.S. deterrence and extended deterrence? What are our allies' 
expectations about the weapons with which we will respond in the event 
that mutual defense is necessary?
    Dr. Payne. Conventional strategic threat options are an important 
ingredient in a flexible U.S. deterrent force posture. Indeed, one of 
my recommendations is for greater U.S. emphasis on CPGS threat options. 
Depending on the case, optimal deterrence strategies may take advantage 
of U.S. non-military threats, conventional force threats, nuclear 
threats, or a combination of these. The importance of U.S. conventional 
threats in any particular contingency will depend on the unique details 
of that contingency. But, in some plausible cases U.S. conventional 
deterrent threats may be sufficiently credible and lethal to support 
U.S. deterrence goals. In those cases, it will be fully reasonable for 
the United States to rely on conventional capabilities to support its 
deterrence goals. It should be noted, however, that in those cases 
wherein conventional forces are adequate for the immediate deterrence 
task, U.S. nuclear capabilities may remain critical to deter a nuclear-
armed opponent (or an opponent armed with chemical or biological 
weapons) from escalating to WMD use as the means of overcoming U.S. 
conventional threats. Relying on U.S. conventional threats for 
deterrence may have the unintended consequence of leading opponents to 
plan increasingly on employing WMD capabilities as the most likely 
means of overcoming U.S. conventional-based deterrence strategies. 
Russia certainly appears to have moved in that doctrinal direction. 
Consequently, even in those cases where U.S. conventional forces are 
deemed adequate for immediate deterrence purposes, U.S. nuclear 
deterrent capabilities may be critical to control an opponent's 
escalation to WMD use as the means to trump U.S. conventional 
capabilities.
    Key U.S. allies expect and rely on the United States to provide the 
combination of deterrent threats necessary to preserve their security. 
This includes the full spectrum of U.S. capabilities. This approach can 
be clearly seen in the most recent open NATO strategy document, which 
by consensus calls for a combination of nuclear and conventional 
capabilities for deterrence.
    Mr. Garamendi. Current policy states that the United States will 
respond in exceptional circumstances to non-nuclear attacks with 
nuclear weapons. Should the United States adopt a ``no first use'' 
policy, which would deemphasize the role that nuclear weapons play in 
our overall strategic posture? Would it help or hurt our interactions 
with other nuclear weapons states?
    Dr. Payne. The United States should not adopt a ``no first use'' 
declaratory policy. Doing so would contribute to opponents' possible 
perceptions, encouraged by such a U.S. policy declaration, that they 
could use chemical or biological weapons against the United States and 
allies without fear of the U.S. nuclear deterrent. Given public reports 
that some prospective foes retain chemical and/or biological weapons 
(CBW), effectively undermining the U.S. nuclear deterrent of opponents' 
CBW would be imprudent in the extreme. Indeed, it should be noted that 
U.S. leaders stated openly in the past that the United States was able 
to go forward with the international conventions against CBW 
specifically because the United States would retain nuclear weapons to 
deter CBW threats. A ``no first use'' policy would destroy that logic.
    Adopting a ``no first use'' policy also would undermine U.S. 
assurance goals for many key allies who rightly consider themselves 
vulnerable to their opponents' conventionally superior forces. Such a 
U.S. declaratory policy would essentially tell opponents that the U.S. 
nuclear deterrent does not apply to their prospective use of 
overwhelming conventional force against our allies, or their use of CBW 
against our allies. That is why I consider a ``no first use'' policy to 
be highly destabilizing in some cases, and also why many of our allies 
have warned against U.S. adoption of such a policy. I should add that 
there is no evidence whatsoever that a U.S. ``no first use'' policy 
would promote good will and benign behavior by opponents that might 
mitigate these problems.
    Mr. Garamendi. What importance do our NATO allies place in the 
presence of forward-deployed nuclear weapons in Europe? Would they be 
satisfied with the nuclear force structure we currently offer our Asian 
allies?
    Dr. Payne. NATO allies are somewhat divided in opinion regarding 
the value of U.S. forward-based nuclear systems (FBS)--with the 
division generally following understandable geographical lines. In 
particular, those NATO members that neighbor Russia and were former 
members of the Warsaw Pact, and those NATO members that were located 
within the Cold War borders of the Soviet Union, appear to place great 
significance on the deterrence and assurance value of U.S. FBS. In 
fact, these countries have recently been the target of numerous nuclear 
threats from Russian leaders. There is considerable evidence from open 
leadership comments in these cases that these NATO members do not 
believe that they can be assured adequately by U.S. central strategic 
nuclear systems alone. It should be noted that there also appears to be 
increasing concern shown by Asian allies, particularly including South 
Korea, about U.S. reliance on central strategic nuclear systems alone 
for deterrence and their assurance. Public opinion polling in South 
Korea, for example, has revealed considerable popular support for the 
return of U.S. nuclear forces to South Korea.
    Mr. Garamendi. How would you recommend the United States structure 
our forces to respond to Russia's nuclear deescalation policy? How 
could the United States respond without developing new tactical nuclear 
capabilities?
    Dr. Payne. The Russian nuclear ``de-escalation'' strategy is, in 
reality, a nuclear first-use strategy. And, as discussed in Questions 7 
and 9 above, the premise underlying this strategy is that Russia could 
threaten to employ, or in fact employ nuclear weapons in a limited, 
discriminate fashion without triggering a U.S. strategic nuclear 
response. The U.S. would, in effect, be expected to be deterred from 
responding in a forceful way to a severe Russian regional provocation, 
and would, instead, concede to Russian limited nuclear threats or 
limited nuclear use for fear of further Russian nuclear escalation. If 
so, U.S. and NATO deterrence strategies would have failed. U.S. leaders 
may find this an unreasonable expectation on the part of Moscow, but 
Russian leaders appear increasingly confident and have openly applied 
this strategy to its military occupation of Crimea.
    I believe that there are two main requirements to address this 
dangerous and destabilizing Russian nuclear first-use strategy. First, 
NATO and U.S. conventional capabilities need to be sufficiently robust 
in front-line areas to deny Russia the possibility of presenting the 
U.S. and NATO with a fait accompli following a rapid advance into NATO 
or other neighboring territories. In effect, NATO needs to counter 
President Putin's claim that Russian troops could be in five NATO 
capitals within two days.
    Second, U.S. and NATO nuclear capabilities need to be able to deny 
Moscow any confidence that the United States would have so few local 
nuclear options that limited Russian nuclear employment would 
essentially be followed by U.S. and NATO conciliation. Sustaining U.S. 
FBS and flexible nuclear threat options would likely be an important 
contribution to this goal: Western reliance on central strategic 
nuclear systems and conventional forces for deterrence in the region 
could simply confirm the apparent Russian expectation that its nuclear 
threats or employment would defeat a Western conventional defense and 
operate below the Western strategic nuclear deterrence threshold. I 
have not concluded at this point that ``new'' Western tactical nuclear 
weapons are necessary for this purpose. Matching the B-61 modernization 
program with forward-deployment of the F-35 may provide much of the 
needed flexibility and deterrent effect. There are other potential 
deployment options for a nuclear-capable F-35 that also could help 
address this problem without developing new U.S. tactical capabilities, 
as could adapting a number of U.S. missile warheads for a highly-
discriminate, low-yield option.
    Mr. Garamendi. Your plans all assume constant funding of 4-5% of 
the defense budget over the next 30 years. Uncertain fiscal times beg 
the question: what would you do with less? How would your plans change 
with 10%, 30%, or 50% less funding? Asked another way, what is the 
least important part of your nuclear posture?
    Mr. Colby. The amount of spending allocated to nuclear forces and 
their associated capabilities, such as command and control, represent a 
relatively modest proportion of total national spending on defense--
generally considered to be around five percent or less of the defense 
budget over the coming decades.\10\ Given the cornerstone importance of 
U.S. nuclear forces for our security and that of our allies, this is a 
very reasonable amount to spend on their modernization and maintenance.
---------------------------------------------------------------------------
    \10\ See Harrison and Montgomery, ``The Cost of U.S. Nuclear 
Forces: From BCA to Bow Wave and Beyond?'' 33.
---------------------------------------------------------------------------
    For this reason, should the defense budget decline or other needs 
become more pressing, I would recommend protecting expenditures on 
nuclear forces and sacrificing investments in other areas of our 
military that serve more discretionary or elective rather than 
essential interests. That is, in such circumstances, we should not make 
a ``haircut'' across the defense budget. Rather, we should prioritize 
maintaining spending on those forces that are most important to our 
fundamental interests, such as nuclear forces, long-range strike and 
surveillance, and counter-terrorism capabilities, and decrease 
expenditures on less vital capabilities such as those oriented to 
stabilization and counterinsurgency operations or that have limited 
value in a more contested anti-access/area denial environment.\11\
---------------------------------------------------------------------------
    \11\ For a similar view, see Andrew Krepinevich, ``Strategy in a 
Time of Austerity,'' Foreign Affairs (November/December 2012), 58-69.
---------------------------------------------------------------------------
    If the defense budget were to decline to a point at which decisions 
about which elements of the nuclear forces were to be retained became 
necessary, I would recommend maintaining the Triad and existing warhead 
plans but reducing the total numbers procured and/or altering their 
deployment schedules to reduce costs. It is important to note, in this 
respect, that proposals to remove a leg of the Triad may not even end 
up saving significant sums of money.
    Mr. Garamendi. What role do conventional strike capabilities play 
in U.S. deterrence and extended deterrence? What are our allies' 
expectations about the weapons with which we will respond in the event 
that mutual defense is necessary?
    Mr. Colby. Conventional forces play an elemental role in our 
deterrence and extended deterrence strategies. Fundamentally, we 
reasonably seek to rely when possible and prudent on conventional 
forces to deter adversary attack and coercion against ourselves and our 
allies. We can do so both through the outright threat of defeat--so-
called deterrence by denial--as well as the threat of punishment 
through the use of conventional forces--so-called deterrence by cost-
imposition. Using conventional forces for these functions is, of 
course, preferable because one of the most compelling ways to try to 
keep a conflict from escalating to the nuclear level is by refraining 
from using our own nuclear weapons.\12\
---------------------------------------------------------------------------
    \12\ It is important to note that conventional forces can prompt 
nuclear use, however, particularly if they are used to pursue ``total'' 
objectives such as regime change or territorial conquest. Conventional-
only strategies therefore, unless appropriately limited, can also drive 
nuclear use.
---------------------------------------------------------------------------
    This effort to rely on conventional forces for deterrence and 
defense is well-understood and a long-term aspiration of U.S. policy. 
Paul Nitze remarked during the INF hearings in 1988 that the first 
conversation he heard in government about replacing some degree of U.S. 
reliance on its nuclear arsenal with augmented conventional forces took 
place in 1949.\13\
---------------------------------------------------------------------------
    \13\ As Nitze put it: ``We have been working hard for a long period 
of time, for many, many years, to get closer balance in the 
conventional field. In fact, that goes back all the way to my personal 
experience in 1949, when we began this effort to improve the 
conventional balance and reduce our reliance upon nuclear weapons. We 
tried and tried and tried.'' Testimony of Paul H. Nitze to the Senate 
Committee on Foreign Relations, January 28, 1988, available in The INF 
Treaty: Hearings Before the Committee on Foreign Relations of the 
United States Senate. (Washington, D.C.: Government Printing Office), 
311.
---------------------------------------------------------------------------
    The issue today is not that conventional forces' role is 
underestimated in U.S. defense posture, planning, and policy--but 
rather that nuclear forces' role is. Indeed, not a few prominent policy 
leaders and government officials openly or privately express the view 
that the United States should not respond to adversary nuclear use with 
a nuclear strike of its own--let alone in the face of large-scale 
conventional attack that the United States and its allies cannot 
successfully repel.
    It is for this reason that a significant number of U.S. allies--
particularly those that feel imperiled--privately and sometimes 
publicly plead or insist that the United States make clearer that it 
would use nuclear weapons if these allies were sufficiently attacked--
and not only in cases of nuclear attack. It is well known, for 
instance, that Japan and South Korea strongly opposed efforts within 
the Obama Administration for the United States to adopt a ``no first 
use'' posture.\14\ Similar views are common elsewhere in the Asia-
Pacific as well as in Eastern Europe and other parts of the NATO 
Alliance more concerned about the threat from Russia.
---------------------------------------------------------------------------
    \14\ See, inter alia, ``Japan Balks at Limits on U.S. Nukes,'' The 
Japan Times, September 15, 2009 and George Perkovich, Do Unto Others: 
Toward a Defensible Nuclear Doctrine (Washington, DC: Carnegie 
Endowment for International Peace, 2013), 2 and 21.
---------------------------------------------------------------------------
    It should be noted that, as in our own system, there are often 
differing views within allied governments and publics on extended 
nuclear deterrence and the conditions under which the United States 
should use nuclear weapons. Generally speaking, ministries of defense 
and security-conscious political leaderships tend to be more concerned 
about maintaining the salience of nuclear weapons in U.S. extended 
deterrence, while ministries of foreign affairs (especially disarmament 
bureaus) and disarmament-focused political leaderships tend to be more 
focused on minimizing their role.
    Mr. Garamendi. Current policy states that the United States will 
respond in exceptional circumstances to non-nuclear attacks with 
nuclear weapons. Should the United States adopt a ``no first use'' 
policy, which would deemphasize the role that nuclear weapons play in 
our overall strategic posture? Would it help or hurt our interactions 
with other nuclear weapons states?
    Mr. Colby. The United States should not adopt a ``no first use'' 
policy regarding nuclear weapons. Such a posture would be ill-advised 
for several reasons, especially in an era when our conventional 
military advantages are being challenged and in many respects are 
eroding.
    First, the United States benefits from the deterrent power of the 
possibility that it may use nuclear weapons in extreme circumstances 
not involving nuclear attack. Potential adversaries must calculate that 
the United States might well use nuclear weapons even if they find ways 
to do great damage to us, our allies, or our interests without 
resorting to nuclear weapons themselves. This means that adversaries 
can never hope to ``outwit'' U.S. nuclear deterrence and therefore adds 
to their caution in challenging the important interests of the United 
States. It is largely for this reason that many U.S. allies, 
particularly those that feel more threatened, tend strongly to oppose 
U.S. adoption of a ``no first use'' pledge.
    Second, the benefits of a ``no first use'' policy are not 
outweighed by its costs and risks. It is true that such a policy can 
strengthen an adversary's confidence that a war with the United States 
that it agrees to keep conventional is unlikely to go nuclear. This can 
reduce ``use or lose'' and instability pressures in the midst of a war. 
Yet this is not a dramatically different perception than is currently 
the case: the United States consistently gives the impression that it 
will only use nuclear weapons under ``extreme circumstances'' and has 
never employed them since 1945 despite being involved in several major 
conflicts. Adversaries very likely understand that the United States 
will only seriously consider employing nuclear weapons under such 
``extreme'' conditions.
    There is a deeper problem with such a pledge, however. A ``no first 
use'' pledge can never be verified or enforced. Any state pledging a 
``no first use'' policy--including the United States--can, therefore, 
always change its mind and renege on such a promise in the midst of a 
conflict.\15\ This means that an adversary, knowing this, may simply 
discount the value and scope of the ``no first use'' policy, in which 
case serious questions arise about the purpose and significance of the 
policy. What is the point of such a policy if an adversary acts as if 
it is irrelevant?
---------------------------------------------------------------------------
    \15\ The United States quickly abandoned its nearly two centuries-
old insistence on the protection of neutral shipping at the beginning 
of World War II in favor of pursuit of unrestricted submarine warfare. 
See, for instance, Joel Ira Holwitt, ``Execute against Japan'': The 
U.S. Decision to Conduct Unrestricted Submarine Warfare (College 
Station, TX: Texas A&M University Press, 2013).
---------------------------------------------------------------------------
    Or, worse, an adversary may actually believe the policy and judge 
it sufficiently necessary or attractive in the midst of a war to take 
steps that compromise the most important interests of the United States 
or its allies without resorting to nuclear weapons. In such an 
eventuality, the United States will likely be pressed--including by its 
allies whose vital interests are the most likely to be at stake--to use 
nuclear weapons. In other words, an opponent that actually takes such a 
pledge at face value may be incentivized to create the very conditions 
that would provoke nuclear weapons use by the United States.
    Thus a ``no first use'' policy is likely either to be, at best, of 
marginal value or, at worst, to encourage the very conditions likely to 
prompt U.S. nuclear weapons employment. Accordingly, the United States 
should instead maintain ambiguity about the conditions under which it 
would use nuclear weapons, but emphasize that such a step would only be 
considered under ``extreme circumstances'' that impinge on the vital 
interests of itself or its allies. Thus U.S. adversaries and allies 
alike will continue to understand that the United States would only 
employ such terrible weapons under the most severe challenge, but that 
an adversary can never hope to ``end run'' U.S. restraint with respect 
to its nuclear forces to take advantage of the United States or its 
allies.
    Mr. Garamendi. What importance do our NATO allies place in the 
presence of forward-deployed nuclear weapons in Europe? Would they be 
satisfied with the nuclear force structure we currently offer our Asian 
allies?
    Mr. Colby. Given the size of and the diversity of perspectives 
among member-states within the Atlantic Alliance, there is substantial 
variation within NATO regarding the value of U.S. nuclear weapons 
forward-deployed in Europe. On the whole, member-states farther to the 
east that perceive themselves as more under threat, particularly from 
Russia, tend to place greater value on these weapons than those farther 
west. Moreover, there tends to be a divide within European governments 
and populaces, with ministries of defense and security-conscious 
political leaderships emphasizing the importance of such weapons, and 
ministries of foreign affairs (especially their disarmament bureaus) 
and disarmament-minded political leaderships underlining their 
demerits. This disagreement resulted in the somewhat mixed message 
about these weapons reflected in the 2012 NATO Deterrence and Defense 
Posture Review, which affirmed that NATO is ``a nuclear alliance'' but 
referred to the forward-deployed non-strategic nuclear weapons only in 
the context of expressing a willingness to reduce them in the context 
of mutual reductions with Russia.\16\
---------------------------------------------------------------------------
    \16\ NATO, Deterrence and Defence Posture Review (May 20, 2012).
---------------------------------------------------------------------------
    On the whole, however, it is worth observing that member-states 
have agreed that U.S. nuclear weapons should continue to be forward-
deployed in Europe, testifying to their value. Moreover, calls for 
withdrawing these weapons have quieted and have fallen in credibility 
in light of Russia's threatening behavior and rhetoric since early 
2014.
    U.S. allies that perceive themselves as threatened by Russia have 
made it clear that they would not judge a force posture that the United 
States has pursued in Asia as attractive. While much of the value of 
U.S. forward-deployed weapons is symbolic, this symbolism is 
nonetheless important as it gives concrete evidence of the nuclear link 
between the United States and NATO/Europe and demonstrates the 
collective involvement of the Alliance member-states in the nuclear 
mission. Indeed, in point of fact, key U.S. allies in Asia, 
particularly in South Korea and Japan, are increasingly questioning the 
suitability of the U.S. model of extended nuclear deterrence in their 
region.
    Mr. Garamendi. How would you recommend the United States structure 
our forces to respond to Russia's nuclear deescalation policy? How 
could the United States respond without developing new tactical nuclear 
capabilities?
    Mr. Colby. While I strongly recommend that the United States 
modernize and adapt its nuclear forces to enable discriminate and 
relatively controlled employment, this is by no means the only 
important step needed to deal with Russia's de-escalation and broader 
military strategy. The nuclear element is the coup de grace of Moscow's 
strategy--but it only makes sense if Russia can use it to terminate a 
conflict to reap gains. To do this, Moscow needs conventional and 
irregular forces able to gain positions which can then be locked in 
through a nuclear ``escalate to deescalate'' strategy.
    To deal with this problem, the United States and NATO as a whole 
should focus on substantially strengthening their conventional military 
posture in Eastern Europe, including by forward-deploying more 
substantial forces in the Baltic States and Poland, strengthening 
Allied forces' ability to more effectively contest Russian anti-access/
area denial capabilities, and enabling U.S. surge and reinforcement 
forces.\17\ It is worth emphasizing that at least some of these 
recommended steps, particularly the substantial reinforcement of the 
Baltic states, could be coupled with arms control proposals to 
Moscow.\18\ At the same time, eastern NATO member-states should focus 
on strengthening civil order capabilities to make it more difficult for 
Russia to create or exploit local conditions through the use of 
``little green men,'' disinformation, and the like.
---------------------------------------------------------------------------
    \17\ For further development of these recommendations and the 
underlying problems they seek to address, see Colby and Solomon, 
``Facing Russia: Conventional Defence and Deterrence in Europe.''
    \18\ For further development of this proposal, see Elbridge Colby, 
``Step Up to Stand Down: The United States, NATO, and Dissuading 
Russian Aggression,'' Foreign Affairs, August 13, 2015, https://
www.foreignaffairs.com/articles/poland/2015-08-13/step-stand-down.
---------------------------------------------------------------------------
    Together, a discriminate nuclear posture, a more formidable 
conventional deterrent, and improved civil capabilities will present 
Moscow with a less inviting target than is the case today, and will 
accordingly make NATO safer.
    Mr. Garamendi. Your plans all assume constant funding of 4-5% of 
the defense budget over the next 30 years. Uncertain fiscal times beg 
the question: what would you do with less? How would your plans change 
with 10%, 30%, or 50% less funding? Asked another way, what is the 
least important part of your nuclear posture?
    Dr. Blechman. The minimal deterrent that I advocate would not 
require more than 3 percent of the defense budget. By reducing the 
submarine buy to 8 or 10 boats, reducing the ICBM force from 400 to 300 
missiles, making the minor improvements necessary to keep Minuteman 
effective into the 2040s, rather than replacing it with a new missile, 
withdrawing the tactical weapons from Europe and dismantling them, and 
cutting back current plans to modernize the nuclear infrastructure, I 
believe we can save a considerable amount of money that could be used 
to maintain the readiness and effectiveness of our conventional forces, 
and to invest in advanced technologies that can assure our continued 
conventional superiority.
    Mr. Garamendi. What role do conventional strike capabilities play 
in U.S. deterrence and extended deterrence? What are our allies' 
expectations about the weapons with which we will respond in the event 
that mutual defense is necessary?
    Dr. Blechman. U.S. conventional strike capabilities are the central 
element in both our deterrent posture and in our capabilities to 
protect our allies from attacks--both in their perceptions and in fact. 
Although the allies see U.S. strategic nuclear forces as essential to 
deter nuclear attacks, they understand the primary threats to their 
security will come from conventional forces and the ability of their 
armed forces, combined with those of the U.S., to respond effectively 
to any such attack dissuades potential adversaries from even 
contemplating such actions.
    Mr. Garamendi. Current policy states that the United States will 
respond in exceptional circumstances to non-nuclear attacks with 
nuclear weapons. Should the United States adopt a ``no first use'' 
policy, which would deemphasize the role that nuclear weapons play in 
our overall strategic posture? Would it help or hurt our interactions 
with other nuclear weapons states?
    Dr. Blechman. Personally, I don't believe that doctrinal statements 
are nearly as important as the actual capabilities and behavior of 
nations. Nonetheless, I believe the U.S. should adopt a policy that 
states that the only role of our nuclear weapons is to deter and, if 
necessary, to respond to a nuclear attack on ourselves or our allies. I 
believe this would strengthen our hand non-nuclear states and the Non-
proliferation Treaty and would have no real effect on relations with 
nuclear weapon states.
    Mr. Garamendi. What importance do our NATO allies place in the 
presence of forward-deployed nuclear weapons in Europe? Would they be 
satisfied with the nuclear force structure we currently offer our Asian 
allies?
    Dr. Blechman. Prior to the Russian seizure of Crimea and 
intervention in Eastern Ukraine, many NATO allies were beginning to 
urge the removal of U.S. tactical nuclear weapons from Europe. Since 
then, however, and particularly in view of Russian threats and 
provocative military behavior in northern Europe, the members of NATO 
east of Germany, have put new emphasis on the need to maintain and even 
strengthen NATO's tactical nuclear posture. This is irrational in my 
view, as these weapons serve no military purpose, would be unlikely to 
be used in any conflict (as the host nations--Germany, Belgium, 
Netherlands, and Italy--would have to authorize their aircraft crews to 
deliver them), and their deterrent effect is negligible compared to 
that provided by U.S. strategic nuclear forces. Still, one should 
expect considerable attention to be paid to these weapons at the NATO 
meeting in Warsaw in May and steps taken to re-energize attention paid 
to exercises and planning for these weapons.
    Mr. Garamendi. How would you recommend the United States structure 
our forces to respond to Russia's nuclear deescalation policy? How 
could the United States respond without developing new tactical nuclear 
capabilities?
    Dr. Blechman. The United States should make clear that any nuclear 
use--whatever the launching vehicle, range of the weapon, or it yield--
will be met with an at least comparable nuclear response from U.S. 
strategic (long-range) nuclear forces. There is no need, in my view, to 
match Russian tactical forces when our strategic capabilities are far 
greater than necessary to completely destroy Russia and thereby deter 
any nuclear attack. If desirable, during a crisis in Europe that seemed 
to be leading to a conflict, the U.S. could deploy nuclear capable of 
long-range bombers to bases in Europe to signal the Russians that we 
were prepared for such a conflict and that they should not consider any 
nuclear use.
    Mr. Garamendi. Former Secretary of Defense Perry and former 
Assistant Secretary of Defense Andrew Weber recently wrote an op-ed 
calling on the president to cancel the planned acquisition of the Long-
Range Standoff weapon, because it would be destabilizing. Do you 
believe this weapon is needed? Why or why not?
    Dr. Blechman. I believe the U.S. should give a high priority to 
developing and rapidly producing the new long-range stealthy, 
penetrating bomber. This alone should ensure the ability of the bomber 
leg of the triad to carry out its mission for years to come. Although I 
don't see why developing the LRSO would be ``destabilizing,'' I simply 
do not see a need for it at present. Moreover, given the huge cost of 
the nuclear modernization program already underway, the LRSO is an 
unaffordable luxury. I would keep this program in a very small research 
program until such time, if ever, the DOD determines that even the new 
bomber is unable to penetrate Russian air defenses. If that is the case 
already, then we should not be developing a penetrating bomber.
    Mr. Garamendi. Would you favor continuing to press for potential 
nuclear weapons reductions negotiations with Russia, even though Russia 
is not in compliance with its INF Treaty obligations? Why or why not?
    Dr. Blechman. I would continue to press Russia to comply with the 
INF Treaty by not conducting any further tests of the missile that 
apparently violated its term and, particularly, by not deploying any of 
those missiles. If the Russians do not violate the treaty again, I 
would press for renewed negotiations to reduce nuclear arms--to cover 
both long-range and shorter range weapons. We lived for many years with 
a clear Russian violation of the ABM Treaty and still continued to 
negotiate with them to reduce nuclear forces, to both sides benefit.
    Mr. Garamendi. Your plans all assume constant funding of 4-5% of 
the defense budget over the next 30 years. Uncertain fiscal times beg 
the question: what would you do with less? How would your plans change 
with 10%, 30%, or 50% less funding? Asked another way, what is the 
least important part of your nuclear posture?
    Dr. Mount. That funding for the current nuclear modernization 
program will be cut from its requested levels approaches a certainty. 
The overwhelming trend in Major Defense Acquisition Programs over the 
last several decades is that the military services do not receive 
appropriations to fund the requested number of units. Such was the fate 
of the Zumwalt destroyer, the Comanche helicopter, the B-2 stealth 
bomber, the Seawolf attack submarine, and several other programs. In 
all likelihood, this pattern will repeat itself in the Ohio Replacement 
Program, the Long Range Strike Bomber, and for other Air Force 
procurement programs. To expect otherwise in a period of intense fiscal 
pressure is simply unrealistic. As a result, the United States should 
accept that the current modernization plans are unsustainable and pare 
them back. Only prudent cuts that are planned in advance can ensure 
that U.S. Strategic Command can plan and execute a rational strategy 
for nuclear deterrence. If the United States does not review and limit 
current plans at an early date, it is likely that the services will be 
forced to hurriedly modify nuclear targeting plans and operational 
concepts in order to keep up with cuts imposed by the U.S. Congress. In 
short, nuclear strategy would be heavily influenced by whichever 
program happens to face cost overruns, a circumstance which is 
certainly not in the national interest.
    Mr. Garamendi. Dr. Mount, I fear that future U.S. nuclear posture, 
especially with the recommendations in this report that the U.S. 
develop new tactical nuclear capabilities, rather than deter the small 
number of states who fear U.S. conventional dominance will instead push 
a much larger number of states to seek nuclear weapons which they see 
as militarily useful. Can you speak about the current state of the 
Nuclear Non-Proliferation Treaty and what the strategic environment 
might look like if current non-weapons states begin to withdraw from 
the NPT, due in part to a perceived non-commitment to disarmament?
    Dr. Mount. I share your concern. The Nuclear Nonproliferation 
Treaty (NPT) stands at a critical and precarious juncture. A number of 
countries--many of which are allies--are seriously concerned that the 
United States is not living up to its commitment under Article VI of 
the treaty to make concerted progress toward a world without nuclear 
weapons. Whether or not one believes that this goal is useful or viable 
in the foreseeable future, the centrality of the Nonproliferation 
Treaty to the stability of the international system requires that the 
United States makes credible efforts in this direction. There are a 
number of steps that the United States can take in this regard without 
dropping below the aggregate strategic warhead limits of the New START 
treaty. For example, the national laboratories could renovate 
facilities to meet Safeguards By Design (SBD) standards and construct 
new facilities in a way that facilitates international inspection. The 
Departments of Energy, Defense, and State can compile datasets on 
nuclear materials and weapons and lodge this data in encrypted form 
with the IAEA or with allies or can selectively release this data 
publicly. And the Department of Defense can limit the numbers and types 
of dual-capable weapons systems. In these ways, the United States can 
show that it is working towards a verifiable nuclear disarmament treaty 
without dismantling warheads. In addition, the United States can and 
should continue to press Russia to make further verifiable reductions 
in both countries' stockpiles. The international movement on the 
humanitarian consequences of nuclear weapons has garnered global 
interest in a ban on nuclear weapons. If successful, a ban treaty might 
well undermine the Nonproliferation Treaty, as many countries would 
come to see a ban as an alternative forum for governing the nuclear 
world. At worst, this could precipitate the withdrawal of countries 
from the NPT, who believe that the nuclear weapons states' (NWS) 
abrogation of their commitments to disarm thereby relieves non-nuclear 
weapons states (NNWS) of their obligations not to proliferate. If this 
came to pass, it would seriously damage the longstanding U.S. effort to 
prevent the spread of nuclear weapons.
    Mr. Garamendi. What role do conventional strike capabilities play 
in U.S. deterrence and extended deterrence? What are our allies' 
expectations about the weapons with which we will respond in the event 
that mutual defense is necessary?
    Dr. Mount. Nuclear weapons are poor instruments for defense. In the 
event a U.S. ally faces subconventional efforts to destabilize their 
government or an invasion from regular forces, the United States and 
the ally would hope and expect to resist that invasion with 
conventional forces. At the nuclear level, we would face a choice 
between employing a nuclear weapon against enemy troops on allied 
territory (which would likely cause widespread casualties of allied 
civilians) or to engage in a countervalue strike against the enemy 
homeland (which would expand the geographic scope of the engagement, 
thereby increasing the risk to neighboring states and to the U.S. 
homeland). As a result, U.S. allies have a right to expect and a 
responsibility to assist the United States in planning and 
prepositioning forces for a conventional defense of their territory. 
Though this might incur serious human and financial costs, these almost 
certainly pale in comparison to the increased risk of nuclear exchange 
if we succumb to the idea that reliance on nuclear weapons is necessary 
and sufficient to defend our allies.
    Mr. Garamendi. Current policy states that the United States will 
respond in exceptional circumstances to non-nuclear attacks with 
nuclear weapons. Should the United States adopt a ``no first use'' 
policy, which would deemphasize the role that nuclear weapons play in 
our overall strategic posture? Would it help or hurt our interactions 
with other nuclear weapons states?
    Dr. Mount. I believe the United States could safely adopt a ``no 
first use'' policy without deleteriously affecting our ability to 
maintain deterrence. The only circumstances in which the United States 
would contemplate the first use of nuclear weapons are if a close ally 
faced an existential threat that could not be halted with conventional 
means. Given the military capabilities of the U.S. and its allies, this 
possibility is remote. If faced with an invasion, nuclear first use 
would be a desperate gambit with little hope that it could preserve the 
territorial integrity of an ally at acceptable cost. Neither a strike 
on allied territory nor one on enemy territory would be likely to 
compel an aggressor to cease an ongoing military option that stood a 
good chance of succeeding. The doubtful success of such a strike makes 
its execution less likely, which in turn decreases its deterrent 
utility. By issuing a commitment to abstain from first use of nuclear 
weapons, the United States would modestly stabilize any militarized 
dispute with a regional nuclear power and lower the risk of nuclear 
war. If necessary, a ``no first use'' policy could be revised later as 
conditions require.
    Mr. Garamendi. What importance do our NATO allies place in the 
presence of forward-deployed nuclear weapons in Europe? Would they be 
satisfied with the nuclear force structure we currently offer our Asian 
allies?
    Dr. Mount. According to consistent reports in the unclassified 
press, the United States currently deploys about 180 B61 gravity bombs 
at a handful of bases located in select NATO countries. These forces 
reportedly operate a very low level of readiness and would take several 
weeks to activate, arm, and deploy. In any event, it is doubtful that a 
U.S. president would choose provide release authorization to an allied 
pilot in a tactical aircraft when several more prompt and survivable 
options exist in the U.S. force. If the weapons are not likely to be 
used, their power to assure allies and deter adversaries is 
correspondingly diminished. Moreover, Washington observers often 
overlook the differences of opinion within NATO regarding the presence 
of U.S nuclear weapons in Europe. A number of U.S. allies have voiced 
skepticism about the NATO nuclear mission and have suggested that the 
weapons be removed. As a result, the presence of U.S. nuclear weapons 
is a low-level but unnecessary irritant to the alliance. As NATO states 
agreed in the Wales Summit Declaration of September, 2014, ``The 
strategic nuclear forces of the Alliance, particularly those of the 
United States, are the supreme guarantee of the security of the 
Allies'' (as opposed to nonstrategic nuclear forces). The weapons are a 
relic of the Cold War, when the United States faced an imminent threat 
of invasion by a numerically superior Soviet force. Today, the weapons 
serve little purpose. The 180 weapons could be removed without 
deleterious effect to the U.S. deterrent posture or to allied cohesion. 
As a result, the B61 Life Extension Program and the program to create 
nuclear-capable variant of the F-35 Lightning II are simply not worth 
the expense, which could better be directed to ensuring that the 
services can adequately fund programs that are critical to deterrence 
operations.
    Mr. Garamendi. How would you recommend the United States structure 
our forces to respond to Russia's nuclear deescalation policy? How 
could the United States respond without developing new tactical nuclear 
capabilities?
    Dr. Mount. Russia's policy of nuclear ``deescalation'' is intended 
as a means of offsetting American conventional superiority. By issuing 
incredible nuclear threats, Russia's leadership hopes to deter the 
United States from bringing the superior power of its armed forces to 
bear. Developing, deploying, or using tactical nuclear capabilities 
would only prove to Russia that it could successfully shift the 
strategic competition onto more advantageous grounds, and encourage it 
to behave more recklessly at the nuclear level. The United States 
should disabuse Russia of the notion that its irresponsible rhetoric 
can alter our resolve to defend our allies with conventional power and 
reverse any gains that Russia hopes to secure. With the time, 
attention, and resources it would take to build new nuclear 
capabilities, the United States and its allies should rededicate 
themselves to improving conventional deterrence. U.S. officials should 
consistently maintain that the use of nuclear weapons can never be 
deescalatory and reiterate the commitment to defend the territorial 
integrity of our allies in any eventuality.
    Mr. Garamendi. Former Secretary of Defense Perry and former 
Assistant Secretary of Defense Andrew Weber recently wrote an op-ed 
calling on the president to cancel the planned acquisition of the Long-
Range Standoff weapon, because it would be destabilizing. Do you 
believe this weapon is needed? Why or why not?
    Dr. Mount. I do not believe the Long-Range Standoff weapon is a 
necessary system for the maintenance of nuclear deterrence or for the 
assurance of our allies. It will be a major challenge to fund nuclear 
modernization. To protect core systems, we should minimize expenses on 
extraneous ones. By the time the LRSO is ready to come online, we 
should already have a next-generation penetrating bomber that can 
deliver similar yields from locations in theater. Additionally, the 
Joint Air-to-Surface Standoff Missile-Extended Range (JASSM-ER) 
recently entered service and is sufficient to hold most targets at 
risk; those targets that require a nuclear yield are held at risk with 
ballistic nuclear missiles, launched from land or from sea. 
Furthermore, information released to the public suggests that the 
program runs the risk of violating a longstanding pledge of presidents 
from both parties not to procure new nuclear capabilities. To the 
extent that the LRSO improves upon the ALCM's range, stealth, and 
accuracy, it would reverse this policy. This, in turn, would cause 
tension with certain allies and further damage to the nonproliferation 
regime. In short, the system is simply not required and not worth the 
diplomatic or fiscal costs of developing it. We should retain the 
option to procure the system in the future but cancel the current 
program. Making these kinds of difficult decisions is necessary to keep 
from falling into a new nuclear arms race.
    Mr. Garamendi. Would you favor continuing to press for potential 
nuclear weapons reductions negotiations with Russia, even though Russia 
is not in compliance with its INF Treaty obligations? Why or why not?
    Dr. Mount. Yes. The Russian violation of the Intermediate Nuclear 
Forces Treaty is a serious challenge to the arms control regime. It 
should make us highly skeptical of Russia's ability to negotiate in 
good faith on arms control. The United States should undertake a whole-
of-government approach to ensure that Russia does not realize strategic 
gains from its violation. However, Russia is rigorously and 
consistently abiding by the terms of the New START agreement. Recently, 
the two sides exchanged their 10,000th notification as required under 
the terms of the treaty. These notifications are a major source of 
information on the Russian nuclear arsenal and help to stabilize the 
relationship even when other lines of communication are endangered by 
poor relations. Furthermore, the United States retains very real 
concerns over the size and structure of the Russian nuclear arsenal. An 
agreement that limits the number and variety of Russia's tactical 
nuclear systems or places greater constraints on deployed strategic 
systems could very well be in the national interest. Though the 
Russians have so far refused the Obama administration's offers to 
negotiate along these lines, the offer should remain on the table. 
Throughout the Cold War, U.S. presidents of both parties continued to 
press the Soviet Union to engage in mutual verifiable arms reductions 
and these efforts helped to promote deterrence and stabilize an 
acrimonious relationship. As we move into a period of increased 
geopolitical competition, arms control becomes more important, not 
less. Arms control is not a reward for a stable world; it is a means of 
building one.

                                  [all]
</pre></body></html>
